<html>
<title> - DNA CRIME LABS: THE PAUL COVERDELL NATIONAL FORENSIC SCIENCES IMPROVEMENT ACT</title>
<body><pre>[Senate Hearing 107-342]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-342
 
                  DNA CRIME LABS: THE PAUL COVERDELL 
               NATIONAL FORENSIC SCIENCES IMPROVEMENT ACT
=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2001
                               __________

                          Serial No. J-107-19

                               __________

         Printed for the use of the Committee on the Judiciary







                        U.S. GOVERNMENT PRINTING OFFICE
78-008                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                      Sharon Prost, Chief Counsel
                     Makan Delrahim, Staff Director
         Bruce Cohen, Minority Chief Counsel and Staff Director













                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    27
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    21
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     7
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................     7

                               WITNESSES

Buel, Eric, Director, Vermont Forensic Laboratory, Waterbury, 
  Vermont........................................................    36
Boyd, David G., Deputy Director, National Institute of Justice, 
  Office of Justice Programs, Department of Justice, Washington, 
  D.C............................................................     8
Coonrod, Keith K., Chair, Consortium of Forensic Science 
  Organizations, Albany, New York................................    14
Downs, James Claude Upshaw, M.D., Director/Chief Medical 
  Examiner, Department of Forensic Services, State of Alabama, 
  Auburn, Alabama................................................    40
Nix, Milton E., Jr., Director, Georgia Bureau of Investigation, 
  Decatur, 
  Georgia........................................................    43
Petersen, William, Actor, Valencia, California...................    18
Sheppo, Michael G., Bureau Chief, Illinois State Police Division 
  of Forensic Services, Forensic Sciences Command, Springfield, 
  Illinois.......................................................    32
Townsend, Richard J., Director, Utah Bureau of Forensic Sciences, 
  Salt Lake City, Utah...........................................    28
Yura, Michael T., Director, Forensic Identification Program, West 
  Virginia University, Morgantown, West Virginia.................    47

                         QUESTIONS AND ANSWERS

Questions submitted by the Committee on the Judiciary............    54
Questions submitted by Senator Feingold..........................    55
Responses of Eric Buel to questions submitted by the Committee on 
  the Judiciary..................................................    55
Responses of Eric Buel to questions submitted by Senator Feingold    56
Responses of J.C. Upshaw Downs, M.D. to questions submitted by 
  the Committee on the Judiciary.................................    57
Responses of J.C. Upshaw Downs, M.D. to questions submitted by 
  Senator Feingold...............................................    58
Response of the National Institute of Justice to a question 
  submitted by Senator Schumer...................................    60
Responses of Milton E. Nix, Jr. to questions submitted by Senator 
  Feingold.......................................................    60
Responses of Michael G. Sheppo to questions submitted by the 
  Committee on the Judiciary.....................................    61
Responses of Michael G. Sheppo to questions submitted by Senator 
  Feingold.......................................................    63
Responses of Richard J. Townsend to questions submitted by the 
  Committee on the Judiciary.....................................    65
Responses of Richard J. Townsend to questions submitted by 
  Senator Feingold...............................................    66
Responses of Michael T. Yura to questions submitted by the 
  Committee on the Judiciary.....................................    66

                       SUBMISSIONS FOR THE RECORD

Federal Bureau of Investigation, FBI Laboratory, Washington, DC, 
  proposal.......................................................    68
Fenger, Terry W., Director, Forensic Science Program, School of 
  Medicine, Marshall University, Huntington, WV, statement.......    70
Police Executive Research Forum, Washington, DC, report..........    71











     DNA CRIME LABS: THE PAUL COVERDELL NATIONAL FORENSIC SCIENCES 
                            IMPROVEMENT ACT

                              ----------                              


                         TUESDAY, MAY 15, 2001

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:13 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Sessions, Leahy, Feingold, and 
Durbin.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Good afternoon. I am pleased to welcome all 
of you to today's hearing on forensic science.
    I appreciate the efforts of Senator Sessions, who has 
agreed to chair the hearing.
    While the topic may at first blush sound somewhat dry, I 
assure you that any reader of Patricia Cornwell's novels or any 
viewer of the television programs ``Quincy'' or ``CSI: Crime 
Scene Investigation'' knows the work performed by our Nation's 
forensic scientists is truly fascinating. These are the people 
who, by analyzing fingerprints, DNA samples, fibers, hair, 
ballistics and other crime scene evidence, help solve some of 
our most difficult crimes. Without them, I don't think we would 
solve a lot of crimes.
    The work performed by these scientists carries with it an 
awesome responsibility. Because of their expertise, the 
testimony of forensic scientists often carries great weight 
with a jury in a criminal trial. In that regard, we are all 
troubled by allegations that mistakes by a police chemist 
helped send innocent people to prison.
    This isolated situation should not be used unfairly to 
indict the thousands of forensic scientists who perform their 
work professionally and responsibly. It should, however, remind 
us that those who work in our criminal justice system have an 
obligation to be diligent, honest and fair-minded. And we as 
public policy leaders have the obligations to ensure that our 
forensic scientists have the resources necessary to carry out 
their critical work. Thanks in large part to Senator Sessions, 
we now have legislation that will do just that.
    The Paul Coverdell National Forensic Sciences Improvement 
Act of 2000, introduced last session by Senator Sessions and 
signed into law by President Clinton, authorized substantial 
resources for State and local crime laboratories. These 
resources, awarded to States by the Attorney General in the 
form of block grants, can be used by laboratories for 
personnel, facilities, training, equipment and other supplies. 
The legislation also contains an important safeguard that will 
ensure testing accuracy.
    To apply for a grant, a State must certify that it has 
either a forensic laboratory system, coroner's office or 
medical examiner's office that is accredited by the Laboratory 
Accreditation Board of the American Society of Crime Laboratory 
Directors or the National Association of Medical Examiners, or 
that the State would use a portion of the grant to prepare and 
apply for such accreditation. This provision is critical given 
that less than one-half of all crime laboratories in the United 
States are currently accredited.
    The resources authorized by this legislation are dearly 
needed. To cite one statistic that I am certain we will hear 
again this afternoon, a recent study by the American Society of 
Crime Laboratory Directors found that 9,000 additional forensic 
scientists are needed to have a 30-day turnaround of evidence. 
The study also found that the majority of labs do not even have 
the basic equipment needed to respond to the caseloads that 
they currently have.
    I know that the administration supports the Coverdell Act, 
and I am confident that I can work with Attorney General 
Ashcroft to see that the needs of our Nation's crime labs are 
addressed.
    Many of our witnesses today are officials with State 
forensic laboratories. In closing, I want to urge you to be 
creative and proactive in seeking solutions to your personnel 
and resource needs. For example, there are now private 
institutions that offer cost-effective training programs and 
other services for forensic scientists. One such institute, the 
non-profit Virginia Institute of Forensic Science and Medicine, 
on whose board I am proud to sit, trains many of Virginia's 
crime scene investigators, forensic scientists, medical 
examiners and other law enforcement investigators. In many 
cases, the Institute can provide training at a lower cost than 
State-run laboratories. Many of you may want to go there and 
take a good look at what they are doing.
    Let me now turn to our Democratic leader on the Committee, 
Senator Leahy, for his opening statement, and I will turn the 
remainder of the hearing over to Senator Sessions, whose 
efforts and leadership on this issue have been very, very 
critical in getting these matters on their way. I am very 
grateful to him. I am grateful to our Democrat leader on the 
Committee, as well, for his hard work in these areas as a 
former prosecutor and as somebody who fully understands these 
problems.
    [The prepared statement of Chairman Hatch follows:]

Statement of Hon. Orrin G. Hatch, a U.S. Senator from the State of Utah

    Good afternoon. I am pleased to welcome you all to today's hearing 
on forensic science. While the topic may at first blush sound somewhat 
dry, I assure you that, as any reader of a Patricia Cornwell novel or 
any viewer of the television programs Quincy or CSI: Crime Scene 
Investigation knows, the work performed by our nation's forensic 
scientists is truly fascinating. These are the people who, by analyzing 
fingerprints, DNA samples, fibers, hair, ballistics, and other crime 
scene evidence, help solve some of our most difficult crimes.
    The work performed by these scientists carries with it an awesome 
responsibility. Because of their expertise, the testimony of forensic 
scientists often carries great weight with the jury in a criminal 
trial. In that regard, we are all troubled by allegations that mistakes 
by a police chemist in Oklahoma helped send innocent people to prison. 
This isolated situation should not be used unfairly to indict the 
thousands of forensic scientists who perform their work professionally 
and responsibly. It should, however, remind us that those who work in 
our criminal justice system have an obligation to be diligent, honest, 
and fair-minded.
    And we, as public policy leaders, have the obligation to ensure 
that our forensic scientists have the resources necessary to carry out 
their critical work. Thanks in large part to Senator Sessions we now 
have legislation that will do just that.
    The Paul Coverdell National Forensic Sciences Improvement Act of 
2000, introduced last session by Senator Sessions and signed into law 
by President Clinton, authorized substantial resources for state and 
local crime laboratories. These resources, awarded to states by the 
Attorney General in the form of block grants, can be used by 
laboratories for personnel, facilities, training, equipment and other 
supplies.
    The legislation also contains an important safeguard that will 
ensure testing accuracy. To apply for a grant a state must certify 
either that it has a forensic laboratory system, coroner's office, or 
medical examiner's office that is accredited by the Laboratory 
Accreditation Board of the American Society of Crime Laboratory 
Directors or the National Association of Medical Examiners, or that the 
state will use a portion of the grant to prepare and apply for such 
accreditation. This provision is critical given that less than \1/2\ of 
all crime laboratories in the United States are currently accredited.
    The resources authorized by this legislation are dearly needed. To 
cite one statistic that I am certain we will hear again this afternoon, 
a recent study by the American Society of Crime Laboratory Directors 
found that 9,000 additional forensic scientists are needed to have a 
30-day turn around of evidence. The study also found that the majority 
of labs do not even have the basic equipment needed to respond to the 
caseload they currently have. I know that the Administration supports 
the Coverdell Act, and I am confident that I can work with Attorney 
General Ashcroft to see that the needs of our nation's crime labs are 
addressed.
    Many of our witnesses today are officials with state forensic 
laboratories. In closing, I also want to urge you to be creative and 
proactive in seeking solutions to your personnel and resource needs. 
For example, there are now private institutes that offer cost-effective 
training programs and other services for forensic scientists. One such 
institute, the non-profit Virginia Institute of Forensic Science and 
Medicine, on whose board I am proud to sit, trains many of Virginia's 
crime scene investigators, forensic scientists, medical examiners, and 
other law enforcement investigators. In many cases, the institute can 
provide training at a lower cost than state-run laboratories.
    I'll now turn to the Ranking Member, Senator Leahy, for his opening 
statement.

    Senator Leahy, we will turn to you.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I thank you for 
calling this hearing on the Paul Coverdell National Forensic 
Sciences Improvement Act. In the last Congress, I was proud to 
cosponsor this legislation which is named after a friend and 
colleague of ours who was, I think it is safe to say, extremely 
well liked on both sides of the aisle.
    This legislation brings an infusion of Federal funds to 
enable State and local crime labs across the Nation to update 
their facilities and improve their crime-solving abilities. I 
want to applaud Senator Sessions for his efforts in working 
together with me to revise the bill's funding formula to make 
it fair for all States. Senator Sessions helped make it 
possible to get the kind of bipartisan consensus we needed.
    We got the bill passed and President Clinton signed it into 
law on December 21, 2000. It authorized $85 million in the 
upcoming fiscal year and $738 million over the next 6 years. 
For some reason, the new administration did not request any 
funding for this new, bipartisan law. I think that was a 
mistake on their part and I am going to work with them, and I 
know Senator Sessions is, to put the money back in because we 
need this funding for our State and local crime labs.
    Senator Sessions and I are both former prosecutors. We know 
that especially today, if you don't have good labs, more than 
adequate labs--you have really got to have the best--law 
enforcement and the prosecutor are hampered.
    Then Senator Ashcroft had been a cosponsor of this bill, 
and then Senator Abraham was also a co-sponsor so if we go back 
to those two Cabinet members, they might be able to convince 
the President to put the money back in, along with Senator 
Byrd, Chairman Hatch, Senator Cleland and Senator Durbin.
    I have already requested the full $85 million in the 
Appropriations Committee. Senator Harkin and I offered a $1.5 
billion amendment to the Budget Act which would have part of 
this.
    I also notice that there is a vote, and I will put my whole 
statement in the record, but if I could just be a tiny bit 
parochial, and I want to mention this has probably never 
happened in this Committee on matters that anybody has ever 
been parochial, but let me talk about Vermont.
    The Vermont Forensics Laboratory is currently operating in 
the old Vermont State Hospital building in Waterbury, Vermont. 
It is one of only two fully accredited forensics labs in all of 
New England. In population, we are the smallest State in New 
England, so I am proud of that, but it is trying to do 21st 
century science in a 1940's building--very limited space with 
no central climate control.
    With an outdated facility and limited resources, the 
scientists in Vermont are trying to overcome a heroin crisis in 
my home State. Heroin cases have gone up 400 percent. It is a 
heavy caseload, in addition to the usual demands on the crime 
lab which serves 92 local, State and Federal law enforcement 
organizations in Vermont.
    I think they have done a superb job there, but if we could 
fully fund the Paul Coverdell National Forensic Sciences 
Improvement Act, they could do much more. I know Dr. Eric Buel, 
who is here, has done a great deal; in fact, he helped me when 
we were putting together the bill.
    So, Mr. Chairman, I will put my whole statement in the 
record, but I join with you and Senator Hatch and so many 
colleagues on both sides to make sure we get this through.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    I commend Chairman Hatch for calling this hearing on the Paul 
Coverdell National Forensic Science Improvement Act.
    In the last Congress, I was proud to cosponsor this legislation, 
named after our departed friend and colleague, to provide an infusion 
of federal funds to enable state and local crime laboratories across 
the nation to update their facilities and improve their crime-solving 
abilities. Senator Sessions and I worked together to revise the bill's 
funding formula to make it fair for all states. We reached bipartisan 
consensus and Congress quickly passed the Paul Coverdell National 
Forensic Science Improvement Act. President Clinton signed it into law 
on December 21, 2000.
    The Paul Coverdell National Forensic Science Improvement Act 
authorizes $85 million in the upcoming fiscal year and $738 million 
over the next six years for Department of Justice grants to help our 
state crime labs. Unfortunately, the Bush Administration did not 
request any funding for this new bipartisan law. I do not understand 
why the Administration failed to request funding to help our state and 
local crime labs. Forensics are the science of fighting crime, and we 
cannot afford to under-use all the tools that modern technology offers 
in helping us to continue to bring crime rates down after eight years 
of progress. This is a particular mystery since Attorney General 
Ashcroft, when he served in this body, was a cosponsor of the Paul 
Coverdell National Forensic Science Improvement Act.
    I look forward to working with Chairman Hatch, Senator Byrd, 
Senator Sessions, Senator Cleland, Senator Durbin and other strong 
supporters of the Coverdell Act to fully fund our legislation. As a 
senior member of the Senate Appropriations Committee, I have already 
requested the full $85 million for the next fiscal year for the new 
law.
    During the debate on the budget resolution, Senator Harkin and I 
offered an amendment to add $1.5 billion to the Department of Justice 
account in FY 2002 to fund programs to assist state and local law 
enforcement, including the Coverdell Act. The Senate unanimously 
approved the Leahy-Harkin law enforcement budget amendment. The budget 
resolution conference report, passed last Thursday by the Senate, 
retained most of the funding increases in the Leahy-Harkin law 
enforcement amendment so additional resources are available in the 
Department of Justice budget to fully fund these investments in 
forensic science.
    Forensic science workloads have increased significantly over the 
past five years, both in number and complexity. Since Congress 
established the Combined DNA Index System in the mid1994s, States have 
been busy collecting DNA samples from convicted offenders for analysis 
and indexing.
    But funding has simply not kept pace with this increasing demand, 
and State crime laboratories are now seriously bottlenecked. Backlogs 
have impeded the use of new technologies like DNA testing in solving 
cases without suspects--and reexamining cases in which there are strong 
claims of innocence--as laboratories are required to give priority 
status to those cases in which a suspect is known.
    In some parts of the country, investigators must wait several 
months--and sometimes more than a year--to get DNA test results from 
rape and other violent crime evidence. Solely for lack of funding, 
critical evidence remains untested while rapists and killers remain at 
large, victims continue to anguish, and statutes of limitation on 
prosecution expire.
    Let me describe the situation in my home state of Vermont. The 
Vermont Forensics Laboratory is currently operating in the old Vermont 
State Hospital building in Waterbury, Vermont. Though it is proudly one 
of only two fully-accredited forensics labs in New England, it is 
trying to do 21st Century science in a 1940s building. The lab has very 
limited space and no central climate control -both essential conditions 
for precise forensic science.
    With an outdated facility and limited resources, the scientists at 
the Vermont Forensic Laboratory are trying to overcome a heroin crisis 
in my home state. In the last year alone, heroin cases in Vermont have 
risen by 400 percent. This heavy caseload is in addition to the usual 
demands on the crime lab, which serves 92 local, state and federal law 
enforcement organizations in Vermont.
    I commend the scientists and lab personnel at the Vermont Forensics 
Laboratory for the fine work they do every day under difficult 
circumstances. But the people of the State of Vermont deserve better. 
Fully funding the Paul Coverdell National Forensic Science Improvement 
Act is our chance to provide them with the facilities and equipment 
they deserve.
    I look forward to the hearing the testimony today of Dr. Eric Buel, 
the Director of the Vermont Forensic Laboratory, on the importance of 
the Coverdell Act to states like Vermont, which desperately need 
federal support to handle the increased workloads placed upon their 
forensic science systems.
    Today's hearing is about the need to fund the Paul Coverdell 
Forensic Sciences Improvement Grants. But I want to say a few words 
about another aspect of the same legislation. When the Senate took up 
this legislation, I proposed and the Senate adopted a modest Sense of 
Congress amendment. Among other things, this amendment calls on the 
States to make post-conviction DNA testing more widely available.
    In recent years, DNA testing has led to the exoneration of more 
than 80 men and women who, for one reason or another, were prosecuted 
and convicted of crimes that they did not commit. This number includes 
at least 10 individuals who had been sentenced to death and in some 
cases came within days of being executed. It also includes more than a 
dozen cases in which the DNA tests not only exonerated an innocent 
person but also helped identify the real perpetrator.
    Just last week, a man named Jeffrey Todd Pierce was freed from 
prison in Oklahoma as a result of DNA testing. He was convicted of rape 
and served 15 years of a 65 year sentence based in large part on the 
so-called ``expert'' testimony of a police chemist named Joyce 
Gilchrist. She claimed that hair found at the crime scene was 
``microscopically consistent'' with Jeffrey Pierce's hair. The DNA 
tests proved that she was wrong.
    The Pierce case may be just the tip of the iceberg. The FBI did a 
little investigation into other cases involving the same police chemist 
and concluded that she exaggerated her results not just once or even 
twice, but repeatedly. Governor Keating has promised a review of all of 
the felony cases in which she was involved--that is roughly 3,000 
cases, including 23 in which the defendant was sentenced to death. The 
odds are that Jeffrey Pierce was not the only innocent person who was 
convicted in Oklahoma based on sloppy lab work.
    I mention the Pierce case because he was released just last week. 
But I could have pointed to many other cases in which people were 
wrongly convicted because forensic specialists were incompetent or 
because they fabricated or overstated test results to support the 
prosecution's theory of the case. In 1997, we learned about major 
problems at the FBI's crime labs, ranging from unqualified forensic 
scientists to contamination of evidence and the doctoring of laboratory 
reports. Before that, there were similar problems in various state 
crime labs.
    All this is to say two things. First, we need to fund the Paul 
Coverdell National Forensic Sciences Improvement Act, which will help 
improve the quality and credibility of our nation's crime labs. Second, 
we must honor our commitment to ensuring broader access to 
postconviction DNA testing. Jeffrey Pierce is free today because, after 
years of requesting a DNA test, without success, he was able to take 
advantage of Oklahoma's new post-conviction DNA statute. But most 
States have yet to act.
    I look forward to hearing from Dr. Buel and our other witnesses 
today about the importance of the Paul Coverdell National Forensic 
Science Improvement Act.

    Senator Sessions [presiding]. Thank you very much, Senator 
Leahy. You helped us move this bill forward. It will help labs 
in Vermont, particularly, but it will help others all over the 
country and it is important that we get the funding.
    We had legislation that we were pleased to work on last 
year to give a substantive tribute to and honor Paul Coverdell. 
We named it after him following his untimely death, and it was 
passed unanimously. Unfortunately that doesn't mean we have got 
the money yet, and I am glad to know how strongly you feel 
about it, and so do I.
    I have talked to Attorney General Ashcroft and I think they 
will give us a fair hearing, and I believe the facts are going 
to indicate quite clearly that we need more funding for 
laboratories. According to a report issued by the Bureau of 
Justice Statistics, as of December 1997, 69 percent of crime 
labs reported DNA backlogs in 6,800 cases and 287,000 convicted 
offender samples.
    In my home State of Alabama judges report that typically 25 
percent of cases set for trial are delayed because of 
incomplete forensic data. Sixty-six percent of drug cases are 
rescheduled for the same reason.
    As a former prosecutor, I know how dependent the criminal 
justice system is on fast, accurate and dependable forensic 
testing. With backlogs in the labs, the prosecutors are forced 
to wait for months, even years, to pursue cases.
    Let me just say, in my experience of over 15 years as a 
prosecutor, I am absolutely convinced that the single most easy 
fixed bottleneck in the criminal justice system is our 
inability to fund forensic laboratories and an inability for 
those laboratories to get reports back promptly to the 
prosecutor. Justice delayed is justice denied. There is 
something exceedingly unhealthy about arresting a person on a 
plain case of drugs--maybe it is part of that heroin increase 
that the Senator sees in Vermont--the defendant is arrested by 
the police and you have to wait months or a year before the 
case can go to trial because the chemist has not come forward 
and has not had time to establish that it is, in fact, heroin. 
The case cannot go to trial until that report is in.
    So I believe we are dealing with a matter that impacts 
criminal justice in America adversely in far more ways than we 
know. I don't think our State legislatures are as attuned to it 
as they should be, and I don't think the Congress has been as 
attuned to it as it should be.
    For a small amount of money, compared to what we spend on 
so many other things, we can, by helping our forensic 
laboratories, improve criminal justice more than almost 
anything I can imagine. So I am excited about the legislation; 
I think it is good.
    I am also pleased that we are having this hearing. I thank 
Senator Hatch for his leadership and commitment to it. We are 
just going to have to battle as hard as we can to make sure 
that we get the funding that this program requires.
    At this point, we will insert into the record prepared 
statements from Senator Thurmond and Senator Grassley.
    [The prepared statements of Senators Thurmond and Grassley 
follow:]

  Statement of Hon. Strom Thurmond, A U.S. Senator from the State of 
                             South Carolina

    I am pleased that we are holding this hearing today regarding the 
need for increased funding for America's crime laboratories.
    As technology is revolutionizing the fight against crime, law 
enforcement on all levels must increasingly rely on scientific 
evidence. This is especially true regarding DNA evidence, which is the 
most revolutionary development in law enforcement since fingerprinting. 
The use of DNA has risen dramatically in the past decade, and is 
becoming a routine part of criminal investigations.
    Today, all states require certain violent criminals, especially sex 
offenders, to provide DNA samples that can be matched in DNA databases 
to help solve crimes. The more complete and integrated our DNA criminal 
databases are throughout the country, the more violent crimes we can 
solve.
    However, DNA evidence must be processed to be of any benefit, and 
the crime labs have not been able to analyze the samples as quickly as 
they are collected. Today, there is a huge backlog in the states in 
evaluating samples from offenders and from crime scenes. For example, a 
1998 Department of Justice Report found that almost 70% of all crime 
labs had a backlog that totaled 6,800 cases and 287,000 convicted 
offender samples. It is very difficult for crime labs to eliminate 
these backlogs, especially as the demand for their services is 
increasing. Moreover, it is extremely expensive for crime labs to keep 
up with advances in technology.
    In recent years, the Congress has taken steps to help address the 
lack of resources in our crime labs. But more needs to be done. Last 
year, we passed the Paul Coverdell National Forensic Sciences 
Improvements Act, of which I was an original cosponsor. This 
legislation authorized a total of over $400 million dollars over the 
next four years to provide grants to states for facilities, equipment, 
personnel, and other needs. It is critical that we allocate sufficient 
funding in this Congress to help states in this area.
    Resources for law enforcement has increased considerably in recent 
years, but funding for crime labs has not kept pace. We must help our 
crime labs keep up with the demand and meet the challenges of tomorrow. 
This hearing will help us understand the needs of law enforcement as we 
fight crime in a new century.

                                <F-dash>

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
                                  Iowa

    First, let me commend the fine work of the men and women in the 
area of forensic science. Their ``behind the scenes'' work done in the 
field and at our crime laboratories is rarely given the weight of 
recognition commensurate with their contributions. While I applaud 
these efforts, it should come as no surprise to most of you that I have 
developed a healthy concern in this area through my oversight 
experience with the FBI, and specifically with the FBI Crime Lab 
problems in the late 90's. I share concerns that the serious backlogs 
that exist at the labs and are being discussed today will result in 
rushed and sloppy work. I continue to be deeply concerned about the 
deplorable conduct uncovered at the FBI, such as lab contamination, 
lack of quality assurance standards, mishandling of evidence, 
testimonial errors, and the withholding of exculpatory evidence. I 
would caution those who argue that funding is the panacea for all your 
problems. I worry about organizations that foster a culture of 
arrogance and seek to stifle dissent. I've seen, first-hand, what 
happened at the FBI when a laboratory scientist came forward with 
information on improper actions. These occurrences have resulted in 
somewhat of a ``loss of innocence'' within this area of expertise. And 
it has been disturbing to learn that what was previously thought to be 
an irrefutable and impartial opinion isn't necessarily the case. While 
I understand that these may be exceptional occurrences, it has also 
been discomforting to see that many state and local agencies are not 
immune to this type of conduct. So, without appropriate and ongoing 
training, management, and oversight, a fullyfunded program is no better 
off than it was before because the truth is not being served.

    Senator Sessions. Senator Leahy, the lights are not going, 
but we are on a vote now. Is that correct?
    Senator Leahy. The first lights are on. Do you want to just 
go ahead and start?
    Senator Sessions. Well, we might start, I think, with our 
first panel and we will get as far as we can go.
    Let me introduce to you our first panel, and the record we 
will establish here today we will utilize as we talk with the 
appropriators and the full Congress as we seek to justify the 
funding this program needs.
    Our first witness is Dr. David Boyd, the Deputy Director of 
the National Institute of Justice, in Washington, D.C.
    Mr. Keith Coonrod, with the New York State Police Forensic 
Science Investigation Center in Albany, New York, is here today 
in his capacity as Chairman of the Consortium of Forensic 
Science Organizations, as well as the President of the American 
Society of Crime Laboratory Directors.
    Congratulations on those honors.
    Mr. William Peterson is co-producer and star of the new hit 
CBS prime time television series ``CSI: Crime Scene 
Investigation.'' In its debut season, ``CSI'' was the only new 
show to be nominated for a Golden Globe honor, and won a TV 
Guide award for the best new show of the season.
    Congratulations, Mr. Peterson. We will be delighted to hear 
from you.
    Senator Leahy. I might say, Mr. Chairman, that everybody 
who has to run a lab in the country is jealous of the lab on 
that show, which I think Mr. Peterson is going to point out.
    Mr. Peterson. Very true.
    Senator Sessions. Dr. Boyd?

STATEMENT OF DAVID G. BOYD, DEPUTY DIRECTOR, NATIONAL INSTITUTE 
    OF JUSTICE, DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY, 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Boyd. Good afternoon, Mr. Chairman and Senator Leahy, 
and thank you for this opportunity to testify today. I also 
serve as the Director of the Office of Science and Technology 
for the National Institute of Justice, which is the research 
and evaluation arm of the U.S. Department of Justice, and we 
provide the principal funding for R and D for the forensic 
sciences in the United States.
    Forensic scientists working in the more than 300 public 
crime laboratories across the Nation have the scientifically 
challenging responsibility of discovering as much about the 
evidence left at a crime scene as possible. But as a recent 
RAND report pointed out, this job is made more difficult by 
huge case backlogs which makes it hard or impossible for 
laboratories to perform the timely analyses that could shorten 
investigations.
    Further, budgetary constraints suppress their ability to 
modernize or upgrade equipment. Yet, recent court decisions are 
forcing forensic scientists to reevaluate, and in some cases 
augment both the science and the implementation upon which 
their results are based.
    Addressing these needs has been the focus of several 
programs at NIJ. One of these, the $40 million DNA Laboratory 
Improvement Program, has already increased the number of DNA-
capable laboratories in the United States from fewer than a 
dozen in 1996 to more than 130 separate laboratory facilities 
in all 50 States by the end of last year.
    But 95 percent of the laboratory directors surveyed in the 
RAND report indicated that the single greatest need was for a 
qualified, properly educated workforce for the laboratories. We 
have accordingly begun the creation of a technical working 
group of forensic practitioners, educators, trainers and others 
to formulate a standardized curriculum for undergraduate and 
graduate forensic science majors to ensure a relevant knowledge 
base for those entering the forensic workforce.
    The Forensic DNA Research and Development Program has been 
providing enhancements to existing methods, techniques and 
technologies, as well as creating new tools for the future of 
DNA evidence.
    Current projects aim to reduce the risk of loss of crucial 
evidence to equipment failures; to develop a mitochondrial DNA 
screening method that allows labs to examine old, degraded, or 
very small evidence samples without resorting to expensive and 
technically demanding DNA sequencing methods; develop high-
throughout, low-cost mass spectrometry instrumentation and to 
exploit nanotechnology for forensic applications.
    We expect the first forensic nanotechnology project, a DNA 
chip with all 13 of the required genetic markers for 
databasing, to be in the hands of practitioners for evaluation 
by October of this year. This chip can produce a reliable 
result in under 10 minutes, instead of the several hours 
currently required, thus saving thousands of analyst-years of 
productivity. This chip may even eventually offer new ways to 
use DNA earlier in investigations.
    The forensic workforce is so severely constrained that it 
is simply not possible for them to work harder, so we have to 
find ways to help them work smarter. Accordingly, this year's 
non-DNA general forensic solicitation will fund projects that 
can increase the sensitivity, speed, or reliability of 
traditional forensic methods in areas such as trace evidence, 
latent prints, toxicology, controlled substances, and other 
forensic techniques.
    But new technologies, methods and techniques can help to 
achieve better productivity only when laboratories have the 
time and ability to thoughtfully evaluate and validate them. As 
the RAND report notes, the laboratories are so overwhelmed by a 
lack of human resources that infusion of new technology is 
incredibly difficult, at best. These circumstances make the 
need to support crime laboratory improvement paramount before 
these critical gains through technology transfer can be made.
    I have spent much of my testimony describing our successes 
in transferring the application of DNA to state and local 
forensic laboratories. But it is important to remember that DNA 
comprises less than 3 percent of the type of evidence needed by 
the criminal justice system.
    Controlled substances represent fully 54 percent of cases 
and are the most frequently examined evidence, followed by 
latent prints, blood alcohol and toxicology. The Coverdell 
Act's attention to all types of forensic lab improvement rather 
than just DNA is one of its greatest strengths.
    It is imperative that we work to create an environment 
where crime laboratories can function beyond case triage and 
start performing the work that will save the entire criminal 
justice system time and resources. It is that critical 
investigative stage where forensic analyses can rule out 
suspects, direct leads with real data, and help solve crimes 
more quickly and more accurately than canvassing and eyewitness 
interviews that require the use of already overburdened 
investigators.
    Supporting the full modernization and upgrading of our 
Nation's crime laboratories means more than just saving time 
and money; it means saving lives, stopping crimes, and 
promoting public safety in a very real, tangible way. We 
believe we have made great progress in enhancing the ability of 
public crime labs to analyze many types of forensic evidence, 
and we believe that the provisions outlined in the Coverdell 
Act will help us build on that important work.
    I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Boyd follows:]

Statement of David G. Boyd, Director, Office of Science and Technology, 
             Deputy Director, National Institute of Justice

    Good afternoon. Mr. Chairman, thank you for the opportunity to 
testify before you today orr this important issue. My name is David 
Boyd. I am the Deputy Director of the National Institute of Justice and 
the Director of its Office of Science and Technology. NIJ is the 
research and evaluation arm of the Justice Department. My office, the 
Office of Science and Technology, works to explore technology and other 
resources that could be used by law enforcement officials to solve and 
prosecute crimes.
    NIJ believes it has made great progress in enhancing the ability of 
public crime labs to improve their capacities to analyze many types of 
forensic evidence. We believe that the provisions outlined in the Paul 
Coverdell National Forensic Sciences Improvement Act of 2000 (P.L. 106-
561), if funded, will help us build on that important work.
    DNA and other types of forensic evidence are valuable tools that 
investigators, prosecutors, and other law enforcement officials use in 
this manner. It is the job of forensic scientists working in the more 
than 300 public crime laboratories across the nation to reveal as much 
about the evidence as possible. This job, already a scientifically 
challenging endeavor, is made more difficult by the restrictions faced 
by virtually all of the public crime laboratories. A recent RAND 
report, Challenges and Choices for CrimeFighting Technology, pointed 
out that public crime laboratories face huge casework backlogs, forcing 
them to prioritize work according to upcoming court dates, and making 
it difficult for them to perform the timely analyses that might aid or 
shorten investigations. Further, budgetary constraints suppress their 
ability to modernize or upgrade equipment, yet recent court decisions 
are forcing forensic scientists to reevaluate and, in some cases, 
augment both the science and the implementation upon which their 
results are based.
    The needs faced by the public crime labs have been the subject of 
several important programs at the National Institute of Justice over 
the last six years. The first of these programs, the DNA Laboratory 
Improvement Program, a $40 million initiative meant to improve the 
capabilities and capacities of our nation's crime laboratories to 
implement and conduct forensic DNA analysis, has already shown 
significant and easily measurable results. When the program began in 
1996, under the authority of the 1994 DNA Identification Act, fewer 
than a dozen states had the capability to perform forensic DNA testing. 
By the end of FY 2000, more than 130 separate laboratory facilities had 
DNA capabilities. Many of these laboratories were able to use federal 
funds to leverage their laboratories' priorities with their own state 
legislatures. A number of states responded to NIJ's encouragement to 
form consortiums across their state and local laboratories to make more 
efficient use of funding and services.
    An outgrowth of the DNA Laboratory Improvement program has been the 
Crime Laboratory Improvement Program (CLIP), developed to aid all 
facets of public crime laboratories, because DNA evidence is applicable 
in a small portion of crimes. For most crimes, in addition to DNA, 
other kinds of evidence must also be collected, analyzed, and 
explained.
    Important gains have been made in several areas that will improve 
the capacity and capability of all public crime labs. One effort that 
addresses what many believe is the most critical need in the crime 
laboratory community is the creation of a Technical Working Group (TWG) 
of forensic practitioners, educators, trainers, and others to formulate 
a standardized curriculum for undergraduate and graduate forensic 
science majors to ensure a relevant knowledge base for those entering 
the forensic work force. Training, education, and human resource issues 
are those cited as the most critical need by more than 95 percent of 
the crime laboratory directors responding to the RAND survey.
    NIJ is also undertaking the development of a Forensic Resource 
Network that will be accessible to the forensic community to assist in 
quality assurance, validation and evaluation, new technologies, and 
surplus property distribution. We believe our experience with the DNA 
Laboratory Improvement Program demonstrates that CLIP will have as 
significant an impact in upgrading non-DNA forensic applications as the 
DNA Laboratory Improvement Program had on DNA forensics for our nation. 
NIJ has had great success in working to assist labs to address critical 
issues and develop meaningful proposals that include measurable long-
term goals, and deliverables that will have important consequences for 
bettering their productivity, capacities, and capabilities beyond the 
life of the grant. The Coverdell Act's provision calling for state 
plans to be developed prior to funds being released to a state should 
help to continue this important aspect of laboratory improvement.
    Finally, there is the Forensic DNA Research and Development 
Program, which has been providing enhancements to existing methods, 
techniques, and technologies, as well as creating new tools for the 
future of DNA evidence. Such technological innovations were identified 
in a report by a working group of the National Commission on the Future 
of DNA Evidence as important in enhancing the value of DNA in solving 
and preventing crime. Some of the program's $5 million annual budget is 
used to develop technologies and techniques that will immediately 
improve the use of DNA in today's laboratories. One such improvement 
allows laboratories to predict instrumentation failures before they 
occur, thus reducing arbitrary laboratory shut-downs and the risk of 
loss of crucial evidence. Another example is the development of a 
mitochondrial DNA screening method that allows labs to examine old, 
degraded, or very small evidence samples without resorting to the 
expensive and technically demanding DNA sequencing methods needed 
beyond the screening stage. The program also supports future 
improvements such as high throughput, low cost mass spectrometry 
instrumentation and the exploitation of nanotechnology for forensic 
applications.
    We expect the first forensic DNA chip with all 13 of the required 
genetic markers for data basing to be in the hands of the practitioners 
for evaluation by October 2001. This chip, under development at MIT's 
Whitehead Institute of Technology, uses standard, commercially 
available reagents with a capillary electrophoresis format, but instead 
of the several hours currently required to analyze a sample, the chip 
can perform the same task and produce a reliable result in under 10 
minutes. This type of instrumentation can save many thousands of man-
years of productivity when it is implemented in our nation's labs and 
may eventually offer new ways to use DNA earlier in investigations.
    Increases in productivity such as these are a crucial need in 
forensic laboratories today. The forensic workforce is so severely 
constrained that it is simply not possible for them to work harder, so 
we must find ways to help them to work smarter. This is also the goal 
of NIJ's current non-DNA general forensics solicitation, which will 
fund projects that can increase the sensitivity, speed, or reliability 
of traditional forensic methods in areas such as trace evidence, latent 
prints, toxicology, controlled substances, and other forensic areas.
    But new technologies, methods, and techniques can help to achieve 
better productivity only when laboratories have the time and ability to 
thoughtfully evaluate and validate them. As the RAND report notes, the 
laboratories are so overwhelmed by a lack of human resources that 
infusion of new technology is incredibly difficult at best. These 
circumstances make the need to support crime laboratory improvement 
paramount before these critical gains through technology transfer can 
be made.
    I've spent much of my testimony describing our successes in 
transferring the application of DNA to state and local forensic labs. 
But it is important to remember that DNA comprises less than 3 percent 
of the type of evidence needed by the criminal justice system. The 
attached table shows that, far and away, controlled substances (fully 
54 percent of cases) are the most frequently examined evidence, 
followed by latent prints, blood alcohol, and toxicology. The Coverdell 
Act's attention to all types of forensic lab improvement, not just DNA, 
is one of its most obvious strengths and comports with NIJ's expansion 
to include all types of forensic lab improvement.
    It is interesting to note that if labs could modernize their 
equipment and, as just one example, add autosamplers to recent model 
mass spectrometers (a total investment of approximately $3,000 for the 
autosamples and about $90,000 for a decent recent model mass 
spectrometer), they could double the number of controlled substances 
they examined on each machine, but actually decrease the manpower 
needed. That manpower could then be devoted to other types of analyses 
that could actually aid in the ongoing investigation of crimes, rather 
than just at the prosecution stage.
    It is imperative that we work to create an environment where crime 
laboratories can function beyond case triage and start performing the 
work that will save the entire criminal justice system time and 
resources. It is that critical investigative stage where forensic 
analyses can rule out suspects, direct leads with real data, and help 
solve crimes more quickly and more accurately than canvassing and 
eyewitness interviews that requires the use of already overburdened 
investigators. Supporting the full modernization and upgrading of our 
nation's crime laboratories means more than just saving time and money. 
It means saving lives, stopping crimes, and promoting public safety in 
a very real, tangible way.
    That concludes my remarks. I'd be happy to answer any question you 
may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Sessions. Thank you, Dr. Boyd.
    We have got a great panel to hear. I think the vote is 
about over and it will take me about 7 minutes to go and vote. 
So if you don't mind, we will temporarily recess and start back 
as soon as we do that, and perhaps Senator Leahy can be back by 
that time also.
    Thank you. We will be recessed and return shortly.
    [The Committee stood in recess from 2:33 p.m. to 2:49 p.m.]
    Senator Sessions. We will get started again, and I 
apologize again for--I guess they pay us to vote around here, 
and hold us accountable sometimes for it, too.
    Next will be Mr. Keith Coonrod, from the New York Police 
Forensic Science Investigation Center there in Albany, who also 
is here as Chairman of the Consortium of Forensic Science 
Organizations, as well as President of the American Society of 
Laboratory Directors. That is a mouthful, but they are 
important duties.
    We are glad to have you, Keith.

 STATEMENT OF KEITH K. COONROD, CHAIR, CONSORTIUM OF FORENSIC 
            SCIENCE ORGANIZATIONS, ALBANY, NEW YORK

    Mr. Coonrod. Good afternoon, Mr. Chairman and members of 
the Committee. I would like to thank the Senate Judiciary 
Committee for this opportunity to provide testimony here today 
regarding the needs of our forensic laboratories and the strong 
support shown by the Committee in passage of two very important 
pieces of legislation last year--the Coverdell National 
Forensic Sciences Improvement Act and the DNA Backlog 
Elimination Act.
    My name is Keith Coonrod. I am currently employed by the 
New York State Police as Director of Toxicology, Drug 
Chemistry, Trace and Breath Testing, in our forensic laboratory 
system. I am here as Chair of the Consortium of Forensic 
Science Organizations, which is comprised of seven leading 
forensic organizations. These include the American Society of 
Crime Laboratory Directors, known as ASCLD, which represents 
over 400 crime laboratory managers and directors, of which I am 
currently president; the American Society of Crime Laboratory 
Directors Laboratory Accreditation Board, known as ASCLD/LAB, 
which is the accrediting body for forensic crime laboratories, 
for which I am currently an ex officio member of the board of 
directors, and have been team captain responsible for many 
inspections of laboratories undergoing the accreditation 
process; the International Association for Identification, 
known as IAI, which is the oldest and largest forensic 
identification association in the world; the American Academy 
of Forensic Sciences, known as AAFS, which is a professional 
organization representing numerous forensic specialties such as 
criminalists, engineering sciences, jurisprudence, odontology, 
pathology and biology, physical anthropology, psychiatry and 
behavioral sciences, questioned documents, toxicology, and 
multi-disciplinary general section; the National Association of 
Medical Examiners, known as NAME, which represents medical 
examiners, coroners and other physicians who conduct death 
investigations; the National Forensic Science Technology 
Center, known as NFSTC, which is dedicated to assisting 
forensic science facilities to achieve the highest quality of 
operations; and the National Center for Forensic Science, known 
as NCFS, which represents research, education, training tools 
and technology to meet the needs of forensic science, 
investigative and criminal justice agencies.
    While the public thinks of forensics as DNA, it is 
essential that the Committee understand that it is just one of 
many tools available to the criminal justice community by our 
forensic laboratories. While DNA is indeed an important 
discipline, forensic science is more broadly defined as the 
examination of evidence submitted by criminal justice agencies 
to forensic laboratories for the purpose of determining how 
that evidence pertains to the law and/or the courts.
    Forensic laboratories support the criminal justice 
community by offering services in clandestine laboratory 
investigations, explosives analysis, controlled substances 
analysis, firearms examinations, alcohol analysis, toolmark 
examinations, toxicology, impression evidence, arson analysis, 
trace evidence examinations, death investigations, digital 
evidence, physical match, crime scene investigations training, 
as well as biological examinations, including DNA.
    However, as you know, the use of forensic science by the 
criminal justice system has increased dramatically over the 
past several years, but our funding has not. We find ourselves 
in a situation where we are unable to keep up with the demands 
of the system, and unfortunately many cases are either held up 
because we cannot deliver evidence on time or, worst yet, the 
prosecutor goes to court without the proper information from 
the forensic laboratory.
    It is an unfortunate reality that with the staggering 
backlogs, not all cases submitted to our Nation's laboratories 
will be examined. Laboratories must decide which cases they 
will analyzed.
    Recently, the American Society of Crime Laboratory 
Directors completed a study to determine those resources that 
forensic laboratories need to adequately support our Nation's 
criminal justice community with the quality examination of 
evidence in a timely manner.
    Forensic crime laboratory managers and directors were asked 
to provide an accounting of resources needed to provide quality 
analysis in a timely manner. A timely manner was defined as 30 
days, unless shorter timeframes were required by a particular 
State statute.
    We actually don't know how many forensic laboratories exist 
in the United States, as many facilities never before 
considered as crime laboratories are now providing forensic 
examinations in one or more forensic disciplines and should be 
included. Therefore, these results are based on a very 
conservative estimation of 500 forensic facilities throughout 
the United States.
    We conducted the study by surveying 224 crime laboratories. 
The results show that an additional 9,000 forensic scientists 
are needed to properly staff our laboratories. An additional 
$1.3 billion is needed for adequate laboratory facilities, and 
$285 million is needed to purchase the equipment necessary to 
conduct analysis of submitted evidence. More than 26 percent of 
our Nation's crime laboratories do not even have basic 
laboratory management systems which assist laboratories in 
documenting the chain of custody of their evidence.
    The reality of the situation is that a budget of $35 
million to improve our Nation's crime laboratories, divided 
among 50 States, would mean an average of $700,000 per State, 
or $70,000 per laboratory.
    Mr. Chairman, a crucial piece of scientific instrumentation 
called the gas chromatograph-mass spectrometer, which is the 
backbone in a forensic laboratory utilized to analyze a simple 
drug case, costs the laboratory $100,000.
    The need to hire 9,000 forensic scientists would cost the 
Nation's laboratories more than $650 million. Additional 
laboratories rely on mentoring relationships to train new 
forensic scientists, and this requires that the laboratory 
utilize their limited resources of seasoned forensic scientists 
and equipment for training purposes instead of actual case 
work.
    If the Chairman would like, I can submit the rest of 
presentation in written form.
    Senator Sessions. That would be great. We appreciate that 
very much.
    Mr. Coonrod. Thank you.
    Senator Sessions. You made some stunning disclosures there 
about what it really takes to get us up to where we need to be.
    [The prepared statement of Mr. Coonrod follows:]

Statement of Keith Kenneth Coonrod, Chair of the Consortium of Forensic 
                         Science Organizations

    Good afternoon Mr. Chairman.
    I would like to thank the Senate Judiciary Committee for this 
opportunity to provide testimony here today regarding the needs of our 
forensic laboratories and the strong support shown by the committee in 
passage of two very important pieces of legislation last year - The 
Coverdell National Forensic Science Improvement Act and the DNA Backlog 
Elimination Act.
    My Name is Keith Coonrod and I am currently employed by the New 
York State Police as Director of Toxicology, Drug Chemistry, Trace and 
Breath Testing in the forensic laboratory system. I am here as the 
chair of the Consortium of Forensic Science Organizations which is 
comprised of 7 leading forensic organizations. These include:

        <bullet> the American Society of Crime Laboratory Directors 
        (ASCLD) which represents over 400 crime laboratory managers/
        directors - I am currently President;
        <bullet> the American Society of Crime Laboratory Directors/
        Laboratory Accreditation Board (ASCLD/LAB) which is the 
        accrediting body for forensic crime laboratories for which I am 
        currently an ex-officio member of the Board of Directors and 
        have been Team Captain responsible for many inspections of 
        laboratories undergoing the accreditation process;
        <bullet> the International Association for Identification (IAI) 
        which is the oldest and largest forensic identification 
        association in the world;
        <bullet> the American Academy of Forensic Sciences (AAFS) which 
        is a professional organization representing numerous forensic 
        specialties such as: Criminalistics; Engineering Sciences; 
        Jurisprudence; Odontology; Pathology and Biology; Physical 
        Anthropology; Psychiatry and Behavioral Sciences; Questioned 
        Documents; Toxicology and a Multi-disciplinary General Section;
        <bullet> the National Association of Medical Examiners (NAME) 
        which represents medical examiners, coroners and other 
        physicians who conduct death investigations;
        <bullet> the National Forensic Science Technology Center 
        (NFSTC) which is dedicated to assisting forensic science 
        facilities to achieve the highest quality of operations; and
        <bullet> the National Center for Forensic Science (NCFS) which 
        provides research, education, training, tools and technology to 
        meet the needs of forensic science, investigative, and criminal 
        justice agencies.

    While the public thinks of forensics as DNA, it is essential that 
the committee understand that this is just one of many tools available 
to the criminal justice community by our forensic laboratories.
    While DNA is indeed an important discipline, Forensic Science is 
more broadly defined as the examination of evidence submitted by 
criminal justice agencies to forensic laboratories for the purpose of 
determining how that evidence pertains to the law and/or courts.
    Forensic laboratories support the criminal justice community by 
offering services in Clandestine Laboratory Investigations, Explosive 
Analysis, Controlled Substance Analysis, Firearms Examinations, Alcohol 
Analysis, Toolmark Examinations, Toxicology, Impression Evidence, Arson 
Analysis, Trace Evidence Examinations, Death Investigations, Digital 
Imaging, Physical Match, Crime Scene Investigations, Training as well 
as Biological Examinations including DNA.
    However, as you know, the use of forensic science by the criminal 
justice system has increased dramatically over the past several years 
but our funding has not. We find ourselves in a situation where we are 
unable to keep up with the demands of the system and unfortunately, 
many cases are either held up because we cannot deliver evidence on 
time or worse yet, the prosecutor goes to court without the proper 
information from the forensic laboratory. It is an unfortunate reality 
with the staggering backlogs that not all cases submitted to our 
nation's laboratories will be examined. Laboratories must decide which 
cases they will analyze.
    Recently the American Society of Crime Laboratory Directors 
completed a study to determine those resources that forensic 
laboratories need to adequately support our nation's Criminal Justice 
Community with quality examinations of evidence in a timely manner. 
Forensic Crime Laboratory Managers and Directors were asked to provide 
an accounting of resources needed to provide quality analysis in a 
timely manner. A timely manner was defined as 30 days unless shorter 
time frames where required by a particular state's statute.
    We actually don't know how many forensic laboratories exist in the 
United States as many facilities never before considered as crime 
laboratories are now providing forensic examinations in one or more 
forensic disciplines and therefore, should be included. Therefore, 
these results are based on a very conservative estimation of 500 
forensic facilities throughout the United States. We conducted our 
study by surveying 224 Crime Laboratories.
    The survey results show that an additional 9,000 forensic 
scientists are needed to properly staff our laboratories, an additional 
$1.3 billion is needed for adequate laboratory facilities and $285 
Million is needed to purchase the equipment necessary to conduct 
analysis of submitted evidence. More than 26% of our nation's crime 
laboratories do not even have basic Laboratory Management Systems 
(LIMS) which assist laboratories in documenting the chain-of-custody of 
their evidence.
    The reality of the situation is that a budget of $35 million to 
improve our nation's crime laboratories divided among 50 states would 
mean an average of $700,000 per state or $70,000 per laboratory. Mr. 
Chainnan a crucial piece of scientific instrumentation called the Gas 
Chromatograph--Mass Spectrometer, which is the backbone in a forensic 
crime laboratory utilized to analyze a simple drug case, cost the 
laboratory $100,000!
    The need to hire 9,000 additional forensic scientists would cost 
the nation's laboratories more than $650 million. Additionally, 
laboratories rely on mentoring relationships to train new forensic 
scientists. This requires that the laboratory utilize their limited 
resources of seasoned forensic scientists and equipment for training 
purposes instead of actual casework.
    To address this issue, regional forensic training centers need to 
be established in strategic locations utilizing existing talents and 
staff of universities in conjunction with local forensic laboratories. 
Many forensic laboratories have already started working with existing 
universities in addressing these needs. Discussions are already 
occurring between universities and crime laboratories in states such as 
Illinois, Florida, Virginia, West Virginia, California and New York.
    Finally, less than \1/2\ of all crime laboratories in the United 
States are ASCLD/LAB accredited. The quality of forensic analysis 
conducted in our nation's crime laboratories is paramount. Quality 
analysis can be achieved by utilizing the current ASCLD/LAB 
accreditation process for those laboratories that are not currently 
accredited. Laboratories that accept money from the Coverdell National 
Forensic Improvement Act that are not accredited must achieve 
accreditation within 2 years. However, ASCLD/LAB currently does not 
have the infrastructure to handle this potential wave of applicants and 
would have to shift the substantial cost of accrediting these 
facilities to those laboratories already accredited unless ASCLD/LAB 
receives funding needed to offset these bridging costs.
    As my concluding remarks Mr. Chairman, I would like to thank the 
committee for allowing me to share with them the facts regarding the 
desperate needs of our forensic laboratories who provide valuable 
support to our criminal justice community. I thank this committee for 
their strong support in passage of the Coverdell National Forensic 
Science Improvement Act and urge your continued support in obtaining 
adequate funding and appropriation for this law.

    Senator Sessions. Mr. Petersen, we are delighted to hear 
from you, and thank you very much for taking time out of your 
busy day to be with us.

   STATEMENT OF WILLIAM PETERSEN, ACTOR, VALENCIA, CALIFORNIA

    Mr. Petersen. Thank you so much, Senator, for inviting me. 
I feel completely honored to be able to address this 
distinguished group.
    I am here to speak to you on behalf of a television show 
that highlights crime-solving technology. As a result of my 
role in the CBS crime drama series ``CSI,'' I began to research 
the field of forensic science and became fascinated with it.
    Each week, our 23 million viewers find forensic science 
equally fascinating. What motivates these viewers to tune into 
``CSI'' is the believe that as Americans, I think they know 
that our criminal justice system is about the truth, and I 
believe they find comfort in the fact that the evidence is 
ultimately the essence of that truth.
    The forensic laboratory that my character, Gil Grissom, 
inhabits is one that knows no budget constraints nor budget 
cuts. It has adequate space and funding for every technological 
advance imaginable. We have a sufficient number of expertly 
trained employees to solve every crime that we encounter. We 
have few, if any, backlogged cases.
    My ``CSI'' lab processes evidence and solves crimes in the 
mere 44 minutes of screen time allotted to us by our network. 
My character's lab is a technological wonder and absolutely 
state-of-the-art. But unfortunately we all know that this is 
not the reality of the approximately 500 crime labs and 
coroners' labs across our country. Their reality is quite 
different than the manufactured world of my character and of 
``CSI.''
    Our country's crime labs are faced with a plethora of 
problems. Caseloads have grown faster than funding and their 
backlogs are constantly expanding. Many labs have outdated 
facilities and equipment. They have to operate with an 
insufficient number of qualified personnel and outmoded 
technology to conduct the analyses that are so vital to our 
criminal justice system.
    For every 44 minutes that ``CSI'' spends solving a crime on 
Thursday nights, 44 days, 44 weeks, sometimes 44 months are 
spent by real victims and suspects waiting to receive the 
truth. ``CSI'' restores people's belief in America's system of 
justice before they go to bed that night, but in reality it is 
frequently weeks, months, and sometimes years that the innocent 
are held hostage and the guilty roam free while evidence sits 
untouched in our Nation's overburdened crime labs.
    Recently, the media has focused some attention on the 
failures of certain individuals in the forensic community. 
These scientists are the exception rather than the rule. As I 
am sure each of you would agree, we must never let the 
misguided behavior of any one person taint the dignity and 
honor of a whole profession.
    The forensic scientists I have met are dedicated 
professionals committed to objectivity. They are advocates for 
the truth. They recognize the consequences that their analyses 
and decisions can have on both the accused and the victim. They 
need and want the tools and training that are so vital to 
keeping the scales of justice level.
    In conclusion, let me say that I am deeply committed to 
this issue and I recognize the needs of the laboratories doing 
this important work. I want them to have help and I completely 
and wholeheartedly support the efforts of our forensic 
scientists and the funding of the Paul Coverdell National 
Forensic Sciences Improvement Act.
    Again, Mr. Chairman, thank you for allowing me the 
opportunity to express my beliefs.
    [The prepared statement of Mr. Petersen follows:]

    Statement of William Petersen, CSI, Actor, Valencia, California

    Thank you, Mr. Chairman and members of the Committee. I am greatly 
honored to have been invited to address such a distinguished group. I 
am here to speak to you on behalf of a television show that highlights 
crime solving technology. As a result of my role in the CBS dramatic 
series, CSI, I began to research the field of forensic science and 
became fascinated with it. Weekly, twenty three million viewers find 
forensic science just as fascinating. What motivates these viewers to 
tune in to CSI is the belief that, as Americans, our criminal justice 
system is about the truth, and they find comfort in the fact that the 
evidence is, ultimately, the essence of that truth.
    The Forensic Laboratory that my character, Gil Grissom, inhabits is 
one that knows no budget constraints or budget cuts, that has adequate 
space for every technological advance imaginable, that has sufficient 
employees to solve every crime that we encounter, and has no backlogs. 
The CSI lab processes evidence and solves crimes in a mere 44 minutes 
allotted to a network program. My character's lab is a technological 
wonder and state of the art. But, we all know that this is not the 
reality of the approximately 450 crime labs and coroner's labs across 
our country. Their reality is quite different than the manufactured 
world of my character and CSI.
    Labs across the country are faced with a myriad of problems. 
Caseloads have grown faster than funding and backlogs are expanding. 
Many labs have outdated facilities and equipment and an insufficient 
number of qualified personnel to conduct the analyses that are so vital 
to our criminal justice system. For every 44 minutes that CSI spends 
solving crime, 44 days, 44 weeks, or 44 months are spent by victims and 
suspects waiting to receive the truth. CSI restores people's belief in 
the criminal justice system before they go to bed at night, but in 
reality it is frequently weeks, months, and sometimes years, that the 
innocent are held hostage and the guilty roam free, while evidence sits 
untouched in overburdened labs.
    Recently the media has focused some attention on the failures of 
several in the forensic community. These scientists are the exception, 
rather than the rule. As I am sure you would agree, we cannot let the 
behavior of any one taint the whole profession. The forensic scientists 
that I have met are dedicated professionals committed to objectivity--
they are advocates for the truth. They recognize the consequences that 
their analyses and decisions can have on both the accused and the 
victim--they need and want the tools and training that are so vital to 
keeping the scales of justice level.
    In conclusion, let me say that I am deeply committed to this issue 
and recognize the needs of the laboratories doing this important work. 
I support the efforts of the forensic scientists and the funding of the 
Paul Coverdell National Forensic Sciences Improvement Act. And again, 
thank you for providing me with the opportunity to express my beliefs 
before this esteemed Committee.

    Senator Sessions. Thank you very much. That was a good 
presentation from one not in the system and it is good to hear 
that. I do think that the American people do like the pursuit 
of truth. They do like the idea that we know something with 
relative certainty and can determine that scientifically.
    Do you think that is part of the charm or the lure of the 
program that you have?
    Mr. Petersen. I absolutely do. I don't want to analyze the 
last 25 years of culture and society here in America, but I 
believe that we are at a place in time where certainly our show 
has come at the right time and place for a very, very large 
amount of the American population. And I think it is that 
certainty; I think it is the idea of knowing something 
absolutely.
    My character on the show often says, you know, people lie. 
Whether they intend to lie or whether they forget something or 
they thought they saw something that they didn't see, they end 
up ultimately being lies and very difficult to deal with in any 
sort of legal situation.
    The great thing about our forensic scientists in this 
country is that they are able to say, no, that couldn't have 
happened because of this, that and this. And I think that is 
one of the true points of why our show has been so successful 
because it is what all of these crime lab directors and their 
associates manage to do with evidence that makes the 
difference.
    Senator Sessions. Well, in my experience as a prosecutor of 
15 years, I never had a problem with good scientific evidence. 
In those years, I have seen two or three instances of a 
wrongful identification where a witness literally believed that 
was the person they identified as robbing them. But I have 
never seen a fingerprint turn out not to be true or a chemical 
analysis not come back in the right way.
    Perhaps because of the shows and Patricia Cornwell books 
and other things, people do expect good scientific evidence. 
They expect that the professionals who are doing that have had 
time and equipment, and so forth, to get the job done 
correctly.
    Dr. Boyd, do you have any indication or numbers of how much 
increase there has been in the demand for forensic analyses to 
be done in the last, say, decade?
    Mr. Boyd. I don't know that we can give you specific 
numbers. What I can tell you is that it is very clear, based on 
what has been happening in the courts especially with DNA and 
other things, that DNA evidence is clearly expected in those 
cases when it is actually available.
    I think we can take for granted that the success, kind of 
the gold standard of DNA, has made the American public and the 
courts generally expect there to be more scientific evidence, 
for it to be better analyzed and for it to be more positive 
than has been the case, I think, in the past.
    I think there is an assumption that if it is available, it 
ought to be used, and quite literally a demand. I think juries 
expect to see it, I think judges expect to see it, I think the 
public expects to see it.
    Senator Sessions. I think you are correct. I know when I 
first began prosecuting you would have a witness to testify 
that they bought cocaine from the defendant. Then we used audio 
and video recordings of the drug bust. So I think the juries 
expect more, and you just can't go into a trial with DNA from 
two samples and not all 20 drops of blood or whatever is on the 
scene.
    Mr. Boyd. I think one particular point to make is that we 
know in drug cases one of the first things you have to do is 
prove what the drug is. So all we have to do is look at the 
number of drug cases and we can take that as just one part of 
the growth because every drug case entails a laboratory 
analysis.
    Senator Sessions. Well, as I believe you indicated, 54 
percent are drug cases, and that is a big part of the bread-
and-butter work that just needs to be done in a timely fashion.
    Senator Feingold, we are glad you can join us, and I know 
you may have other things, but I would defer to you at this 
time. Thank you for coming. You may make a statement or ask 
questions.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. I will make a 
couple of remarks and ask a question or two. I regret that I 
couldn't be here earlier. I very much appreciate the witnesses 
being here.
    I want to commend you, Mr. Chairman, and our distinguished 
ranking member, Senator Leahy, for holding the hearing. I am 
very pleased to see this Committee once again address the need 
for improving the tools for seeking the truth in our criminal 
justice system.
    Last year, we had a very informative and lively hearing 
about post-conviction DNA testing, and I was a cosponsor last 
year and am proud to be a cosponsor again this year of Senator 
Leahy's bill that will ensure access to post-conviction DNA 
testing, the so-called Innocence Protection Act.
    DNA testing of biological material has played an incredible 
role in the pursuit of truth and justice. DNA testing has 
identified perpetrators or provided other important probative 
value to the police and prosecutors who are investigating a 
crime. But DNA testing has also further exposed what you might 
say is a piece of the dark underbelly of our criminal justice 
system, the conviction and sentencing of innocent people for 
crimes they did not commit.
    All Americans are becoming increasingly familiar with the 
stories of people wrongfully convicted, sentenced and sent to 
prison finally walking free as a result of DNA testing. 
Nationwide, scores of innocent people have been able to walk 
free, and the value of this test is even more poignant, of 
course, for those sitting on death row.
    Since the reinstatement of the modern death penalty, ten 
death row inmates have been exonerated as a result of DNA 
testing. While DNA has unlocked the prison doors for many 
innocent people, it has also led us to the real perpetrator.
    Mr. Chairman, our State crime labs play an important role 
in identifying, receiving, handling, testing and storing the 
biological evidence that is subject to DNA testing. In addition 
to DNA testing, they, of course, conduct other aspects of 
forensic science, like hair analysis, fingerprint analysis and 
ballistics identification and imaging. The Federal Government 
can provide meaningful support and resources to assist crime 
labs with meeting these needs.
    So, Mr. Chairman, I am very pleased that our late 
colleague, Senator Coverdell, championed the need for 
additional resources for our State crime labs, and I am very 
pleased that you, Senator Sessions, have continued Senator 
Coverdell's work. I am glad that this bill was signed into law 
and I hope our State crime labs get the resources they need.
    Let me ask a question of all of you with a bit of material 
at the beginning and then you can just take it where you wish.
    As you are all aware, Joyce Gilchrist, an Oklahoma City 
crime lab scientist, has been accused of shoddy lab work, or 
even falsifying test results and testifying falsely on the 
stand. Over a 15-year period, it is believed that she was 
involved in hundreds of felony convictions, including 11 in 
which the defendant was executed and 12 in which the defendant 
is currently on death row.
    Oklahoma Governor Frank Keating has said he is confident 
not a single innocent person has been executed. I don't see how 
he can be so confident, given that a full review of all cases 
in which she was involved is only just beginning. In fact, just 
last week Oklahoma released Jeff Pierce from prison after 
serving 15 years of a 65-year sentence for a rape he did not 
commit, and Joyce Gilchrist testified falsely in his case that 
hair taken from the crime scene matched hair samples taken from 
Mr. Pierce.
    Mr. Pierce's lawyers had argued that Ms. Gilchrist had 
overstated the certainty with which hair comparisons could be 
used to identify a single person. As if this was not serious 
enough, Ms. Gilchrist then violated a court order by failing to 
forward the hair evidence to a private lab hired by the 
defense. The evidence she did send leaked out of the package; 
it could not be analyzed. This meant the defense could not 
fully analyze the evidence before trial.
    The State appeals court said that, while she violated the 
court order, her failure to turn over the evidence was 
insufficient to overturn the conviction. It was not until Mr. 
Pierce was able to test certain biological evidence with modern 
DNA testing that he finally won his release and walked out of 
prison a free man just last week.
    On Friday, May 11, Barry Scheck and Peter Neufeld of the 
Innocence Project writing in the New York Times suggested that 
we should place quality assurance standards on forensic labs in 
the same way that we do on medical testing labs. They suggest a 
model for improvement among forensic labs would be the 1988 
Clinical Laboratory Improvement Act which provided 
accountability for medical testing labs.
    Now, I would ask you, do you agree that Federal standards 
are needed to promote quality, accountability and integrity of 
forensic labs?
    Mr. Boyd. One of the principal roles of the National 
Institute of Justice has been to try to help to develop 
standards for the conduct of certain forensic or investigative 
disciplines. Over the last, I think, 3 years we have published 
a guide which is now kind of a standard for the way homicide 
investigations should be conducted, one for the use of 
eyewitnesses, one for arson and one for bombing investigations, 
and one for crime scenes in general.
    We also this year received from Congress in a reprogramming 
authority to use $1.7 million of asset forfeiture money that we 
will be using to reduce the DNA backlog to use expressly for 
quality assurance to ensure that the testing that is being 
done, in fact, meets those kinds of standards. NIJ has also 
supported strongly the development by ASCLD and by the American 
Academy of Forensic Sciences both accreditation and proficiency 
testing kinds of programs for forensic scientists and for the 
laboratories themselves.
    I think one of the things that we need very much to do, 
though, is now to look at developing a standard, consensus-
based set of curricula for the education of forensic 
scientists. The reality today is that if you were to ask 
someone with a forensic science degree what it meant, you would 
get different answers, depending on where they got the degree, 
and you would have seriously different questions about what 
they were qualified to do in the forensic arena, so that they 
typically have to be retrained for 6 to 12 months once they 
have finally come to work in the laboratory.
    So I think you need all of those things. You need the 
development of standards in the forensic community by AAFS and 
by ASCLD. You need a quality assurance process and you need 
better education for forensic scientists.
    Senator Feingold. Mr. Coonrod?
    Mr. Coonrod. Quality is certainly an issue that we are all 
concerned about, and one of the things we have to recognize is 
less than one-half of our laboratories are currently 
accredited. The accreditation process provides the quality 
mechanism for our laboratories whereby, through the mechanisms 
of external proficiency testing, audits, review of courtroom 
testimony, different policies and procedures are developed by 
those laboratories that are actually accredited so as when 
those are implemented they provide a sound basis of quality for 
the laboratory to ensure that they are indeed providing the 
highest quality service.
    I believe that as more laboratories become accredited--and 
one of the things that is most important about the Paul 
Coverdell Forensic Sciences Improvement Act is it does provide 
that laboratories utilizing monies from this must have applied 
for accreditation within 2 years, and I think that that is very 
critical in improving the quality of our Nation's laboratories.
    Senator Feingold. Mr. Petersen?
    Mr. Petersen. Well, Senator I agree with Mr. Coonrod, and 
certainly defer to these gentlemen in terms of their expertise 
about the accreditation of these crime labs. Obviously, the 
situation in Oklahoma City, if true, is despicable and 
hopefully isolated. I am not sure whether that is an accredited 
lab.
    Mr. Coonrod. It is not.
    Mr. Petersen. It is not accredited. Certainly, these are 
the gentlemen who know how to best handle that situation.
    Senator Feingold. Thank you very much, and thank you, Mr. 
Chairman.
    Senator Sessions. Thank you. I appreciate those insights.
    With regard to the Oklahoma problem, which was troubling to 
anybody who cares about justice in America, Mr. Coonrod, you 
indicated that that was not an accredited laboratory.
    Mr. Coonrod. That is correct, sir.
    Senator Sessions. Do you have any suggestions about how a 
laboratory could better manage itself or be managed so that 
those kinds of events are less likely to occur?
    Mr. Coonrod. Absolutely.
    Senator Sessions. What would you suggest?
    Mr. Coonrod. Well, as I said, less than one-half of our 
Nation's laboratories are accredited. This provides a very 
valuable mechanism whereby the accreditation process has a 
series of standards and principles by which those laboratories 
that seek accreditation must comply with those standards and 
criteria. They include, as I said, a series of quality 
assurance measures like having a quality manager and quality 
systems.
    One of the problems we face in our Nation's laboratories 
today is we need 9,000 more forensic scientists, as I said, in 
order to be able to deal with the backlog we have. Many 
laboratories are faced with if I have one or two positions that 
I can hire, do I hire those one or two people as forensic 
scientists to deal with that backlog or do I hire a support 
person, known as a quality assurance manager?
    The unfortunate reality is our laboratories are dealing 
with a backlog and are concerned about getting the cases out 
and they have to put a sideline on hiring, let's say, a quality 
manager, which is a key cornerstone of quality of our forensic 
laboratories and is required in seeking ASCLD lab 
accreditation. So they are making these hard decisions because 
they don't have the money available or the resources available 
to be able to implement these quality systems which are part of 
the accreditation process.
    The accreditation process also has a very strong program on 
proficiency testing whereby laboratories actually utilize 
external proficiency test providers who are outside of the 
laboratory where tests are made. They are submitted to the 
laboratory and used to ensure that the quality of the 
laboratory exists.
    There is an audit mechanism whereby the laboratories must 
go through a very extensive audit program where inspectors come 
in. They come in and ensure that the policies and procedures 
established by that laboratory do meet quality standards, that 
these standards are scientifically valid and what they are 
doing is good science. One of the other things is courtroom 
testimony to ensure that there is follow-up, that these people 
are actually presenting themselves in court correctly.
    So to answer your question, yes, the accreditation process, 
I feel, would do an excellent job.
    Senator Sessions. Dr. Boyd, you mentioned quality 
assurance. Would you describe for us what you think a quality 
assurance program should be in an accredited lab?
    Mr. Boyd. I could talk to you about the DNA quality 
assurance program. What we are doing in quality assurance and 
the backlog reduction program is to take a part of the samples 
which are being tested in this case primarily by contract 
laboratories, and we take a percentage of those out and have 
another laboratory look at that analysis to make sure that it 
has been executed correctly and that they are getting the right 
kinds of results.
    I think that you have to establish as a matter of policy 
within any scientific activity some method for both internal 
and, when appropriate, external reviews of the quality of the 
work you have done. And I think one of the strongest such 
activities in the country today is the ASCLD laboratory 
accreditation process which brings in people not in that 
laboratory to come in and look at that laboratory's process.
    I think you need those things together in laboratories to 
do that, but as long as we have half of our laboratories 
unaccredited, then I think we have some reason to suggest that 
things like the Coverdell bill which requires that kind of 
accreditation to be the kinds of things we are going to need to 
improve and strengthen all of our labs.
    Senator Sessions. Mr. Petersen, you have shown on your 
program a number of new and effective laboratory technologies. 
Would you describe some of those? And maybe I will ask these 
gentlemen if they are common around the country.
    Mr. Petersen. Well, we fortunately have a lot of fabulous 
technical advisers who are actually either former criminalists 
or current criminalists who work with us. Invariably, everyday 
they come into our lab and are just amazed.
    The other thing is our stuff is given to us by the 
manufacturers of those products. Just the other day, I believe 
it was Kodak that gave us an unbelievable camera, you know, a 
$30,000 digital camera that can do all kinds of stuff in the 
field and you can computer it back to the lab. I mean, it is 
just amazing equipment that obviously is quite expensive. We 
have a gas chromatograph-mass spectrometer.
    Senator Sessions. You have got it. Good.
    Mr. Petersen. Yes, we have got one for free, because, of 
course, they are promoting it. Often, I feel bad about it, 
quite frankly. We also have an unlimited amount of personnel; 
we call them ``extras,'' and they fill out all the rooms in our 
lab and they are all quite qualified to stare into the 
microscope.
    I am truly amazed at what these criminalists in this 
country do in terms of dealing with the criminal situation and 
the crimes that take place in this country and I realize how 
difficult it would be to not have this equipment. I mean, 
obviously we take great liberal stretches in terms of how we 
are able to put all this stuff together and solve our crimes in 
one evening.
    The amount of work and manpower and knowledge and equipment 
that is required to actually do it in reality is quite 
different, and it has just been very informative to me in the 
last several days in terms of looking at this issue how 
important obviously the assistance from the Paul Coverdell Act 
would--I mean, I can't imagine us being able to go further 
without it.
    Senator Sessions. Well, I thank you for those good words.
    Keith, do you have anything to add to this as a leader of 
forensic scientists around the country?
    Mr. Coonrod. Well, I agree with what Mr. Petersen says. 
Programs like this have brought to light forensics to the 
public community and that certainly has helped us, but I don't 
think there is a laboratory that hasn't gotten a phone call 
asking us to provide the service that they have seen on 
``CSI.''
    The disappointing thing is quite often the answer is, no, 
we can't do that. We don't have the technology. We haven't 
bought or we don't have available that piece of equipment, or 
the research and development has not been done to ensure that 
it would meet the standards in court of the technology that you 
have seen on that TV show. So it is sometimes frustrating, but 
enlightening, in that it does bring the public awareness of 
forensic science and what forensics sometimes can and cannot 
do.
    Senator Sessions. With regard to the Federal Government, 
Keith, you are not a part of that beast, but it strikes me, and 
it always has, that the Federal Government by virtue of being 
involved with all 50 States should not hesitate to play a role 
in research, in equipment development and that sort of thing, 
because each individual State has got its duties everyday to do 
those reports.
    Do you think the Federal Government could do a better job 
of helping do scientific research and provide training and that 
sort of thing for the labs around the country?
    Mr. Coonrod. Well, first of all, the Federal Government is 
trying to do the best they can in providing that. Certainly, we 
have gotten support from many different Federal labs, but as we 
know, 90 percent of the forensic work is done by State and 
local laboratories.
    With the need that we have in education and training, what 
we need is actually more cooperative efforts with universities 
and crime laboratories, and there already have been discussions 
between universities and crime laboratories to provide the 
needed training and education. They have occurred in various 
different States such as Illinois, West Virginia, New York, 
Florida and California, to name a few.
    What we need is we need to expand on those discussions so 
actually we have, let's say, regional training centers which 
also can be worked with different forensic laboratories and 
assisting so we work collectively in helping to train and 
provide education and training.
    Right now, our training is done on a mentoring basis, 
basically one on one in the laboratory. Laboratories do not 
have the resources available to tie up a person to train one-
on-one for sometimes, let's say, a questioned documents exam 
that can take 2 to 3 years' worth of training. They are not 
only tying up the examiner to work with a trainee, but also the 
equipment that that laboratory needs to perform its analysis. 
Laboratories cannot afford to utilize their limited resources.
    Senator Sessions. Dr. Boyd, would you briefly like to 
answer or make any comment on that?
    Mr. Boyd. Well, a significant part of what we are trying to 
do is to develop new tools with a focus on affordability, which 
makes that a real challenge. It is important to note that 
while, for example, the Department of Defense may spend $200 
million or so on a single aircraft or piece of equipment, we 
have today the largest forensic research and development budget 
in the history of the United States and that comes, including 
DNA, to probably less than $10 million total, out of which we 
are now trying to do things like develop a new DNA micro chip 
that can do the processing for a matter of a few dollars.
    We figure if this thing costs more than $15 per sample, it 
is not going to work because they are not going to be able to 
afford it. These laboratories actually have to make hard 
decisions between buying film for their cameras or buying new 
equipment.
    We are also working with New York, for example, in the 
Albany crime laboratory in trying to take some things that we 
developed for telemedicine to reduce the costs of medical care 
in prisons and apply it in forensic sciences, where we call it 
teleforensics.
    We are actually working with NASA to see if we can take 
some of these long-distance kinds of analytical devices they 
have developed, make them affordable and put them into systems 
so that a local crime laboratory that doesn't have a Henry Lee 
or a Keith Coonrod available can make a link to Keith and say, 
can you help me, can you look at this, can you help me figure 
this out, can you remotely help analyze that, can you make a 
connection to a laboratory to do that.
    We are now trying to expand that demonstration project 
which has worked very well in New York to a number of other 
States, but it is going to take continuing effort to continue 
to address the development of these technologies. The only one 
in which the Federal Government has invested substantial money, 
and it has made a difference in the United States because it 
has invested that money, is DNA and that is the model, that is 
the success.
    The difference DNA has made, I think, is an example of the 
difference R and D in the forensic sciences could make in other 
areas, as well, in that 97 percent of cases that don't involve 
DNA.
    Senator Sessions. Well said. I think those are excellent 
points.
    Mr. Petersen, we will be seeing you, if you won't be seeing 
us as often. We thank you gentlemen for coming, and thank you 
very much for what you do with your program. I think it does 
help restore confidence in justice in America. In a big big 
country of nearly 300 million people, we will have some 
problems. Everything won't go perfectly, but day after day the 
forensic laboratory scientists that I have dealt with year 
after year are men and women of the highest integrity and I 
have never doubted the quality of their work. I think that is 
important for us to recognize, particularly when we see a 
problem develop.
    Thank you.
    Mr. Petersen. Thank you, Senator.
    Senator Sessions. Thank you.
    We will take our next panel, and I think we have got a good 
table now of true experts.
    Senator Durbin, we are glad you have joined us. I was about 
to introduce the panel, but do you want to make an opening 
statement first?

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman. I appreciate 
coming together with you on this bill that we are cosponsoring, 
the Paul Coverdell Forensic Sciences Improvement Act.
    We have DNA testing and a lot of other technology to unlock 
the secrets of forensic evidence and to learn whether we should 
put people behind bars or set them free. But unfortunately, as 
I am sure the Chairman has made clear, our crime labs are 
critically backlogged.
    We will hear from Mr. Michael Sheppo, with the Illinois 
State Police, about the situation we are facing in our State of 
Illinois where we have 11 forensic labs, 9 of which are 
operated by the Illinois State Police. They oversee the third 
largest system of crime labs in the world, surpassed only by 
the FBI and Scotland Yard.
    Recent data from the Illinois State Police shows a total of 
8,965 forensic evaluations backlogged in the month of July; 
1,069 of these backlogged cases were DNA cases, and almost 
1,000 of these cases were over 30 days old. The laboratories 
just can't keep up. This kind of backlog dilutes the benefits 
of forensic testing to criminal investigations. In many cases, 
the trail is allowed to run cold.
    Forensic evidence can tell us the truth. DNA, for example, 
can literally tell us whether people should be freed or kept 
behind bars. We need to use this technology, and use it 
effectively.
    I am going to put the rest of my statement in the record in 
its entirety, with the approval of the chairman, and look 
forward to the testimony of the panel.
    Senator Sessions. Thank you. I do appreciate your support 
on this bill, and we just heard from the previous panel how 
less than half the labs in America are accredited. This bill 
will require them to either be accredited or be moving toward 
accreditation, so I think that could be a good end of this 
legislation.
    Let me introduce the panel and we will just go down the 
list and hear from each one of you.
    Mr. Richard Townsend is with the Utah Department of Public 
Safety's crime lab in Salt Lake City. Mr. Michael Sheppo is 
with the Illinois State Police Division of Forensic Sciences. 
We just heard about your office.
    Dr. Eric Buel is Director of the Vermont Forensic 
Laboratory in Waterbury, Vermont.
    Do you know Senator Leahy?
    Mr. Buel. Just a little bit.
    Senator Sessions. He is a good one to know.
    Dr. Jamie Downs is Director and Chief Medical Examiner of 
the Alabama Department of Forensic Sciences in Auburn, Alabama.
    War Eagle, Dr. Downs?
    Dr. Downs. War Eagle.
    Senator Sessions. Dr. Downs, among other things that he 
does, has been working on the recovery of the remains of the 
individuals inside the Hunley submarine in South Carolina, 
which is his home State.
    Dr. Milton E. Nix, Jr. is the Director of the Georgia 
Bureau of Investigation. We appreciate you, Mr. Nix. You have 
been here working on this bill for a long time. I know you and 
Paul Coverdell believed in it, and it is a pleasure for me to 
be able to make a difference in making it a reality.
    Dr. Michael Yura is Director of the Forensic Identification 
Program at West Virginia University, in Morgantown, West 
Virginia. Thank you, Dr. Yura, for being here.
    So, Mr. Townsend, we will hear from you.

  STATEMENT OF RICHARD J. TOWNSEND, DIRECTOR, UTAH BUREAU OF 
            FORENSIC SERVICES, SALT LAKE CITY, UTAH

    Mr. Townsend. Thank you, Senator.
    It is my distinct honor and privilege to appear before the 
Committee to discuss this subject which has become a vital 
component in criminal justice investigations. I am going to 
attack my testimony from an anecdotal story, inasmuch as I am 
not a scientist. I am a police officer and investigator, and as 
such am Director of the Utah State Criminalistics Laboratory 
System.
    In July 1999, two very brutal crimes occurred in the 
western part of Salt Lake Valley. The first involved the sexual 
assault of a female victim during a home invasion. After raping 
and terrorizing the victim for a lengthy period of time, the 
suspect attempted to destroy bodily fluid evidence using catsup 
and hand lotion.
    When police investigators were summoned to the crime scene, 
the victim underwent a physical examination by a nurse 
practitioner in order to capture any physical evidence left by 
the suspect. A rape investigation kit was delivered to the 
State criminalistics laboratory, and scientific analysis 
provided a DNA profile of the suspect in spite of his attempt 
to destroy the evidence.
    Two weeks later, in the same general vicinity of the sexual 
assault, a second victim was brutally raped and this time 
murdered. In this particular case, the suspect set the dead 
victim's bed on fire and when police investigators responded to 
the crime scene, only a burned out torso was left of the 
victim.
    Although the victim's body had been mostly consumed by the 
fire, bodily fluids were extracted from the victim which 
ultimately led to the DNA profile of the suspect. In an 
instant, the DNA profiles from both of these crime scenes were 
compared and an exact match was made. The same suspect was 
responsible for these atrocities. Sadly, the murder victim was 
a well-known stage actress who had performed hundreds of times 
in front of Utah audiences.
    The entire west side of Salt Lake County was traumatized by 
these two incidents. Once it was discovered both of these 
crimes were committed by the same individual, law enforcement 
was fearful of a serial rapist and killer on the loose. Sheriff 
Aaron Kennard put his entire police agency on high alert and 
extra patrols in the west side neighborhoods.
    Approximately 1 week after the murder of the second victim, 
a deputy sheriff stopped an individual who generally matched 
the description of the suspect from the composite drawing given 
by the rape victim. The deputy felt he had enough probable 
cause to arrest the subject. Within a few hours, a police 
lineup was conducted and the rape victim picked this individual 
out whom the deputy had arrested.
    The sheriff and all police agencies throughout the Salt 
Lake Valley were greatly relieved that the dangerous individual 
had been captured and taken off the street. The sheriff indeed 
called a news conference in order to calm the community's 
nerve. A crime lab state member was sent to the jail in order 
to extract a blood standard from the suspect in order to make a 
positive DNA match from the evidence collected at the two crime 
scenes.
    Everyone was shocked when the results came back negative, 
indicating this particular individual was not responsible for 
these two crimes. Indeed, many police officials and others 
questioned the DNA analysis from our crime lab and felt that we 
had made a mistake.
    Due to the exact nature of the science surrounding DNA and, 
I might add, all of the other evidence that we have talked 
about, from fingerprints, to trace, to drug analysis, the crime 
lab staff was certain that this was not the individual who had 
committed these crimes.
    The first rape victim recognized she had picked out the 
wrong individual from this lineup and gave a second composite 
sketch drawing to an artist. A correctional officer at the Utah 
State Prison was walking down a hallway and noticed the sketch 
of the suspect hanging on a bulletin board. She immediately 
recognized the drawing as being very similar to an individual 
who had been paroled from prison some 6 months earlier. She 
immediately contacted the detective in charge of the 
investigation.
    The investigator contacted the crime lab, indicating he had 
a solid lead. In a wonderful twist of fate, the crime lab had 
received a blood standard from this suspect upon being paroled 
from prison. States across the country, as you know, are taking 
blood standards from convicted and paroled offenders in order 
to place their DNA profiles into the CODIS system, or Combined 
DNA Index System. I immediately authorized my staff overtime 
pay to work on the DNA profile throughout the night. An 
``attempt to locate'' was put out on the identified offender 
because an exact match was made after the DNA profile was done.
    This particular case captures all the essential elements of 
DNA technology. First, DNA evidence tied two serious crimes 
together. Second, DNA evidence exonerated an innocent 
individual. Third, using DNA technology along with the 
wonderful advantages of the combined DNA indexing system, a 
multiply convicted and extremely dangerous individual was taken 
off the streets of Salt Lake City. During his stay in prison, 
this individual has confessed his incidents of terror had only 
just begun.
    The advantages of DNA evidence processing, along with all 
the other issues that the distinguished first panel discussed, 
are so vitally important to law enforcement. I commend this 
Committee for the work that you are doing and hope that you 
will continue on this path.
    Thank you very much.
    [The prepared statement of Mr. Townsend follows:]

  Statement of Richard J. Townsend, Director, Utah Bureau of Forensic 
                                Services

    It is my distinct honor and privilege to appear before the Senate 
Judiciary Committee to discuss a subject that has become a vital 
component in criminal justice investigations. In July of 1999, two very 
brutal crimes occurred in the western part of the Salt Lake Valley. The 
first involved a sexual assault of a female victim during a home 
invasion. After raping and terrorizing the victim for a lengthy period 
of time, the suspect attempted to destroy bodily fluid evidence by 
pouring ketsup and hand lotion into the victim's genitalia. When police 
investigators were summoned to the crime scene, the victim underwent a 
physical examination by a nurse practitioner in order to capture any 
potential physical evidence left by the suspect. A rape investigation 
kit was delivered to the State Criminalistics Laboratory. Scientific 
analysis provided a DNA profile of the suspect, in spite of his attempt 
to destroy the evidence.
    Two weeks later, in the same general vicinity of the sexual 
assault, a second victim was brutally raped and murdered. In this 
particular case, the suspect set the dead victim's bed on fire and when 
police investigators responded to the crime scene, only a burnt out 
torso was left of the victim. The Medical Examiner was summoned to the 
crime scene for the purposes of swabbing the victim for any potential 
bodily fluid evidence. Although the victim's body had been mostly 
consumed by the fire, bodily fluids were extracted from the victim 
which ultimately led to a DNA profile of the suspect. In an instant, 
the DNA profiles from both of these crime scenes were compared and an 
exact match was made. The same suspect was responsible for these 
atrocities. Sadly, the murder victim was a well-known stage actress who 
had performed hundreds of times in front of Utah audiences.
    The entire west side of Salt Lake County was traumatized by these 
two incidents. Once it was discovered both of these crimes were 
committed by the same individual, law enforcement was fearful of a 
serial rapist and killer on the loose. Sheriff Aaron Kennard put his 
entire police agency on high alert and ordered extra patrols in west 
side neighborhoods. Approximately one week after the murder of the 
second victim, a deputy sheriff stopped an individual who generally 
matched the description provided to law enforcement by the first rape 
victim. Although traumatized by this incident, the victim was able to 
provide a composite drawing of the suspect which was broadly 
distributed throughout Utah and surrounding states. The individual 
stopped by the deputy had an extensive criminal history in property 
crimes including robbery, burglary, et and several other thefts. The 
deputy felt he had enough probable cause to arrest the subject. ' 
Within a few hours a police line-up was conducted and the rape victim 
picked the individual out who the deputy had arrested. The Sheriff and 
all police agencies throughout the Salt Lake Valley were greatly 
relieved that a dangerous individual had been captured and taken off 
the street. The Sheriff called a news conference in order to calm the 
community's nerves. A Crime Lab staff member was sent to the jail in 
order to extract a blood standard from the suspect to make a positive 
DNA match from the evidence collected from the two crime scenes. 
Everyone was shocked when the results came back negative, indicating 
this particular. individual was not responsible for these two crimes. 
Indeed, many police officials and others questioned the DNA analysis 
from the Crime Lab and felt we had made a mistake. Due to the exact 
nature of the science surrounding DNA, the Crime Lab staff was certain 
this was not the individual who had committed the crimes. The Sheriff 
was not convinced and continued to hold this subject in jail.
    The first rape victim recognized she had picked the wrong 
individual out from a police line-up and provided a second composite 
drawing to a sketch artist, with finer details of the subject's eyes 
and facial features. The second composite drawing was re-issued and 
posted in law enforcement agencies throughout the west. A correctional 
officer, at the Utah State Prison, was walking down a hallway and 
noticed the sketch of the suspect hanging on a bulletin board. She 
immediately recognized the drawing as being very similar to an 
individual who had been paroled from Prison some six months before the 
two crimes were committed. She immediately contacted the detective in 
charge of the investigation. The investigator contacted the State Crime 
Lab indicating he had a solid lead. In a wonderful twist of fate, the 
Crime Lab had received a blood standard from this subj ect upon being 
paroled from Prison. States from across the country are taking blood 
standards from convicted and paroled offenders in order to place DNA 
profiles into the Combined DNA Index System (CODIS) database. I 
immediately authorized overtime pay for the DNA analysts to examine 
this particular blood standard. In less than 24 hours, an exact match 
was made from the blood sample taken from the paroled offender and the 
DNA evidence left at the two crime scenes. An Attempt To Locate was put 
out on the identified offender and he was arrested by a local law 
enforcement agency less than 24 hours after the identification was 
made.
    This particular case captures all of the essential elements of DNA 
technology. First, DNA evidence tied two serious crime scenes together. 
Second, DNA evidence exonerated an innocent individual. Third, using 
DNA technology, along with the wonderful advantages of the Combined DNA 
Indexing System, a multiply convicted and extremely dangerous 
individual was taken off the streets of Salt Lake City, Utah. During 
this last stay in Prison, this individual has confessed his incidents 
of terror had only just begun.
    Senators, the advantages of DNA technology cannot be overstated. It 
has to be considered the most significant breakthrough science has made 
to assist law enforcement in identifying perpetrators of crime. This is 
only one case of numerous I could cite where DNA evidence has been the 
key to solving serious crimes. DNA has far exceeded law enforcement 
investigators expectations in identifying perpetrators of crime. 
However, there are challenges to this technology which include staying 
abreast of changing equipment and processes, along with funding this 
expensive analysis and retaining highly qualified personnel. The 
instruments involved in DNA are expensive but are essential in 
decreasing the turnaround time in evidence analysis. The Committee can 
have a profound influence on the direction this country is taking with 
DNA technology. I recognize my testimony may be considered as only 
anecdotal, but I assure you the funding of DNA technology and equipment 
for laboratories across the country will be one of the most significant 
criminal justice decisions this committee will make. The Utah Bureau of 
Forensic Services and statewide law enforcement applaud your efforts 
and encourages you to continue on this course of DNA funding.

    Senator Sessions. Thank you. That is a great story, Mr. 
Townsend. I think it is something that we do hear too often, 
and I think sometimes eyewitnesses get shaky. Those things are 
not perfect, but a good DNA analysis is hard to argue with.
    Mr. Sheppo, we are delighted to hear from you.

 STATEMENT OF MICHAEL G. SHEPPO, BUREAU CHIEF, ILLINOIS STATE 
    POLICE DIVISION OF FORENSIC SERVICES, FORENSIC SCIENCES 
                 COMMAND, SPRINGFIELD, ILLINOIS

    Mr. Sheppo. Thank you, sir.
    Mr. Chairman, Honorable Senators of the Senate Judiciary 
Committee, ladies and gentlemen, my name is Michael G. Sheppo. 
I am a Bureau Chief with the Illinois State Police Division of 
Forensic Services, Forensic Sciences Command, the immediate 
past president of the American Society of Crime Laboratory 
Directors, and the president of the board of directors of the 
National Forensic Science Technology Center.
    Allow me to begin by first thanking the Committee for 
passing last year the Paul Coverdell National Forensic Sciences 
Improvement Act. This important piece of legislation is a 
tribute to Senator Coverdell, as well as a recognition of the 
crucial need to support and improve forensic sciences 
nationwide.
    I began my career in forensic sciences in the early 1970's 
in the Georgia laboratory system and was initially paid with 
Federal funds from the Law Enforcement Assistance Act. At that 
time, LEAA funding was used by some law enforcement agencies to 
establish, expand, and sometimes improve crime laboratories. 
Unfortunately, the LEAA and similar later programs did not 
specifically address all of the critical needs of the Nation's 
laboratories.
    The NFSIA is the first comprehensive piece of legislation 
which addresses all the aspects of our work--drug chemistry, 
toxicology, post-mortem medical examinations, latent print and 
firearms examinations, DNA analysis, trace evidence, and 
microscopic and document examinations.
    During my 30-year career, I have been fortunate to have 
worked in two States that have supported their forensic science 
laboratory systems. However, today, in Illinois and throughout 
our Nation, we are facing a crisis, a crisis caused by a 
shortage of forensic science resources.
    In the 21st century, the criminal justice system relies 
heavily upon the forensic sciences as an integral part of the 
investigative and judicial process. While billions of Federal 
dollars have been spent on virtually every aspect of the 
criminal justice components, the highly technical and very 
expensive forensic sciences have received very little Federal 
support.
    In most States and municipalities, funding has simply not 
kept pace with the increasing demands for crime laboratory 
usage. This neglect has resulted in severe backlogs in forensic 
laboratories nationwide. For example, since 1990 the average 
U.S. forensic laboratory has experienced an increase in 
caseload of 23 percent, while budgets have grown only 10 
percent and staff size by only 9 percent. This problem becomes 
even more significant considering the fact that most 
laboratories have long experienced resource shortages.
    Further compounding the caseload growth, the backlogs and 
the new technologies, the most important variable in crime 
laboratory operations is quality assurance, and the cornerstone 
of that is laboratory accreditation. It is the fundamental step 
in the process of quality assurance.
    But due mainly to the high costs of becoming accredited, 
only 5 in 10 forensic laboratories have now reached the 
accreditation mark. To meet accreditation standards, 
laboratories must upgrade their facilities, purchase or improve 
equipment, enhance analytical techniques, and add professional 
and support staff. All of these standards and laws that have 
been enacted in good faith by Federal and State governments 
also exhaust some of the resources of the forensic sciences 
laboratories.
    The Illinois State Police forensic laboratory system is the 
third largest system in the world. In 1982, we became the first 
accredited laboratory system. We have an extensive training 
program, a systemwide quality assurance program, and a research 
and development program. However, backlogs and turnaround times 
continue to increase. We find it necessary to implement service 
reductions, and the implementation of new technologies 
stretches our resources and challenges our ability to provide 
timely services.
    The Illinois State Policy has reviewed our ability to 
provide quality services to the citizens of Illinois and has 
determined that there are three organizational areas that we 
must address over the next 5 years, the first being staffing. 
In order to process our current caseload and maintain our 
forensic data bases, an additional 160 scientists and support 
personnel are required. The total cost for these personnel is 
in excess of $41 million, and $17.5 million is needed in 
operational funding to support them.
    The second area is training. Due to the attrition and 
retirement of individuals who began their career in Illinois in 
the 1970's, we could lose potentially 190 personnel by the year 
2005. In order to properly train their replacements, the 
Illinois State Police is proposing a Forensic Science 
Institute. The Institute would be centrally located in Illinois 
and can potentially serve as an initial training site for 
Illinois and the whole Midwest region of our Nation.
    The initial training of forensic scientists is a 
considerable challenge and the Illinois State Police has 
developed and implemented a training program which has been 
recognized for its excellence. Facility construction for the 
Institute would cost approximately $42.3 million, with 
additional monies for equipment in the neighborhood of $2.2 
million and $6.2 million for staffing.
    The last area of improvement in Illinois is in facilities. 
Short-term renovation for expanded services is needed in all 
nine of our laboratories. We estimate that to cost 
approximately $20.5 million. Additionally, major facility 
renovations in Chicago and new laboratory facilities in Joliet, 
Springfield, the Metro-East and St. Louis area, and Carbondale 
are also necessary.
    Funding through the NFSIA certainly would help address our 
budgetary shortfalls in Illinois. I know that forensic science 
laboratories throughout our Nation are facing similar and 
probably greater problems. I also know that our forensic 
scientists can have a profound effect on the lives of all 
Americans. Our highly discriminating technology and data bases 
can identify perpetrators of crimes and stop them from 
committing additional offenses. But the same wonderful 
technology can also exonerate those individuals falsely accused 
of a crime.
    Your help is needed to enable our forensic scientists to 
provide critical scientific information to the criminal justice 
system. I want to thank the Committee for your support in the 
passage of the NFSIA and respectfully request your support in 
the appropriations process.
    Thank you.
    [The prepared statement of Mr. Sheppo follows:]

 Statement of Michael G. Sheppo, Bureau Chief, Illinois State Police, 
                     Division of Forensic Services

    Chairman Hatch, Senator Leahy, honorable members of the Senate 
Judiciary Committee, ladies and gentlemen, allow me to begin by first 
thanking the committee for passing last year the Paul Coverdell 
National Forensic Science Improvement Act (NFSIA). This important piece 
of legislation is a tribute to Senator Coverdell as well as a 
recognition of the crucial need to support and improve the forensic 
sciences nationwide.
    I began my career in the forensic sciences in the early 1970s in 
the Georgia laboratory system, and was initially paid with federal 
funds through the Law Enforcement Assistance Act (LEAA). At that time, 
LEAH funding was used by some law enforcement agencies to establish, 
expand, and improve crime laboratories. Unfortunately, the LEAH and 
similar later programs did not specifically address all of the critical 
needs of forensic science laboratories. The NFSIA is the first 
comprehensive piece of legislation which addresses all aspects of our 
work--drug analysis, toxicology, post-mortem medical examinations, 
latent print examinations, firearms examinations, DNA analyses, trace 
evidence and microscopic examinations, and document examinations.
    During my thirty-year career, I have worked as a chemist and 
serologist; served as the first director of the Augusta, Georgia crime 
laboratory; and in 1985 began my career in Illinois as an Assistant 
Bureau Chief in charge of the seven Illinois State Police operational 
laboratories. I have been fortunate to have worked in two states that 
have supported their forensic science laboratory systems. However, 
today in Illinois and throughout our nation, we are facing a crisis--a 
crisis caused by a shortage of forensic science resources.
    In the 21<SUP>th</SUP> century, the criminal justice system relies 
heavily upon forensic science services as an integral part of the 
investigative and judicial process. While billions of federal dollars 
have been spent on virtually every other criminal justice component--
police officers, the courts, prisons, and information technology--the 
highly technical and expensive forensic sciences have received very 
little federal support. In most states and municipalities, funding has 
simply not kept pace with the increasing demand for crime laboratory 
analyses. This neglect has resulted in severe backlogs in forensic 
laboratories nationwide. For example, since 1990, the average U.S. 
forensic laboratory has experienced an increase in caseload of 23 
percent, while budgets have grown only 10 percent and staff size by 
only 9 percent. This problem becomes even more significant considering 
the fact that most laboratories have long experienced resource 
shortages, and the demands by the criminal justice system to implement 
new crime fighting technologies such as the Combined Offender DNA 
Identification System (CODIS) stretch existing resources to intolerable 
limits.
    Further compounding the caseload growth, backlogs, and added new 
technologies is the issue of quality--the most important variable in 
the operation of forensic laboratories. Many forensic science 
professionals are concerned that the growing demands on laboratories 
have, or can have, a negative impact on the quality of the results 
achieved. Laboratory accreditation (which is voluntary) is generally 
accepted as the fundamental step in quality assurance and consistency 
in forensic science processes. But, due mainly to the costs associated 
with accreditation, only five in ten forensic laboratories are now 
accredited. To meet or exceed the stringent standards and proficiency 
testing requirements established by accreditation, most laboratories 
must upgrade facilities, purchase or improve equipment, enhance 
analytical processes, and add professional and support staff.
    Additionally, federal and state governments have set and mandated 
certain analytical standards and enacted laws which have fiscally 
impacted the nation's forensic science laboratories. Examples of these 
include the standards promulgated by the Department of Justice's DNA 
Advisory Board (DAB), standards set by federally sponsored scientific 
and technical working groups (SWGS/TWGS), state laws which require the 
creation and/or expansion of forensic databases, and federal and state 
laws which impact the analytical testing of controlled substances. All 
of these standards and laws are enacted with good intentions and are 
beneficial. However, their implementation often exhausts the limited 
resources of our nation's forensic science laboratories. In Illinois an 
amendment to the Criminal Code requiring that additional offenders be 
included in the ISP CODIS would require approximately $0.5 million/year 
in additional funding for us to analyze and enter these samples.
              How Would NFSIA Funding Be Used In Illinois?
    The Illinois State Police forensic science laboratory system is the 
third largest forensic system in the world. In 1982, we became the 
first accredited forensic laboratory system, and look forward to our 
fourth reaccreditation in 2002. We have an extensive training program, 
a systemwide quality assurance program, and a research and development 
program. However, backlogs and turnaround times continue to increase; 
we find it necessary to implement service reductions; and the 
implementation of new technologies stretch our resources and challenge 
our ability to provide timely services. In Illinois, there are two 
additional forensic science laboratories, the DuPage County Sheriff s 
Department Crime Laboratory and the Northern Illinois Police Crime 
Laboratory. Both of these accredited laboratories face the same 
resource challenges that we face.
    The Illinois State Police has reviewed our ability to provide 
quality and timely forensic science services to the criminal justice 
system in Illinois. Three organizational areas have been identified 
that will require significant additional monetary support during the 
next five years:
    1) Staffing--In order to process the current caseload, the increase 
in CODIS database samples, and the increase in firearms submissions for 
the Integrated Ballistic Identification System (IBIS), an additional 
160 scientists and support personnel are required. The total cost for 
these personnel over a five-year period is approximately $41 million. 
To train these additional people, buy equipment and supplies, and fully 
support the new and expanded techniques, approximately $17.5 million in 
additional operating funds are needed over the next five years.
    2) Training--Due to attrition and the retirement of individuals who 
began their careers in the early 1970s, we could potentially lose as 
many as 190 personnel by 2005. In order to properly train their 
replacements and the additional personnel needed to meet operational 
needs, the ISP is proposing the establishment of a Forensic Sciences 
Institute (FSI). The FSI would be centrally located in Illinois and 
could potentially serve as a training resource for Illinois, and the 
whole midwest region of our nation. The initial training of forensic 
scientists is a considerable challenge, and the Illinois State Police 
has developed and implemented a training program which has been 
recognized for its excellence. The proposed FSI would not only meet our 
needs, but would provide trained forensic scientists for laboratories 
outside of Illinois. The facility, administrative offices, dormitories, 
and the training area construction costs for the FSI is approximately 
$42.3 million. Equipment lease purchase costs are estimated at $2.2 
million/year over a five-year period. Personnel costs at full operation 
are estimated to be $6.2 million per year.
    3) Facilities--The Illinois State Police forensic science 
laboratory system is made up of eight operational laboratories and a 
research and development laboratory. Short-term renovation for expanded 
services is needed at each facility which would require $20.5 million 
in funding. Additionally, major facility projects over the next five 
years include an addition to the Chicago Laboratory (FSC-C) and new 
laboratory facilities at Joliet, Springfield, Metro-East (St. Louis), 
and Carbondale.
    Funding obtained through the NFSIA would certainly help address the 
Illinois State Police budgetary shortfalls cited in the above three 
areas. I know that forensic science laboratories throughout our nation 
are facing similar problems. I also know that the forensic sciences can 
have a profound effect on the lives of all Americans. Our highly 
discriminating technology and databases can identify perpetrators of 
crimes and stop them from committing additional offenses. But the same 
wonderful technology also can exonerate those individuals falsely 
accused of a crime. Your help is needed to enable our nation's forensic 
scientists to provide this critical scientific information to the 
criminal justice system. I want to thank the committee for supporting 
the passage of the NFSIA and respectfully request your support in the 
appropriation process.

    Senator Sessions. Thank you, Mr. Sheppo. I understand you 
have a flight that you are going to need to catch before long.
    Senator Durbin, if you have any questions that you would 
like to ask now, it is a little out of turn, but that would be 
all right.
    Senator Durbin. Thank you, just so Mr. Sheppo will have a 
chance to catch his flight and get back to Illinois.
    Can you give me an idea of how long it takes for your 
division to process a typical forensics analysis request?
    Mr. Sheppo. Yes, sir. It would depend upon the type of 
analysis. Right now, it is taking somewhere in the neighborhood 
of 8 to 10 months for a typical DNA case to get processed, as 
an example. That has been improved actually through State and 
Federal funding that we have received from at one point 16 
months, although we are able to meet the needs of critical, 
rush cases to the law enforcement community when necessary.
    In other areas, it would depend on the discipline. In drug 
chemistry, for example, we can turn cases over generally within 
30 days. We have the staff to do that at the present time.
    Senator Durbin. Are you able to give us any kind of an 
estimate of the cost of each of these services that you 
provide?
    Mr. Sheppo. Yes, sir. I think overall, more or less for the 
9 laboratories, our personnel services for 1 year is $28 
million, $11 million in operational costs. In addition to that, 
there are some funds that we utilize that also help us make it 
through the year.
    Senator Durbin. Specifically, let's say on DNA testing, 
have you broken that out in terms of the equipment that is 
dedicated to it and the individuals? Have you costed out what 
each test would cost the taxpayers?
    Mr. Sheppo. Depending upon the size of the case, a sample, 
for example, could be anywhere from $350 to $500 when you are 
looking at actually doing it. Of course, when you are doing 
more and batching samples, that cost does come down.
    Senator Durbin. I will just close with this comment on the 
Forensic Institute that will be a source, we hope, of future 
personnel, people who would be dedicated to this field. It 
appears that this is going to be a growing field. My guess is 
we are here today talking about DNA and a few years from now we 
will be talking about something else, some other test that has 
been devised that will test science and lead us, I think, 
toward better appreciation of the truth.
    I thank you very much for coming.
    Mr. Sheppo. I thank you, sir.
    Senator Sessions. Dr. Buel?

STATEMENT OF ERIC BUEL, DIRECTOR, VERMONT FORENSIC LABORATORY, 
                       WATERBURY, VERMONT

    Mr. Buel. Thank you, Mr. Chairman. I am very honored to be 
here today to offer support for the Paul Coverdell National 
Forensic Sciences Improvement Act. I thank you for the 
opportunity to express my views on the need for such 
legislation for our laboratory and for the forensic community 
as a whole.
    Forensic laboratories provide critical information to the 
criminal justice system. Without analyses conducted by forensic 
laboratories, many cases would go untried, many police 
investigations would be stalled, innocent individuals may not 
be exonerated, and criminals would be on the street victimizing 
our citizens.
    The criminal justice system is a puzzle. Forensic science 
represents a significant piece to that puzzle that must be 
appropriately supported. Supporting a greater police presence 
to fight the drug problem must be balanced with additional 
resources to the laboratories to provide the drug analysis 
necessary for court action.
    Vermont has seen a 130-percent increase in arrests for 
heroin in just 3 years. The drug problem in Vermont is real and 
demands across-the-board support. The forensic laboratory must 
not be forgotten when the challenge of meeting the demands of 
the criminal justice system are addressed.
    The challenge of improving and expanding services comes 
with a cost. Instrumentation is expensive and requires regular 
maintenance. Many forensic analyses are complex and require 
considerable training and experience. New techniques and 
technologies continue to drive our science. We cannot sanction 
the use of this new science without appropriate training, but 
we are asked to provide the latest methods to the people we 
serve.
    We would not ask an engineer with minimal training or 
outdated tools to design a bridge. We must not ask forensic 
scientists to perform analyses without proper training and 
instrumentation. We must do everything we can to supply the 
training and tools necessary to provide the types of analysis 
the people of our State and country expect and deserve.
    The analytical tools and methods employed in the analysis 
of evidence should be housed in facilities designed for 21st 
century science. The establishment of well-designed forensic 
laboratories in each State capable of supporting well-trained 
staff should become a priority.
    Vermont is a small, rural State with a population of about 
600,000. The crime rate in Vermont is relatively low, but we 
have seen an increase in the submission of sexual assault 
cases, other violent cases and drug cases. Case submissions 
requesting DNA analysis have nearly doubled in 3 years. Each 
DNA case takes considerable time and effort. Additional staff 
is required to keep up with current casework. Other forensic 
disciplines have encountered similar staffing shortages as a 
result of casework increases and changes in analytical 
procedures.
    As the Senator pointed out, we are housed on the third 
floor of a building constructed in 1941 as part of a State 
mental hospital. At times, it seems that we belong there. A 
study conducted on our facility detailed many problems with our 
building.
    Our laboratory must often repeat DNA analytical testing as 
a result of room temperature fluctuations which cause quality 
control problems with our instrument. Basically, the 
temperature goes up and down and the instrument doesn't run 
properly. The laboratory has about half the space it needs.
    Forensic science takes its ideas and techniques from other 
fields and incorporates those that have merit within its own 
complement of protocols. The field is constantly engaged in 
finding new and better techniques to allow more information to 
be obtained from smaller evidentiary items. This quest has 
brought us to a point where the sweat from a hat band left at a 
crime scene could reveal the identity of a rapist, or 
fluorescent dyes used to locate fingerprints on old evidence, 
and where small fragments of paint can identify a car from a 
hit-and-run.
    The field of forensic science has stepped up to the plate 
to offer the methods and techniques required to analyze the 
evidence found at crime scenes. We as a society need to make 
this science a priority, to allow every citizen who is the 
victim of a crime and every individual who is accused of a 
crime the opportunity to have the evidence associated with that 
crime analyzed by a well-trained, well-equipped team. It can 
and should be done.
    I am concerned about the quality of life in Vermont and 
know it will diminish if crime is allowed to grow and impact 
the citizens of the State. The Paul Coverdell National Forensic 
Sciences Improvement Act will allow laboratories to improve the 
quality and timeliness of the forensic sciences services 
provided in that State.
    The forensic laboratory does make a difference to the 
quality of life, and with NFSIA our laboratory will do 
everything it can to expand and improve its services to 
ultimately bring the best possible forensic analysis to the 
people of the State of Vermont, who should expect nothing else.
    Thank you very much.
    [The prepared statement of Mr. Buel follows:]

 Statement of Eric Buel, Ph.D., Director, Vermont Forensic Laboratory, 
        Vermont Department of Public Safety, Waterbury, Vermont

    Thank you, Mr. Chairman. I am Eric Buel, Director of the Vermont 
Forensic Laboratory. Our laboratory is the only forensic laboratory in 
the State of Vermont. The forensic services we provide to the citizens 
of Vermont include the traditional forensic disciplines such, as 
fingerprints and drug analysis, and also modern DNA analysis. The 
American Society of Crime Laboratory Directors has accredited our 
laboratory and we follow national standards in the analytical 
procedures we perform.
    I am here today to offer support for the Paul Coverdell National 
Forensic Sciences Improvement Act and I thank you for the opportunity 
to express my views on the need for such legislation for our laboratory 
and for the forensic community as a whole.
    Forensic laboratories provide critical information to the criminal 
justice system. Without the analyses conducted by forensic laboratories 
many cases would go untried, many police investigations would be 
stalled, innocent individuals may not be exonerated, and criminals 
would be on the street victimizing our citizens. The criminal justice 
system is a puzzle with interlocking pieces. Any piece removed, and the 
puzzle is incomplete. Forensic science represents a significant piece 
to that puzzle that must be appropriately supported. Supporting a 
greater police presence to fight the drug problem must be balanced with 
additional resources to the laboratory to provide the drug analysis 
necessary for court action. Vermont has seen a 130% increase in arrests 
for heroin in just three years. The drug problem in Vermont is real, 
and demands across-the-board support. The forensic laboratory must not 
be forgotten when these issues are addressed.
    I started my forensic career some twenty years ago as a bench 
chemist performing drug and body fluid analyses. Instruments in those 
days were unsophisticated, typically inexpensive, and many types of 
analyses didn't require an instrumental approach. Our analysis of body 
fluids led to courtroom testimony in which linking a suspect to a piece 
of evidence with a statistic of 1 in 10 was considered powerful 
testimony. Today methods for the analysis of body fluid evidence can, 
in essence, uniquely link a suspect to a crime. Minute traces of 
evidence that were considered analytically insignificant now yield 
valuable information.
    About 10 years ago DNA analysis became available and many forensic 
laboratories across the country began to offer this service. The 
ability to offer truly powerful testimony concerning the source of 
biological stains put forensic science in the spotlight. Experts from 
outside the forensic community critically appraised the analyses that 
were performed. Other forensic disciplines soon found their work 
evaluated and critiqued. The entire forensic community began to form 
working groups that reviewed and made recommendations concerning 
protocols and procedures. Laboratories with an eye towards improving 
current services began to implement these recommendations and sought to 
expand the services provided to the criminal justice system.
    The challenge of improving and expanding services comes with a 
cost. Much of the instrumentation now considered routine had not been 
invented or perfected for forensic applications twenty years ago. This 
instrumentation is expensive, requires regular maintenance, and must be 
replaced after a certain defined lifetime. Many forensic analyses are 
complex and require considerable training and experience. Forensic 
fingerprint and firearms examiners require years of training to allow 
them to proffer testimony in court. The ability to obtain a DNA profile 
from a drop of blood the size of a pinhead and offer testimony in court 
concerning the relevance of that result takes considerable training and 
experience. New techniques and technologies continue to drive our 
science. We cannot sanction the use of these new sciences without 
appropriate training, but we are asked to provide the latest methods to 
the people we serve. We would not ask an engineer with minimal training 
or outdated tools to design a bridge. We must not ask forensic 
scientists to perform analyses without proper training and 
instrumentation. We must do everything we can to supply the training 
and tools necessary to provide the types of analysis people of our 
state and country expect and deserve.
    The analytical tools and methods employed in the analysis of 
evidence should be housed in facilities designed for 21 St century 
science. These facilities must be constructed to address contamination 
issues, instrument needs, variable analytical demands, and worker 
safety. Old or poorly designed facilities may compromise proper 
evidence analysis. Appropriate facilities should be constructed 
specifically for forensic science with adequate space to perform the 
wide variety of forensic examinations encountered in the field. Working 
environments that allow for safe and healthy working conditions should 
not be considered a luxury, but should be standard in all laboratories. 
Support personnel should be available to allow highly trained 
scientists to concentrate on casework analysis without ancillary 
distractions. The establishment of well-designed forensic laboratories 
in each state capable of supporting well-trained staff should become a 
priority.
    Vermont is a small rural state with a population of about 600,000. 
The crime rate in Vermont is relatively low compared to that of the 
nation. However, we have seen an increase in the submission of sexual 
assault cases, other violent assaults, and drug cases. Case submissions 
requesting DNA analysis have nearly doubled in three years. Each DNA 
case takes considerable time and effort; and additional staff is 
required to keep up with current casework and to expand into the 
analysis of non-suspect DNA samples for inclusion into the national DNA 
database known as CODIS. Other forensic disciplines have encountered 
similar staffing shortages as the result of caseload increases and 
changes in analytical procedures. Years ago a simple dusting with 
powder sufficed to check a piece of evidence for latent fingerprints. 
Now new technologies allow us to find prints that dusting cannot reveal 
through the use of a superglue chamber and fluorescent dyes. Use of new 
technologies throughout the laboratory results in better, more thorough 
analysis, but requires additional examination time. Today we find that 
an evidentiary item may undergo many examinations to provide the 
forensic scientist with the most information possible. These additional 
exams coupled with increases in caseload place additional demands upon 
the forensic scientist, mandating that managers ask for increases in 
staff and training to appropriately meet the growing demands for 
service.
    Vermont's forensic laboratory is housed on the third floor of a 
building constructed in 1941 as part of a state mental hospital 
designed to house mental health patients. A study conducted on our 
facility published in the spring of 2000 detailed many problems with 
our existing facility. In short the building was never designed to 
house a laboratory and lacks, for instance, proper ventilation, space, 
and environmentally controlled rooms for instrumentation. Our 
laboratory often must repeat DNA analytical testing as room temperature 
fluctuations cause quality assurance problems with our instrument. This 
results in time delays for court-required casework, reduces the number 
of total cases that may be completed, and increases the overall cost 
per DNA analysis. Health and safety problems also exist. The laboratory 
has about half the space it needs to do the work currently performed 
let alone allowance for growth. The ASCLD accreditation team informed 
us that our facility probably would not pass the expected inspection 
standards in 2004, our reaccredidation date.
    Forensic Science takes ideas and techniques from other fields and 
incorporates those that have merit (after much evaluation) within its 
own complement of protocols. The field is constantly engaged in finding 
new and better techniques to allow more information to be obtained from 
smaller evidentiary items. This quest has brought us to a point where 
the sweat from a hatband left at a crime scene could reveal the 
identity of a rapist, where fluorescent dyes are used to locate 
fingerprints on old evidence, and where small fragments of paint can 
identify a car from a hit and run. The field of forensic science has 
stepped up to the plate to offer the methods and techniques required to 
analyze the evidence found at crime scenes. We as a society need to 
make this science a priority, to allow every citizen who is a victim of 
crime and every individual accused of a crime the opportunity to have 
the evidence associated with that crime analyzed by a welltrained, 
wellequipped team. It can and should be done.
    I am concerned about the quality of life in Vermont and know it 
will diminish if crime is allowed to grow and impact the citizens of 
the State. The Paul Coverdell National Forensic Sciences Improvement 
Act will allow laboratories to make necessary progress towards facility 
and instrumentation modernization. Together these enhancements will 
improve the quality and timeliness of the forensic science services 
provided in the State. The forensic laboratory works in conjunction 
with police, state's attorneys, and the courts to assist the criminal 
justice system fight crime. The forensic laboratory does make a 
difference to the quality of life and, with NFSIA, our laboratory will 
do everything it can to expand' and improve its services to ultimately 
bring the best possible forensic analysis to the people of the state of 
Vermont who should expect nothing less.

    Senator Sessions. Thank you.
    Dr. Downs, we are glad to have you. I have visited at least 
two of your laboratories and I have seen that they are crowded 
and busy.

 STATEMENT OF JAMES CLAUDE UPSHAW DOWNS, M.D., DIRECTOR/CHIEF 
  MEDICAL EXAMINER, DEPARTMENT OF FORENSIC SERVICES, STATE OF 
                    ALABAMA, AUBURN, ALABAMA

    Dr. Downs. Well, we very much appreciate your coming and 
seeing our facilities, and thank you, Mr. Chairman and the 
Committee, for allowing us the privilege of coming before you 
today. I speak today on behalf of our Nation's medical 
examiners and coroners, and please accept our sincere 
appreciation and gratitude for this opportunity.
    I think it is highly significant that members of the 
forensic sciences community come before you today mere days 
following the successful prosecution of the perpetrator of one 
of the most cowardly acts on record; that is, the bombing 
deaths of children in a church.
    In a nutshell, the investigations conducted by forensic 
scientists, medical examiners and coroners are targeted to 
collecting sufficient evidence from the examination of crime 
scenes and from the autopsy examination of broken and bloodied 
bodies to provide the court with sufficient, credible 
scientific evidence to ensure that justice is done. We are 
impartial scientists and physicians charged with the awesome 
responsibility of determining how and why someone met their 
end.
    Regrettably, due to limited resources, most medical 
examiners and coroners do not have sufficient staff and 
equipment to perform at an optimal level. This shortfall 
adversely affects our criminal justice system because the lack 
of needed materials and personnel hinders the pathologist's 
ability to expedite reports in criminal cases. Such reports are 
necessary for successful criminal prosecution.
    Suspects, innocent until proven guilty, sit in jail 
awaiting their day in court. In Alabama, that wait recently has 
been as long as 30 months, this despite our Constitution's 
guarantee of the right to a speedy trial.
    While we oftentimes think of forensic matters as they 
relate to high-profile cases--mass disaster, terrorism, 
homicides and the like--I would like to speak for a moment on 
other forensic pathology issues that might be underappreciated.
    While perhaps less important at least to some than the 
high-profile cases, overall most of the cases that medical 
examiners deal with are those involve the sudden, unnatural, 
suspicious death of an adult or child. In short, the medical 
examiner/coroner investigation is the final word as to whether 
or not a death is due to natural causes, foul play, or 
preventable means. If the medical examiner can assist by 
preventing even one additional death, then the resources 
invested in the system are worth it.
    In dealing with the victims of tragic, sudden death and 
their families, the forensic pathologist plays a critically 
important role in the lives of innumerable other people--the 
surviving family members, friends, neighbors, the community at 
large, the police, the courts; in short, all of us.
    To illustrate a typical non-homicide investigation, allow 
me to share a situation I was involved in just 2 weeks ago. The 
case involved the untimely death of a 6-month-old baby who had 
been born prematurely. The mother awoke one morning to find the 
child dead in bed. Both parents were obviously distraught at 
their loss, and yet they, as well as the investigators, wanted 
to know what had happened.
    The autopsy was performed, and 4 months later they still 
had no answers. The reason for the delay was that the 
toxicology lab--that is the area that looks for drugs and 
poisons in the blood--was backlogged and could not analyze the 
sample more quickly. Imagine the grief, frustration and anger 
of not knowing why your baby had been taken away from you. 
Imagine that feeling every day for a month, 2 months, 3 months, 
4 months. Imagine in some areas where that analysis doesn't get 
performed for a year simply because of lack of resources. This 
is even more tragic when we realize that it only takes a week 
to actually perform the analysis once we get around to working 
the evidence.
    In the end, the autopsy and scene analysis allowed us to 
determine that the child did die from accidental suffocation, 
that there was not foul play involved, and allowed us to 
reassure the parents there was nothing that they could have 
done, given the circumstances, to prevent their child's 
untimely demise.
    But this case affects law enforcement agencies that are 
involved in the investigation. They can then target their 
resources, which are also limited, to investigate the 
homicides, the important cases that they need to spend their 
resources on.
    It is not at all uncommon for us as medical examiners to 
get calls from families requesting insurance payments for 
burials; they need a death certificate expedited. It is 
shameful that the answer to these problems is merely a matter 
of resources, money.
    Different systems need different things, depending on the 
particular concerns of the area. Some might need an adequate 
building, others modern, efficient equipment, others more 
personnel. The real strength of the Paul Coverdell National 
Forensic Sciences Improvement Act is that it allows different 
forensic systems to establish a plan in deciding how their 
particular population would be best served.
    We were reminded of the medical examiner component of this 
law by the untimely and tragic death of the bill's namesake, 
Senator Coverdell, who was called home far too soon. His 
passion was for justice and truth. Those core principles are 
the essence of this law. Providing the resources so that 
forensic examinations and autopsy reports can be completed in a 
timely manner will allow more efficient use of all of our 
resources.
    By fully funding the Paul Coverdell National Forensic 
Sciences Improvement Act, the Pledge of Allegiance's assurance 
of justice for all can be fulfilled--justice for those suspects 
awaiting a speedy trial, those loved ones awaiting closure, and 
those in financial need awaiting insurance benefits. Most 
importantly, it will help ensure the rights of those who did 
not choose or desire to become homicide victims whose lifeless 
bodies cry out from their graves for a swift resolution to 
their cases so that their attacker can be put behind bars and 
so that their families can begin the healing process. That 
surely is justice for all.
    Mr. Chairman, Committee members, I thank you very much for 
your interest in this matter and appreciate your past and 
continued support.
    [The prepared statement of Dr. Downs follows:]
    [Additional material is being retained in the Committee 
files.]

 Statement of James Claude Upshaw Downs, M.D., Director/Chief Medical 
      Examiner, Department of Forensic Sciences, State of Alabama

    Thank you Mr. Chairman and ladies and gentlemen of the committee 
for the privilege of coming before you to address this distinguished 
body. I come before you today on behalf of our nation's Medical 
Examiner and Coroner community; please accept our sincere gratitude and 
appreciation for this opportunity.
    As you are no doubt aware from the many important and pressing 
matters that come before the committee on a regular basis, there is a 
tremendous interest in all the forensic sciences, including medical 
examiner/coroner activities. I think it highly significant that members 
of the forensic sciences community come before you today, just a few 
days following the successful prosecution of the perpetrator of one of 
the single most cowardly acts on record--the bombing murder of children 
in a church. In a nutshell, the investigations conducted by all 
forensic scientists, medical examiners, and coroners is targeted to 
collecting sufficient evidence--from the examination of the crime 
scenes and from the autopsy examination of the broken and bloodied 
bodies--to provide the courts with sufficient credible scientific 
evidence to ensure that justice is done. We are impartial scientists 
and physicians charged with the awesome responsibility of explaining 
how and why a fellow human being's life has been taken away.
    Regrettably, due to limited resources, most medical examiners and 
coroners do not have sufficient staff and equipment to perform at an 
optimal level. This shortfall adversely affects our criminal justice 
system because the lack of needed materials and personnel hinders the 
pathologist's ability to expedite reports in criminal cases. That 
report is necessary for successful criminal prosecution. A suspect--
innocent until proven guilty sits in jail awaiting their day in court. 
In Alabama, that wait recently has been as long as thirty months. This 
despite our constitution's assurance of the right to a speedy trial.
    While we oftentimes think of forensic matters as they relate to 
high profile cases--mass disasters, acts of terrorism, homicides and 
the like--I would like to speak on other forensic pathology issues that 
might be underappreciated. While perhaps less important, at least to 
some, than high profile cases, overall most of our cases involve 
investigations involve sudden, unnatural, and suspicious deaths of 
adults and children. In short, the medical examiner/coroner 
investigation is the final word as to whether or not a death is due to 
natural causes, foul play, or preventable means. If the medical 
examiner can assist by preventing even one additional death, the 
funding invested in the office has been wellspent. In dealing with the 
victims of tragic sudden death and their families, the forensic 
pathologist plays a critically important role in the lives of 
innumerable other people--the surviving family members, friends, 
neighbors, the community at large, the police, the courts, . . . .
    To illustrate a typical non-homicide investigation, allow me to 
share a situation I was involved in just two weeks ago. This case 
involves the death of a 6-month-old baby, born prematurely. The child 
was healthy and had been doing well until one morning when the mother 
awoke to discover her lifeless child's body. Both parents were 
obviously distraught at their loss. And yet they--as well as the 
investigators--wanted to know what had happened. The autopsy was 
performed and four months later, they had no answers. The reason for 
the delay is that the toxicology lab, that area that looks for drugs 
and poisons in the blood, was backlogged and could not analyze the 
sample any more quickly. Imagine the grief, frustration, and anger of 
not knowing why your baby had been taken from you. Imagine that feeling 
every day for a month. . .two months. . .three months. . .four months. 
Imagine in some areas where that analysis takes over a year simply 
because the medical examiner laboratory does not have the resources 
available to perform the test more quickly. This is even more tragic 
given that in most cases it takes less than a week to actually perform 
the test. Eventually, four months after the fact, and only because they 
called to request assistance, the toxicology testing was completed. In 
the end, the autopsy and scene investigation allowed determination that 
the child had died from an accidental suffocation and that no foul play 
was involved. This is vitally important to the parents in reassuring 
them that there was nothing they could have done differently, given the 
circumstances.
    This case then affects the law enforcement agencies involved, who 
can then save their resources to investigate homicides and suspicious 
deaths. It also affects any insurance benefits that might be pending 
the results of the autopsy. It is not at all uncommon to have urgent 
calls from families pleading for an autopsy report for insurance 
purposes so that they can pay for the burial expenses or make the 
payment on their home. Another area of public concern is death due to 
infectious disease, such as meningitis. The community at large needs to 
know if there is a potential concern for transmission of this 
potentially lethal disease. Likewise, the medical examiner may be able 
to determine through autopsy, toxicology, and drug analysis if a ``bad 
batch'' of drugs is circulating in the community.
    It is shameful that the answer to the problem is simply a matter of 
providing adequate resources. Different systems need different things, 
depending upon the particular needs of the area served. Some might need 
an adequate building. Others perhaps modern and more efficient 
equipment. Still others may require additional personnel. The real 
strength of the Paul Coverdell National Forensic Sciences Improvement 
Act is that it allows different forensic systems to establish a plan in 
deciding how their particular population would best be served in 
allocating new resources.
    We are reminded of the medical examiner component of this law by 
the untimely and tragic death of the bill's namesake, Senator 
Coverdell, who was called home far too soon. His passion was for 
justice and truth. Those core principles are the essence of this law. 
Providing the resources so that forensic examinations and autopsy 
reports can be completed in a timely manner will allow more efficient 
use of all our resources. By fully funding the Paul Coverdell National 
Forensic Sciences Improvement Act, the pledge of allegience's assurance 
of ``justice for all'' can be fulfilled--justice for those suspects 
awaiting a speedy trial, those loved ones awaiting closure, and those 
in financial need awaiting insurance benefits. Most importantly, it 
will help ensure the rights of those who did not choose or desire to 
become homicide victims--whose lifeless bodies ciy out from their 
graves for a swift resolution to their case so that their attacker can 
be put behind bars and their families can begin the healing process. 
That is surely justice for all.
    I thank you for you kind consideration of this matter and your 
interest in trying to help our nation's crime laboratories and medical 
examiners.

    Senator Sessions. Thank you, Dr. Downs. Well said, and it 
is good to be reminded that medical examinations and other 
aspects--that it is more than just crime. There are families 
and personalities and lives at stake.
    Mr. Nix, it is good to see you again. We are delighted to 
hear from you.

 STATEMENT OF MILTON E. NIX, JR., DIRECTOR, GEORGIA BUREAU OF 
                INVESTIGATION, DECATUR, GEORGIA

    Mr. Nix. Thank you, Senator Sessions, and thank you so much 
for your visionary leadership. I think we all recognize that we 
would not be here today absent your hard work and the research 
that you have done on this problem.
    I am honored to be on this distinguished panel. I am not a 
scientist, I am not a doctor. I don't have a Ph.D. in chemistry 
or biology, but I can tell you that it didn't take me very long 
after I was appointed by then Governor Zell Miller to realize 
the greatest problem facing the Georgia Bureau of Investigation 
and our agency was providing adequate crime lab resources for 
the State of Georgia.
    For all practical purposes, we are the sole provider of 
forensic services to 159 sheriffs' offices and over 500 police 
departments in Georgia that service a total population of about 
8 million. We provide medical examiner services for 143 of 
Georgia's 159 counties.
    What I discovered when I came back to Georgia after 23 
years with the FBI was a State and local criminal justice 
system that was absolutely dependent on the work being done by 
a State crime lab that was not adequately funded or staffed. 
With increasing demands for quality, productivity and 
timeliness, but faced with inadequate resources, what I saw was 
an absolute formula for disaster. I saw a system that was not 
accredited. We had no structured quality system in our 
laboratory.
    As a result of what I saw, we looked for solutions outside 
the State of Georgia. I turned to my counterparts in other 
States. In 1997, under the leadership of Commissioner Tim 
Moore, with the Florida Department of Law Enforcement, 11 State 
law enforcement representatives formed the States Coalition to 
discuss common challenges that we were facing.
    What we determined is that we were all facing the same 
problem, and that was a problem with inadequate resources in 
our crime labs, and I can tell you that this issue has been the 
priority of the Coalition ever since. We developed and fought 
for the concept of Federal funding for our crime labs because 
this is a national issue and it clearly affects the timely 
delivery of justice in our country.
    Please remember that 95 percent of all crime lab services 
that are delivered in this country are delivered at the State 
and local level, not by the FBI, not by DEA, ATF, the Secret 
Service, but by State and local crime labs across the country.
    Currently, the lack of resources is causing laboratories 
across the country to be serious bottlenecks for justice. Now, 
through organizations such as the International Association of 
Chiefs of Police, the Association of State Criminal 
Investigative Agencies, the States Coalition, and certainly the 
Consortium of Forensic Science Organizations, efforts have been 
made to address the resource problem in our labs at the Federal 
level.
    You ask why is Federal support so critical in solving the 
crime laboratory crisis. No. 1, crime labs have never played a 
more critical role in the administration of justice in our 
country. Because of the new technological advances and 
computerized ballistics identification and imaging, DNA, 
automated fingerprint identification system and many other 
areas, we are looking at resource potential that can solve 
crimes, can identify offenders as well as the innocent, and 
literally prevent our citizens from suffering at the hands of 
society's most dangerous criminals. Our crime labs can provide 
timely leads that solve crimes, and we must develop and take 
full advantage of that potential.
    Having spent 37 years on the law enforcement side of our 
Nation's criminal justice system, you may find this an unusual 
statement from me, but I am in absolute, total agreement with 
the National Association of Defense Attorneys when it comes to 
quality and accuracy of crime lab examinations and analysis. It 
is imperative that absolutely accurate and quality examination 
standards must be applied to each and every piece of evidence 
analyzed. No corners can be cut, regardless of backlogs.
    Just remember that without a strong sense of quality, 
public confidence in our labs is undermined, and in turn so is 
justice. Because of GBI's emphasis on quality and a hundred 
percent peer review of all cases, in 1999 our caseload expanded 
to a backlog of over 35,000 cases. Some of these cases were 
taking 6 to 8 months to complete. Suspects were waiting in jail 
because crime lab reports had not been submitted. However, we 
could not, we would not and we did not compromise quality for 
expediency. Quality is the cost of doing business in forensics, 
and the citizens of our country deserve nothing else.
    Why is this a Federal issue? The timely administration of 
justice demands it. The work being done by crime lab scientists 
everyday can have the impact of opening or closing a cell door 
forever. The work has to be done in each and every case with 
perfection. There is no room for error.
    Victims of violent crime deserve the timely application of 
appropriate and most technologically advanced forensic 
resources. Until that happens, the closure they seek to the 
horror of being victimized is unfairly delayed. Falsely accused 
suspects deserve to be cleared with all due speed. Just imagine 
the horror of being accused of a rape, of sexually violating a 
child or perhaps a murder, knowing full well that there was 
evidence that had been submitted to the crime lab that if it 
was timely analyzed the results would be there and an innocent 
person could be set free.
    Because the Federal Government has made a commitment to 
strong drug enforcement, Federal monies pour into State and 
local drug enforcement programs. But who works that evidence? 
Who does the work that those multi-jurisdictional task forces 
submit? Remember that 40 to 50 percent of crime lab analysis 
relates to drug identification.
    The Federal Government has recognized the importance of 
such programs as DNA by supporting the CODIS program through 
the FBI and creating a DNA data base available for nationwide 
access. The CODIS program is a wonderful program and it is 
paying dividends everyday in solving crimes. Enormous amounts 
of Federal dollars have been spent on the law enforcement side, 
providing more police officers. We have got 100,000 new police 
officers out there that are being trained and they are 
submitting evidence to our crime labs everyday. Somebody has 
got to do that work.
    The funding will support areas that are tailored for State 
and local crime labs for equipment, for forensic education 
training, laboratory information management systems that can 
increase productivity by 20 to 25 percent, accreditation and 
quality assurance programs, laboratory facility improvements, 
and personnel enhancements. I can assure you that full funding 
for this bill will return a tremendous investment.
    In closing, I look back to the words in our Constitution 
that calls for Government's role in ensuring the domestic 
tranquility. In forensic science and our crime laboratories, we 
can have the tools to ensure that justice is properly served, 
that the innocent are set free, and that the guilty are 
identified and convicted.
    Never before have we been able to offer so much return for 
such a small investment, and I encourage you to support full 
funding for the Paul Coverdell National Forensic Sciences 
Improvement Act. It was an honor and privilege for me to sit 
side by side with him and talk about the needs of the criminal 
justice system. He was a student of the system and he was a 
student of identifying problems and identifying solutions, and 
I thank you for taking up his vision and moving forward with it 
in such an effective way.
    I apologize for going over.
    [The prepared statement of Mr. Nix follows:]

     Statement of Milton E. Nix, Jr., Director, Georgia Bureau of 
                             Investigation

    In 1993, after being appointed as Director of the Georgia Bureau of 
Investigation by then Governor Zell Miller, it quickly became clear to 
me that the greatest challenge we faced as an agency was providing 
adequate resources for the GBI Crime Lab.
    What I discovered when I came back to Georgia after 23 years with 
the FBI was a local criminal justice system that was absolutely 
dependent on the work done by a state crime lab that was neither 
adequately funded nor staffed.
    With increasing demands for quality, productivity, and timeliness 
but faced with inadequate resources to work with, I saw a formula for 
disaster. As a result, we set out to try to fix the problem in Georgia. 
In the process, we looked outside of our state for solutions.
    In 1997, 11 state law enforcement agency representatives formed the 
State's Coalition to discuss common challenges we were facing. Quickly, 
one common problem came to the forefront--the lack of resources in our 
crime labs. This issue has been the priority of this coalition ever 
since. We developed and fought for the concept of federal funding for 
our crime labs because this is a national issue and clearly affects the 
delivery of justice in our country. Ninety-five percent of all crime 
laboratory casework in this country is done at the state or local 
level. Currently, lack of resources is causing crime laboratories 
across the country to be bottlenecks for justice.
    Now through organizations such as the International Association of 
Chiefs of Police, Association of State Criminal Investigative Agencies, 
the States' Coalition and the Consortium of Forensic Science 
Organizations, efforts have been made to address the resource problem 
in our labs at the federal level. Why is federal support so critical in 
solving the Crime Laboratory Crisis?
    Crime labs have never played a more critical role in the 
administration of justice in our country. Because of new technological 
advances in ballistics identification and imaging, DNA, and many other 
areas, we are looking at a resource that can solve crimes, identify the 
offenders as well as the innocent and literally prevent our citizens 
from suffering at the hands of society's most dangerous criminals. Our 
crime labs can provide timely leads that solve crimes every day. We 
must develop and take full advantage of that potential.
    You may find this an unusual statement, but I am in total agreement 
with the National Association of Defense Attorneys when it comes to 
quality and accuracy of crime lab examinations and analysis. It is 
imperative that absolute accurate and quality examination standards 
must be applied to every piece of evidence analyzed. No corners can be 
cut regardless of backlogs. Without a strong sense of quality, public 
confidence in our labs is undermined and, in turn, so is justice.
    Because of GBI's emphasis on quality, peer review of cases and 
assurance that the work is right, our case backlog exploded to over 
35,000 cases in 1999. Some cases were taking as much as 6--8 months to 
complete. Because some suspects waited in jails for lab reports to 
complete, justice could not be served; however, we could not compromise 
quality for expediency. Quality is a cost of doing business in 
forensics and the citizens of our country deserve nothing less.
                      why is this a federal issue?
<bullet> The timely administration of justice demands it.
<bullet> The work being done by crime lab scientists everyday can have 
        the impact of opening or closing a cell door forever. This work 
        must be done with perfection each and every time.
<bullet> Victims of violent crime deserve the timely application of 
        appropriate forensic resources. Until that happens, the closure 
        they seek to the horror of being victimized is unfairly 
        delayed.
<bullet> Falsely accused suspects deserve to be cleared with all due 
        speed. Imagine the horror of falsely being accused of a rape or 
        other sexual offense while at the same time knowing you could 
        be cleared if evidence submitted to a crime lab was 
        expeditiously processed.
<bullet> Because the federal government has made a commitment to strong 
        drug enforcement. Federal moneys pour into state and local drug 
        enforcement programs but who works the evidence in those cases? 
        Forty to fifty percent of crime analyses relates to drug 
        identification.
<bullet> The federal government has recognized the importance of such 
        programs as DNA by supporting the CODIS program through the 
        FBI--creating a DNA database available for nationwide access.
<bullet> Large amounts of federal money have been spent on the law 
        enforcement side, providing more police officers for local 
        agencies. We totally agree that this is vital but you must also 
        consider who works the increasing numbers of cases submitted by 
        these additional police officers.
<bullet> The funding will provide support in areas that tailor to the 
        needs of state and local laboratories:
Equipment
Forensic Education/Training
Laboratory Information Management Systems
Accreditation/Quality Assurance Programs
Laboratory Facility Improvements
Personnel Enhancements
<bullet> For the dollars spent, the return is tremendous. Justice is 
        better served; officers have the tools to identify, arrest and 
        convict suspects; and the innocent are set free in a timely 
        manner.
    In closing, we look back at the words of our Constitution that 
calls for government's role in insuring domestic tranquillity. In 
forensic science and our crime laboratories, you have the tools to 
insure that justice is properly served; that the innocent are set free 
and the guilty identified and convicted. Never before have we been able 
to offer so much return from such a small investment. I encourage your 
support of full funding of the National Forensics Sciences Improvement 
Act.
    Thank you for the opportunity to speak on this issue today.

    Senator Sessions. Thank you, Mr. Nix. Those were excellent 
comments, and I thank you for recalling for us Paul Coverdell's 
leadership. It was a good bill and something that I had known 
for a long time that we needed to do better about crime lab 
support, and it was an opportunity for this Congress to do 
something. I think we responded well and now we need to get it 
funded.
    Dr. Yura, we are delighted to have you with us from West 
Virginia.

STATEMENT OF MICHAEL T. YURA, DIRECTOR, FORENSIC IDENTIFICATION 
  PROGRAM, WEST VIRGINIA UNIVERSITY, MORGANTOWN, WEST VIRGINIA

    Mr. Yura. I really appreciate it. Thank you.
    Mr. Chairman and members of the Committee, I greatly 
appreciate the opportunity to speak to you concerning the 
funding of the National Forensic Sciences Improvement Act of 
2000. As you know, this piece of legislation was passed and 
sign into law last year, but it was not included in this year's 
budget to support this critical piece of legislation. We would 
greatly appreciate your support in providing the appropriate 
funding for this activity.
    I am currently the Director of the Forensic Identification 
Program at West Virginia University, in Morgantown, West 
Virginia. The primary impetus for the development of our 
forensic identification program was that there was a great need 
for educational programs not only within the State of West 
Virginia, but the United States and throughout the world that 
specifically trains people and individuals and grants degrees 
in the area of forensic identification.
    The FBI, in response to a major training and educational 
void, requested that West Virginia University develop these 
degree programs in forensic identification, with academic 
concentrations in latent fingerprints examiner, forensic 
chemistry, biology and toxicology within our forensic 
investigative science major, and within our biometrics, 
including DNA and molecular biology.
    Therefore, this program was created in December 1998 and 
graduated its first class last Sunday, May 13, 2001. We 
currently have 140 students who have come to our campus and 
enrolled in this program. These new programs address the 
current and future needs of individuals with increased 
scientific expertise in identification technologies and 
forensic science. They will be employed in the domestic law 
enforcement community, forensic laboratories, the FBI and other 
Federal agencies, as well as the biometrics industry.
    The use of advanced identification technologies and 
forensic science technology within the forensic community and 
security industry has created a significant need for 
scientifically trained persons with technical skills in the 
forensic disciplines, computer science, engineering, 
biometrics, natural sciences and criminalistics.
    Educational recommendations from technical working groups 
from the National Institute of Justice have required that 
identification specialists hired in the new millennium have the 
appropriate college background. The combination of these 
educational recommendations and significant advances in 
forensic identification and forensic science has created a 
significant demand for well-trained forensic specialists.
    But another issue we are helping to solve is that of rural 
States having access to forensic science. Small States like 
West Virginia have unique problems in the development of our 
forensic laboratory capacity. The State of West Virginia has 
only one crime lab under the West Virginia State Police.
    Because of the geography of our State, bringing evidence to 
the crime lab involves considerable loss of time and manpower 
because of the significant travel distances necessary to get 
evidence to laboratory personnel. Because there is only one 
crime lab, cases have been handled on the basis of time 
submitted and nature of the case, therefore causing significant 
delays in the processing of other cases in need of speed and 
professional resolution.
    We are currently developing plans for a major renovation 
and development in our current law in South Charleston, West 
Virginia, as well as the creation of a regional crime lab in 
north central West Virginia. This would allow the State to be 
divided into two major portions, providing quality and speedy 
response to evidence from our law enforcement community.
    Development of these facilities can only be accomplished 
through this type of legislation. The State of West Virginia 
cannot manage the creation and upgrade of these forensic 
facilities under current State economics. There are many small, 
rural States like West Virginia which need the support of this 
type of legislation to keep up with new technology and develop 
crime labs and forensic facilities comparable to the larger 
States, as well as facilities similar to the expansion 
currently going on at the FBI in the creation of their new 
crime lab in Quantico, Virginia.
    Like the Federal Government, demands for processing 
scientific forensic evidence has grown and will continue to 
grow geometrically. As technology has been developed for the 
processing of evidence such as fingerprints and DNA, crime labs 
have not been able to keep up with all the innovations 
necessary to provide the public with timely and professional 
analysis of forensic evidence.
    We would greatly appreciate your support in providing the 
broad forensic community, including various disciplines such as 
medical examiners and other forensic specialists, with the most 
updated tools and facilities available. This will help convict 
the guilty and also provide swift exoneration of those persons 
wrongly accused.
    Scientists in the forensic community take a neutral stand 
in the processing of evidence gathered by the State and local 
police agencies. They provide the highest-quality, impartial 
forensic processing which will greatly benefit the community at 
large.
    This piece of legislation is critical for all forensic 
laboratories that provide the necessary technical processing, 
from latent fingerprints to the expanded emphasis on digital 
evidence. Funding of this legislation will provide support for 
these activities, as well as upgrading and development of 
professional forensic experts to help them maintain the highest 
quality of academic and scientific knowledge.
    I thank you for your time and support. The funding of the 
National Forensic Sciences Improvement Act will have a 
monumental impact on the forensic community and law enforcement 
agencies for years to come.
    Thank you, sir.
    [The prepared statement of Mr. Yura follows:]

Statement of Michael T. Yura, Ph.D., West Virginia University, Forensic 
                         Identification Program

    Mr. Chairman and Members of the Committee, I greatly appreciate the 
opportunity to speak with you concerning the funding of the National 
Forensic Science Improvement Act 2000. As you know, this piece of 
legislation was passed and signed into law last year but this year's 
budget does not include the appropriate sum of funding to support this 
critical piece of legislation. We would greatly appreciate your support 
in providing the appropriate funding for this activity. I am currently 
the Director of the Forensic Identification Program at West Virginia 
University in Morgantown, West Virginia. The primary impetus for the 
development of the forensic Identification program was that there is 
currently no program within the State of West Virginia, the United 
States, or throughout the world that specifically trains individuals 
and grants degrees in the area of forensic identification.
    The Federal Bureau of Investigation (FBI) in response to this major 
training and educational void requested that West Virginia University 
(WVU) develop degree programs in Forensic Identification with areas of 
academic concentration in Latent Forensic Examiner, Forensic Chemistry, 
Forensic Biology, and Forensic Toxicology within the major of Forensic 
and Investigative Science and within the Biometric major include DNA/
Molecular Biology. Therefore this program was created in December 1998 
and graduated its first class on May 13, 2001.
    These new programs address the current and future need for 
individuals with increased scientific expertise in identification 
technologies and forensic science. They will be employed within the 
domestic law enforcement community, forensic laboratories, the FBI, and 
other federal agencies, as well as the biometric industry. The use of 
advanced identification and forensic science technology within the 
forensic community and security industry has created a significant need 
for scientifically trained persons with technical skills in the 
forensic discipline, computer science, engineering, biometrics, natural 
sciences, and criminalistics. Educational recommendations from a 
National Institute of Justice Technical Working Group (TWG) have been 
made requiring that identification specialists hired in the new 
millennium have the appropriate college background. The combination of 
these new educational recommendations and the significant advances in 
forensic identification and forensic science has created a significant 
demand for well-educated forensic specialists. Another issue that we 
are helping to solve is that of rural and small state's justice system 
having access to forensic science. Small states like West Virginia have 
some unique problems in the development of our forensic laboratory 
capacity.
    The State of West Virginia has only one crime laboratory under the 
West Virginia State Police. Because of the geography of our state, 
bringing evidence to the crime lab involves considerable loss of time 
and manpower because of the significant travel distances necessary to 
get the evidence to our laboratory personnel. Because there is only one 
crime lab, cases have to be handled on the basis of time submitted and 
nature of the case, therefore, causing significant delays in the 
processing of other cases in need of speedy and professional 
resolution. We are currently developing plans for a major renovation 
and development of our current crime lab in South Charleston, West 
Virginia as well as the creation of a regional crime laboratory in 
North-central West Virginia. This would allow the state to be divided 
into two major portions providing quality and speedy response of 
evidence from the law enforcement community. The development of these 
facilities can only be accomplished through this type of legislation. 
The State of West Virginia cannot manage the creation and upgrade of 
our forensic facilities under the current state economics. There are 
many smaller rural states like West Virginia who need the support of 
this type of legislation to keep up with new technology and to develop 
crime lab and forensic facilities comparable to some larger states as 
well as facilities similar to the expansion currently underway by the 
FBI in the creation of their new crime laboratory in Quantico, 
Virginia. Like the federal government, the demands for processing 
scientific forensic evidence has grown and will continue to grow 
geometrically.
    As technology has been developed for the processing of evidence, 
such as fingerprint and DNA evidence, crime labs have not been able to 
keep up with all of the innovations necessary to provide the public 
with timely and professional analysis of forensic evidence. We would 
greatly appreciate your support in providing the broad forensic 
community, including various disciplines such as medical examiners and 
various forensic specialists, with the most updated tools and 
facilities available. This will help convict the guilty and also 
provide swift exoneration of those persons wrongly accused. Scientists 
in the forensic community take a neutral stand in processing evidence 
gathered by state and local police agencies. They provide the highest 
quality impartial forensic processing which will greatly benefit the 
community at-large. This piece of legislation is critical to all 
forensic laboratories that provide the necessary technical processing 
from latent fingerprints to an expanded emphasis on digital evidence. 
Funding of this legislation will provide the support for these 
activities as well as the upgrading and development of professional 
forensic experts to help them maintain the highest quality of academic 
and scientific knowledge.
    I thank you for your time and your support. This funding in support 
of the National Forensic Science Improvement Act will have a monumental 
impact on the forensic community and law enforcement for many years to 
come.

    Senator Sessions. Thank you, Dr. Yura, and thank you, all 
of you. I appreciate very much your coming and sharing your 
time and expertise and background on this important subject.
    You know that the Federal Government is not going to fund 
all the forensic laboratory demands in America. They really 
should not. The States have undertaken that and done that 
pretty well, but we do spend a lot of money on law enforcement 
in Washington. I think there is a growing concern that 
sometimes it is used to take over criminal justice rather than 
support it.
    To me, there is no takeover, there is nothing but a real 
form of assistance. So I think that is what good public policy 
should be about. We analyze the needs in criminal justice and 
we see what we can do consistent with good public policy and 
respect for States' roles and responsibilities. I think we are 
on the right track here.
    Mr. Nix, you head the GBI and the laboratory is a part of 
the GBI?
    Mr. Nix. It is one of our three divisions.
    Senator Sessions. Three divisions?
    Mr. Nix. Yes, sir.
    Senator Sessions. That is the Georgia Bureau of 
Investigation which, by the way, is an outstanding 
investigative agency, of which I know you are quite proud. You 
have an investigator and they go out and make a case. Maybe 
there is ballistics analysis that needs to be done on a weapon, 
or maybe there is a drug analysis that needs to be done.
    How does it impact an investigator when he submits that 
evidence off to a laboratory and months go by before he 
receives an answer?
    Mr. Nix. Well, the more timely the evidence can be 
analyzed, the better lead value that is to the investigator. 
There is just so much that the investigator cannot do until 
that work has been done. You know, in the DNA area there may 
very well be a focus of one individual, that circumstantial 
evidence is pointing to that person. But if that DNA evidence 
can be accurately analyzed, you are going to know whether or 
not you are heading down the right road or whether or not you 
need to redirect resources. The same thing is true in the 
ballistics area.
    We have talked about the DNA and some of these areas, but 
we haven't even given any attention to some of the very basic 
things that we do in the lab. There has been so much Federal 
attention given to DUI and deaths on our highways. Just a 
simple DUI case can't go forward until we have done our work in 
the crime lab. That is a big part of what we do.
    Senator Sessions. My observation is it has got to be 
demoralizing to an officer's enthusiasm if he is ready to make 
a breakthrough in a case and take the case for prosecution, but 
he can't get his analysis back to see if it is drugs or see if 
the hair was a match or something like that. Do you agree with 
that?
    Mr. Nix. Yes, Senator. In Georgia, I have been very 
privileged to work for two visionary Governors. I was appointed 
by Governor Miller and reappointed by Governor Roy Barnes, and 
both of them were students of the criminal justice system and 
they realized the direction that we were headed in. And as we 
were able to educate our legislature, we have made vast 
improvements in our delivery of crime lab services. I know what 
dollars can do in providing a solution.
    And you say, well, why are you here if, in Georgia, so much 
progress has been made? Well, last year the legislature passed 
legislation that requires us to take DNA samples for our data 
base for all convicted felons. We will have anywhere from 
35,000 to 50,000 new DNA cases this year. I think every crime 
lab and every law enforcement agency such as GBI is being faced 
with cyber crimes. There are very few crime laboratories in the 
country that have the capability of dealing with cyber crimes.
    In a lot of places, law enforcement and prosecutors are 
turning their backs on some very serious crimes in that area 
because there isn't anybody in the crime lab who can do the 
work.
    Senator Sessions. Does anyone else want to comment on that? 
Mr. Sheppo or Mr. Townsend, what is it like for the prosecutor 
or for the investigator if there is a delay at the laboratory?
    Mr. Townsend. Well, I absolutely concur with Director Nix' 
statement. In the State of Utah, our prosecutors are demanding 
less than a 30-day turnaround time, which makes it an extremely 
difficult brick wall that we face. If we don't meet that, then 
many times charges are dismissed. In fact, we had a significant 
case dismissed just last week for this very reason. We just 
simply could not meet the demands and so the prosecutor 
dismissed the case.
    Senator Sessions. Well, I know that is true in Alabama. I 
know Dr. Downs has been working to get more funding, but we are 
in a funding crisis, a proration in the State, so the funding 
that we would like to see increased may not be as great as he 
would like to see.
    I do know that when you are waiting 60, 90 days on a 
routine drug case, in my view, to get the maximum impact on a 
routine, not a large drug case, you need prompt turnaround. The 
individual needs to be arrested. If he is guilty, he needs to 
be brought into court promptly and something done. He doesn't 
have to be sent away for 25 years, perhaps, but he needs to be 
brought in and confronted.
    But if you are talking 60, 90, 120 days before you get the 
lab back and then the next trial docket is another 4 or 5 
months down the road, then you have gone a year before this 
case is processed effectively. I think that undermines law and 
justice.
    Dr. Buel?
    Mr. Buel. We have found a rippling effect to this on the 
police officer. If he submits fingerprint evidence to us and we 
don't get a chance to analyze that, he may go to another scene 
and not collect the fingerprint evidence that he should because 
he knows that it is not going to come back in a timely fashion.
    So it compounds, too. Some of the evidence may not come in 
because they are not getting the reports back. So that affects 
the citizen, the homeowner who expects us to go there and 
collect the evidence and bring it in and find the B and E, 
which affects us all to some extent at some point. When 
somebody breaks in and we see the ``CSI'' folks going in with 
their magic wands, they expect us to find the fingerprints and 
analyze those and make the hits. But with an overburdened crime 
lab, it becomes hard to do that.
    Senator Sessions. That is a good observation.
    Do any of you sense that State legislators that you deal 
with or your friends and colleagues do are becoming better 
informed on the need for improving funding for laboratories? I 
think we are behind the curve there, or the politicians were 
for some time.
    Dr. Downs?
    Dr. Downs. In Alabama, we certainly have been in the 
forefront of trying to educate our State legislators. Through 
the assistance of Attorney General Bill Pryor and our Governor, 
we have tried to get the word out there. Our legislators do 
understand, but as you pointed out, we are in a serious funding 
situation within the State and try to be all things to all 
people simply can't be done. We have made strides. We have a 
long way to go and this will put us over the top, the full 
funding for the Paul Coverdell bill.
    Senator Sessions. Any other comments? Mr. Sheppo?
    Mr. Sheppo. Also, in Illinois, I would echo exactly what 
Dr. Downs has said. We have had our laboratory directors work 
with our State legislators and it has helped. Of course, there 
is still a long way to go.
    Senator Sessions. Well, this is not going to solve all your 
funding problems. As one of you has said, it is just not enough 
to solve the crisis you are facing. In a way, it provides some 
quick-fix money, an infusion of money for 5 years, enough money 
to make a difference, if not solve all your problems.
    Perhaps it can be part of a highlighting of this issue that 
gets the attention of our State and local officials, because in 
my experience if we can't keep our laboratories at the highest 
possible quality level where an examiner has the time to do a 
complete and accurate analysis and still get it back to the 
investigating agency in a short period of time, then the system 
really isn't working well.
    For the amount of money we spend in all of law enforcement, 
from jails to police and everything in between, you are still a 
very small part of that budget. You could double your budget 
and it wouldn't really impact the criminal justice budget in 
most States.
    Any other comments?
    Mr. Yura. I would like to make one comment echoing the same 
thing. In the State of West Virginia, Governor Wise and our new 
Superintendent of the State Police, Colonel Hill, have the same 
thing. They are acutely aware of these issues. They came into 
office with the idea of trying to solve it.
    I think everyone is so sensitive to these issues. It is a 
critical time for all of us because of the awareness level, and 
you see television shows that highlight it and the expectation 
of truth. Everyone wants that, and it is just providing that 
support system so we can actually go out and both train those 
individuals to work as well as provide the services, as 
laboratories are supposed to.
    Mr. Nix. Senator, there is just an acute need for training 
facilities. About a year-and-a-half ago, we could not hire 
enough firearms examiners and we couldn't find anyplace that we 
could send scientists to become firearms examiners. I was able 
to partner with Tim Moore of the Florida Department of Law 
Enforcement and both of us kicked in about $150,000 to train 
firearms examiners. But there is a real need for training 
facilities that we can send our scientists to.
    I think that there is a place here for the FBI. The FBI has 
done such a good job through the years with the FBI National 
Academy. I think there is a need on the national level for a 
national academy of forensics, a place that we can send our 
crime lab scientists for advanced training. There is always 
going to be a need for continuous training as new innovations 
come down the line, and we want to cross-train scientists from 
one discipline to another. I think this really be a wonderful 
legacy for a new administration coming in to take a strong look 
at that as a possibility. But in the meantime, we have got to 
have the funds on the State and local level to get the work in 
the door and out so that there is not a bottleneck to our 
system.
    Senator Sessions. That was a good suggestion, Mr. Nix. I 
have often felt that there is a healthy role. The FBI Academy 
is a very good model, but it takes only a very few people for 
specialized matters, and maybe expanding that would be a good 
contribution.
    Do all of you see that if you were able to expand your 
labs--who was that who said we need 9,000?
    Dr. Downs. Nationwide.
    Senator Sessions. Nationwide. Are there 9,000 people out 
there? Is there enough training and salaries sufficient to 
attract enough people?
    Mr. Sheppo. Yes, sir, I think there probably are enough 
scientists out there, but they would have to be trained. That 
is why exactly what Director Nix has said is so applicable. It 
is important to find these scientists and then have them 
properly trained so that they can come into a laboratory and we 
don't have to spend years training them. That down time in 
training really hurts as far as case productivity.
    Mr. Yura. That is why the FBI came to us because they 
recognize exactly what Mr. Nix is saying. There was an 
incredible need that they saw out there not just for the FBI; 
it is at the State and local level. They asked us to begin 
those kinds of programs because they could just see the near 
future, let alone the distant future, and the demand for these 
types of highly qualified personnel.
    Senator Sessions. I want to thank each of you. This has 
been a very worthwhile hearing. I believe that we will receive 
some fruit from it.
    On behalf of Senator Hatch, I want to make clear that the 
record will be kept open for 2 weeks so interested persons can 
submit additional material, any of you or any of the Senators 
could.
    I also want to offer into the record a letter that Senator 
Jon Kyl has asked that we make part of the record from the city 
of Phoenix Police Department talking about technology and the 
matters that we are dealing with today. Senator Kyl has been a 
strong advocate of good, effective law enforcement.
    If there is nothing else on our agenda, I will say again 
how much we appreciate your testimony, and we will be 
adjourned.
    [Whereupon, at 4:30 p.m., the Committee was adjourned.]
    Questions and answers and submissions for the record 
follow:]
    [Additional material is being retained in the Committee 
files.]

                         QUESTIONS AND ANSWERS

         Questions submitted by the Committee on the Judiciary

                    questions for panel ii witnesses
    1. What is the laboratory accreditation process for your states and 
what other types of external reviews do your laboratories undergo?
    2. What is your method for resolving disagreements among examiners 
over forensic methods or the interpretation of results?
    3. What is your work assigned, is terms of principal and auxiliary 
examiners, and who is responsible for the preparation of reports?
    4. What are the training requirements for your personnel?
    5. How do you guard against prosecutoria1 bias?
    6. Brain Fingerprinting is the use of computer-based technology to 
identify the perpetrator of a crime by measuring brain-wave responses 
to crime relevant words or pictures (memory and encoding related 
multificated electroencephalographic responses), which are elicited 
when the brain processes noteworthy information that it recognizes. 
According to the technology's proponents, when details of the crime 
that only the perpetrator would know are presented, a MERMER is emitted 
by the brain of the perpetrator. The brain of an innocent suspect would 
not emit a MERMER because these would be not be a recognition of the 
information presented.

        A. Are you familiar with the Brain Fingerprinting technology? 
        If you are, do you have an opinion on the validity of this 
        technology?
        B. Is this technology being used in your laboratories, and if 
        so, how successful has it been?

    7. How do your crime labs maintain the integrity of the chain of 
custody, so that evidence is not compromised?
    8.How do you preserve evidence containing DNA for use in later 
testing and for how long do you keep such evidence?

                                <F-dash>

                Questions submitted by Senator Feingold

  Questions for David Boyd (Panel I) Keith Coonrod (Panel I) and All 
                           Panel II Witnesses
    Question 1: On May 11, 2001, Barry Scheck and Peter Neufeld of the 
Innocence Project wrote in the New York Times that ``Conventional hair 
analysis. . . is subjective junk science. . . .Unsound techniques 
survive because forensic science has been woven into the culture of 
prosecution and insulated from routine quality assurance standards we 
impose on medical testing labs. . . .Too often, forensic laboratories 
are run by law enforcement officers in lab coats.'' Scheck and Neufeld 
conclude, in part, by suggesting that forensic labs should be 
independent agencies, serving as independent fact finders for both the 
prosecution and the defense. Do you agree with this suggestion? Why or 
why not?
    Questions for Keith Coonrod (Panel I) and All Panel II Witnesses
    Question 1: The Paul Coverdell National Forensic Sciences 
Improvement Act contains a provision that expresses the sense of the 
Congress that states that receive these grants should agree to ensure 
post-conviction DNA testing in appropriate cases. When we are talking 
about the possibility of an innocent person sitting in prison, even 
death row, fairness and justice demand that we allow post-conviction 
access to DNA testing.

        (a) What is the current status of post-conviction access to DNA 
        testing in your state?
        (b) What role have you played in urging this important reform 
        in your state?

    Question 2: One problem sometimes faced by people seeking to prove 
their innocence is that the biological evidence has not been stored 
properly or, even worse, has been discarded by the state.

        (a) What procedures do you have in place in your lab to store 
        biological evidence?
        (b) Once a conviction has been obtained, how do you maintain 
        the integrity of the biological evidence and store it?
        (c) In your state, how long is the state crime lab required to 
        store biological evidence of a convicted offender?
        (d) What are the procedures that your state crime lab follows 
        in the event that the defense seeks access to the biological 
        evidence and needs it transferred to a forensic lab retained by 
        the defense?

                                <F-dash>

 Responses of Eric Buel to questions submitted by the Committee on the 
                               Judiciary

    Answer 1: We follow the ASCLD accreditation process. ASCLD sets 
standards, for training of personnel, quality assurance programs, 
documentation and security of evidence. Part of the ASCLD process is to 
ensure that laboratories have written procedures, which are followed in 
all of the areas of testutb performed. The DNA unit follows DNA 
Advisory Board (DAB) guidelines. External proficiency testing occurs in 
each discipline followed by blind proficiency testing yearly in each 
discipline. In addition, external review of the DNA unit occurs every 
other year

    Answer 2: There are seldom disagreement, about methods, in that 
procedures are described in the standard operating protocols. 
Concerning the interpretation of a result, examiners must review the 
material and if the examiners do not reach an agreement the supervisor 
is consulted. More testing may then be suggested. If there is still 
doubt/nonagreement the test may be called inconclusive or the 
supervisor may consult with additional examiners from outside agencies. 
Our procedures require that a number of tests have two ``readers'', 
where two trained analysts must agree on the conclusions

    Answer 3: Examiners work only within his/her discipline and work 
the oldest cases first unless the supervisor assigns a priority, based 
on court or investigative needs. The examiner prepares a report, which 
is peer reviewed and administratively reviewed before it is released.

    Answer 4: Training requirements are detailed in training manuals 
and were reviewed during the accreditation process. The trainee must 
undergo training in the specific methods used in the forensic community 
and in the laboratory. This includes passing a competency test prior to 
undertaking casework. The DAB specifies that DNA analysts have specific 
areas of training including biochemistry, genetics, statistics and 
molecular biology.

    Answer 5: The analyst examines evidence and provides the data 
obtained from that analysis. The procedures used are well established 
and the results must be supported by worksheets showing the test 
results. The worksheets and notes are available for review by the 
defense. Our policy provides that we try to maintain a portion of the 
evidence for future testing by the defense if they have reason to 
question our work.

    Answer 6: Brain fingerprinting:

        i. About a year ago I read some material on this subject. At 
        that time, I felt that insufficient research had been conducted 
        to prove the technique scientifically reliable. It may have 
        promise, but I was not convinced at the time.
        ii. Not used in our laboratory

    Answer 7: Chain of custody of evidence is maintained through a 
paper record that records each transfer of evidence. We have secure and 
appropriate storage spaces for evidence and employ handling procedures 
that minimize the possibility of contamination or sample mix up

    Answer 8: Biological evidence is dried and placed into a plastic 
bag with desiccant. The package is heat sealed and maintained at -20 C 
for at least one year. After that time it is returned in a sealed state 
to the submitting agency. In a dried and sealed condition it should be 
useful and available for future testing for years.

                                <F-dash>

   Responses of Eric Buel to questions submitted by Senator Feingold

    Answer 1: Many forensic laboratories are under agencies such as a 
department of public safety or other criminal justice type 
organization. Some laboratories have managers who are police officers 
or civilian managers who report to a police officer. In Vermont we have 
a civilian director who reports to a civilian director of Criminal 
Justice Services who in turn reports to a civilian commissioner. Our 
laboratory employs one sworn officer in the capacity as a liaison 
between the laboratory and police departments. All examiners in our 
laboratory are civilians. These examiners perform the examinations and 
report what they find. Most forensic laboratories have civilian 
examiners who are scientists. These scientists are trained to report 
their bindings, without prejudice. The accreditation process reviews 
protocols, training and quality assurance issues. The National Forensic 
science Improvement Act will force laboratories to become accredited or 
they will not be able to receive the funds. This will be a very 
motivating force to drive laboratories towards accreditation. 
Concerning conventional hair analysis, this must be performed by only 
well trained examiners whose work is peer reviewed. Improper training 
will lead to an improper analysis in any field. In the medical field, 
cancer cells are misdiagnosed in 1 out of 71 cases, and are 
misclassified in 1 out of 5 cases. Training is imperative in any field 
and NFSIA will assist labs get appropriate training
                        post conviction testing:
    a) No law currently exists in the state. If a request were made for 
this, we would honor the request.
    b) We have discussed this issue with the Vermont Defender General's 
office and are currently seeking model legislation to offer for the 
next legislative session.
                          storage of evidence:
    a) Biological evidence is dried and placed into a plastic bag with 
desiccant. The package is heat sealed and maintained at -20 C for at 
least one year. After that time it is returned in a sealed state to the 
submitting agency. In a dried and sealed condition it should be useful 
and available for future testing for years.
    b) We usually do not know when a conviction has been obtained. As 
described above after about one year, the evidence is returned in a 
sealed pouch, which will maintain DNA evidence for a considerable 
length of time.
    c) No Vennont statues exist for the length of time required to 
store biological evidence.
    d) The evidence does not belong to the laboratory but belongs to 
the submitting agency. Once the submitting agency is informed of the 
request from the defense, we obtain a written release from the 
submitting agency and a written request from the defense concerning the 
samples that need to be transferred and the laboratory that will be 
receiving the samples. We then will transfer a portion of the sample to 
the forensic laboratory retained by the defense. The defense may ask 
the court to order such a transfer and then we would only require a 
letter from the defense directing us as to which samples need external 
testing and the forensic laboratory retained for the external analysis.

                                <F-dash>

  Responses of J.C. Upshaw Downs, M.D. to questions submitted by the 
                       Committee of the Judiciary

    1. The National Forensic Sciences Training Center (NFSTC) accredits 
our DNA Labs (4). In the past, the National Association of Medical 
Examiners (NAME) bas accredited our Forensic Pathology (medical Ewer) 
Labs (4). The NAME accreditation was dropped several years ago due to a 
lack of resources necessary for compliance with accreditation 
guidelines, viz, most toxicology reports should be completed within 30 
days per NAME guidelines while in Alabama the delay is routinely 3 to 6 
mouths and in some areas, over 12 months.
    None of the other laboratory disciplirm are accredited.
    External reviews have included the examination and analysis of 
quality control samples submitted by Collaborative Testing Service and 
Check Samples.
    2. Methods for resolving disagreements among examiners include:
    a) Review by peers within the same lab or between labs in the state 
system. This is accomplished under the auspices of the Discip Chief , 
[technical leader--the state system's senior scientist in a particular 
area of the forensic sciences (DNA, fmearmshoolmarks, illicit drugs, 
toxicology, trace evidence)] for the respective scientific discipline. 
This method is used in over 95% of all cases.
    b) Review by recognized peers from a laboratory outside the state's 
system.
    In, all cases the Discipline Chief reports the findings and 
recommendations to a Deputy Director who reports same, with recommended 
course of action, to the Director. Tire Director decides if further 
action is required. The Discipline Chief makes the technical decision 
and determines the appropriate method of reporting after the Director 
is satisfied that all pertinent issues have been addressed.
    3. Work is assigned through the Laboratory Director to each 
laboratory's Section Chief (the individual lab's senior scientist in a 
particular area of the forensic sciences). In all disciplines except 
Toxicology, the work is assigned to each qualified examiner who 
performs the examination/analysis, prepares the report and testifies in 
court. The trainees in, each section are supervised by the Section 
Chief and qualified examiners.
    In order to maxinize the throughput of casework, the toxicology 
sections operate differently. In each of the Toxicology Sections (3) 
the Section CWef assigns work to the other examiners, supervises their 
work, prepares all reports and testifies in all court cases.
    4. The training requirements include a mbttum of on-the-job 
training, attendance at various schools and sennanars and other 
activities that follow a protocol set by the respective Discipline 
Chief The protocols follow national standards set by the Technical 
Working Groups of the various disciplines. In order to verify 
scientific veracity and impartiality in testimony, this training also 
includes courtroom procedures and testimony in a moot court setting.
    5. Prosecutorial bias is avoided in the same manner as is defewe 
bias. Our agency is a separate entity of state gont that is not 
attached to any law enforcement agency. The department of Forensic 
Sciences is a separate agency in the executive branch, answering to the 
Governor. The Director's position is apolitical--the Director can only 
be removed from ofce for an impeachable offense.
    Departmental reports are public record and contain a scientific 
description of evidence examined with a clearly demarcated Werpretation 
of said evidence. Personnel are trained to be open and unbiased to both 
prosecution and defense. Department personnel meet individually with 
either or both sides in an adversarial criminal proceeding to review 
findings and interpretations of evidence.
    No fees or benefits come to the Department as a direct result of 
the reports and examinations conducted by the agency.
    Evidence analyses, including post conviction DNA analyses, are 
available on request and at no fee, to either side in a criminal proms. 
In order to ensure that limited samples are not consumed in testing and 
that the results will. have some bearing on the outcome of the case, 
this testing is coordinated with both parties in such an instance.

                                <F-dash>

Responses of J.C. Upshaw Downs, M.D. to questions submitted by Senator 
                                Feingold

    Question 1: Should forensic labs be independent agencies serving as 
independent fact finders for both the prosecution and defense
    Answer: The Department of Forensic Sciences of the State of Alabama 
is proud to act as such an independent agency. In so doing, we believe 
we provide an ideal model fox the operation of a state forensic 
laboratory system. The Alabama Department of Forensic Sciences has been 
independent since its inception in 1935. The creation of state's 
forensic system, was tied, in large part, to a tragic miscarriage of 
justice related to evidence--biological (DNA) evidence. The cases of 
nine young Black men (known as ``the Scottsboro Boys'') unjustly 
convicted of rape pointed out the absence of a competent impartial 
evidence collecting and interpreting agency within the state.
    Our scientists are certified as peace officers and have the power 
to enter any crime scene for the purpose of securing evidence. All 
reports of our investigations, both on the scene and in the lab, are 
public record. Departmental reports of analyses clearly indicate 
factual results and scientific expert opinions based on those results. 
It has always been our policy to entertain any request by the defense 
to examine evidence in, a case in which we are involved by virtue of an 
initial request by an investigating law enforcement agency.
    Consultation with counsel for prosecution and defense is another 
area of our scientific neutrality- On request, department scientists 
will meet privately with representatives for either or both sides, 
separately or together. During these sessions, the scientist way be 
requested to provide scientific commentary and/or observations to prove 
or disprove certain theories proffered by counsel. Attorneys for either 
side may review all scientific data used in formulating reports arid 
opinions during these consultations. The content of such meetings is 
held in strict confidence, unless counsel requests or agrees to release 
of information.
    The same spirit affects courtroom testimony by Departmental 
employees. Impartial scientists are not ethically allowed to ``shade 
the results'' or to take sides in any adversarial action. Scientific 
truth is scientific truth. Our reputation is one of true impartiality. 
Both prosecution and defense have complimented The Alabama Department 
of Forensic Sciences for being truly independent finders of scientific 
fact, no matter to whom the benefit.
    Question 1a: What is the current status of post-conviction DNA 
testing?
    Answer: Post-conviction DNA testing is available, just as is pre-
conviction testing, on request. It has always been our policy to 
entertain any request by the defense to examine evidence in a case in 
which we are involved by virtue of an initial request by an 
investigating law enforcement agency.
    Question b: What role have you played in urging this reform?
    Answer: We have not taken a pro-active role in national reform on 
availability of post conviction DNA testing, primarily because 
Alabama's Department of Forensic Sciences DNA laboratories have an 
active case backlog of over 20 months. Put another way, if Alabama's 
labs were to receive no new evidence at all, we already have almost 2 
years worth of evidence in criminal cases awaiting analysis,
    Fundamentally, we agree that DNA cars provide powerful evidence in 
criminal proceedings. It should be given the same weight in exonerating 
suspects as in implicating the guilty. One must remember that DNA is 
only one item of evidence considered in a criminal case. Other evidence 
and testimony is often presented
    Rarely, court. Rarely, DNA evidence has shown a convict was not the 
donor of a sample in a particular case. This result has been used to 
free those falsely convicted fox a crime they did not commit. The 
Alabama Department of Forensic Sciences applauds those who have helped 
secure freedom for those unfortunate few who have been wrongly 
imprisoned.
    One must understand why DNA evidence was not available and/or was 
not used in such cases. Most instances where an individual has been 
freed based on post-conviction. DNA evidence involve old cases. The 
injustice of today is based on the inadequacy of the past. In short, 
just a few years ago, the power of DNA evidence--for inclusion and 
exclusion of suspects--was not recognized. This lack of knowledge was a 
significant factor in the failure to secure DNA testing in many of 
these older cases.
    Ignorance of the significance of DNA and other scientific evidence 
is no longer the issue. Of far greater concern to scientists is the 
failure to sufficiently fund crime laboratories and medical examiners 
to deal with evidentiary issues today. We now know the value of DNA 
arid forensic evidence. It is not only recognized by the courts but 
often is expected by juries. As a society, it is unconscionable to have 
the ability to perform such a specific test--one that can literally 
mean the difference between life and death--and to not perform a 
competent analysis in a timely manner. The answer simply comes down to 
a lack of available resources.
    The constitution of these United States guarantees the right to a 
speedy trial and assures justice for all. Sufficient funding to staff 
and accredit forensic laboratories is in the national interest if we 
truly value these core principles.
  the inadequacies of today must be addressed before they become the 
                        injustices of tomorrow.
    Question 2a: What are your procedures for store biological 
evidence?
    Answer: Generally, biological evidence is stored in secure, 
climate-controlled environments following guidelines mandated by 
national standards. Some items are stored as dry stains in paper 
containers at room temperature, others are stored under refrigeration, 
and others are frozen.
    Question b: How is the host-conviction evidence stored and its 
integrity maintained?
    Answer: If any evidence remains in our custody after conviction, it 
is stored much the same as described in 2(a) above. The integrity is 
maintained at all times in secure, limited-access areas; the chain of 
custody is documented through the use of written receipts housed in the 
respective case files. Evidence that passes through our system is 
usually returned to the submitting agency upon completion of the 
examination/analysis, along with any special instructions for long-
terra storage.
    Question c: How long are convicted offender biological stains 
stored?
    Answer: Blood samples from convicted offenders (prisoners, 
parolees, probationers, and those seeking pardons) are stored in dried 
stain form in a secure area for an indefinite period of time.
    Question d: What procedures must be followed by the defense in 
order to obtain biological evidence for testing by another lab?
    Answer: Normally a defense attorney obtains a court order outlining 
the items to be released and the conditions under which they are to be 
released, viz. directly to the attorney or transferred by our lab to 
another (defense) lab. We make the transfer utilizing normal chain of 
custody procedures documented by written receipts and shipping 
documents. The reports concerning our analysis of evidence are public 
record and the defense lab has access to them in that manner or through 
the defense attorney.

                                <F-dash>

 Response of National Institute of Justice to a question submitted by 
                            Senator Schumer

    Question: How many unexamined rape kits remain in storage awaiting 
DNA testing nationally and in New York State?
    Answer: Nationally, there are approximately 180,000 unexamined rape 
kits. At this time, there are approximately 2,000 unexamined rape kits 
in the State of New York. In New York State, there are approximately 
6,000 rape kits collected annually.

                                <F-dash>

   Responses of Milton E. Nix, Jr. to questions submitted by Senator 
                                Feingold

                    questions for panel 11 witness:
    Answer 1: On May II, 2001, Barry Scheck and Peter Neufeld of the 
Innocence Project wrote in the New York Times that ``Conventional hair 
analysis. . .is subjective junk science. . .Unsound techniques survive 
because forensic science has been woven into the culture of prosecution 
and insulated from routine quality assurance standards we impose on 
medical testing labs. . .Too often, forensic laboratories are run by 
law enforcement officers in lab coats. ``Scheck and Neufeld conclude, 
in part, by suggesting that forensic labs should be independent 
agencies, serving as independent fact finders for both the prosecution 
and the defense. Do you agree with this suggestion? Why or why not?
    Most crime laboratories perform extensive scientific testing on 
hair evidence. A conclusion on hair evidence that is as definitive as 
that obtained from DNA is not possible. However, the use of properly 
scientific analyzed hair evidence can add valuable information for the 
judicial system. Forensic sciences has been evolving just as other 
sciences continue to evolve as new technologies and techniques are 
discovered and developed. Forensic science laboratories have always 
been after the truth through science. Their function is in criminal 
justice system is to provide independent scientific fact. There have 
been countless reports issued by crime laboratories across the county 
that have led law enforcement to the guilty person while exoernating 
the innocent. In most cases, the public only hears about the crime 
laboratory when an individual is prosecuted. The public does not hear 
about the scientific reports that do not support prosecution of an 
individual.
    Almost all forensic scientists are scientists. Today, there are 
very few individuals practicing forensic science that do not have a 
science type degree. Accreditation programs such as ASCLDLAB support 
standardization and quality assurance. Such groups as the American 
Board of Criminalistics (ABC) support individual certifications. 
Forensic laboratories prove the identity of a drug compound beyond any 
scientific reasonable doubt. Medical testing laboratories do not.
    Forensic crime laboratories are fact finders of the truth. Their 
reports are used by both the prosecution and the defense.
    In Georgia, the defense has the ability to question any results 
reported by the state's crime laboratory through a policy of 
independent examinations using, in many cases, the very same scientific 
instrumentation used by the state.
    The next question is who pays for a defense crime laboratory? In 
has been the practice and custom in the United States that defense 
counsel is not provided by the public except in special needy case 
situations. As crime laboratories are the fact finders of truth, their 
reports are used by the criminal justice system by both the prosecution 
and the defense.
    Answer 2: The Paul Coverdell NFSIA contains a provision that 
expresses the sense of the Congress that states that receive these 
grants should agree to ensure post-conviction DNA testing in 
appropriate cases. When we are talking about the possibility of an 
innocent person sitting in prison, even death row, fairness and justice 
demand that we allow post-conviction access to DNA testing.

        (a) What is the current status of post-conviction access to DNA 
        testing in your state?
        In the State of Georgia, post-conviction access to DNA testing 
        can by granted by court order as outlined in Georgia law.
        (b) What role have you played in urging this important reform 
        in your state?
        Georgia Bureau of Investigation has supported this reform and 
        assisted in the passage of the bill containing this provision.

    Answer 3: One problem sometimes faced by people seeking to prove 
their innocence is that the biological evidence has not been stored 
properly, or, even worse, has been discarded by the state.

        (a) What procedures do you have in place in your lab to store 
        biological evidence?
        The GBI Division of Forensic Sciences crime laboratory retains 
        blood samples for one year after the year of submission. All 
        other evidence is returned to the submitting law enforcement 
        agency after DNA analysis is completed. If the only remaining 
        DNA is what was used in the testing, the testing sample is 
        retained indefinitely at the laboratory.
        (b) Once a conviction has been obtained, how do you maintain 
        the integrity of the biological evidence and store it?
        Following DNA analysis, evidence is returned to the submitting 
        agency. If the only remaining DNA evidence is what was used for 
        testing, then the laboratory retains the sample in a freezer 
        indefinitely.
        (c) In your state, how long is the state crime lab required to 
        store biological evidence of a convicted offender?
        The GBI Division of Forensic Sciences crime laboratory stores 
        convicted offender DNA samples indefinitely.
        (d) What are the procedures that your state crime lab follows 
        in the event that the defense seeks access to the biological 
        evidence and needs it transferred to a forensic lab retained by 
        the defense?
        If the laboratory were still in possession of the evidence, it 
        would be transferred as per court order and Rules and 
        Regulation of the Board of Public Safety for Independent 
        Examinations.

                                <F-dash>

Responses of Michael G. Sheppo to questions submitted by the Committee 
                            on the Judiciary

                   questions for panel ii witnesses:
    Question 1: What is the laboratory accreditation process for your 
states and what other types of external reviews do your laboratories 
undergo?
    Answer: The Illinois State Police forensic science laboratory 
system was first accredited by the American Society of Crime Laboratory 
Directors/Laboratory Accreditation Board (ASCLD/LAB) in 1982 and has 
subsequently received re-accreditation every five years. External DNA 
audits are conducted every other year. We additionally require that 
each laboratory director inspect their laboratory each year using 
ASCLD/LAB and internal criteria. Also, each laboratory is inspected 
annually by an Illinois State Police, Division of Forensic Services, 
Forensic Sciences Command inspection team. Included on the inspection 
team are external auditors who we believe add a different perspective 
in evaluating our laboratory operations.

    Question 2: What is your method for resolving disagreements among 
examiners over forensic methods or the interpretation of results?
    Answer: Disagreements may be resolved by discussions between the 
examiners to come to a common decision--if that is not possible, then a 
peer review board is formed to review the disagreement and resolve the 
issue. The peer review board is made up of the quality review 
coordinator for the section, two analysts chosen by the examiner who do 
not work in the examiner's laboratory, the training coordinator for the 
section, and one analyst chosen by the quality assurance program 
administrator. This board meets and reviews the issue and renders a 
decision, which is final upon approval by the commander.
    For a case already reported to an agency, if no agreement can be 
reached between the analysts, separate reports may be issued which 
explain/cover the individual merits or reasons made for the conclusions 
reached. This would also require the commander's approval.
    Forensic Science Command Policy EVH 9--Case Analysis and Reporting 
Errors and Situation Reports is attached. Specifically paragraph 
III.D.2. addresses the Quality Assurance Review Board process. The 
Quality Manual QM 7--Quality Assurance Measures also addresses quality 
measures for situations in which there is a disagreement with a 
technical review of reports.

    Question 3: How is your work assigned, in terms of principal and 
auxiliary examiners, and who is responsible for the preparation of 
reports?
    Answer: The Illinois State Police's forensic science laboratory 
system employs both forensic scientists and evidence technicians. The 
forensic scientists are responsible for all analytical work and report 
preparation. Evidence technicians may handle evidence and prepare 
reagents, but are not involved in critical analysis, analytical 
interpretation, nor do they issue reports.

    Question 4: What are the training requirements for your personnel?
    Answer: Applicants for forensic scientist positions must have, as a 
minimum, a bachelor's degree in a science such as chemistry or biology. 
Each applicant is required to pass a pre-employment written test in the 
targeted specialty area of interest (e.g., drug chemistry, forensic 
biology/DNA, patterned evidence such as latent prints and firearms). An 
oral interview is conducted, and if selected for hiring, the individual 
is pre-screened for any additional criteria such as DNA Advisory Board 
course work requirements.
    Upon hiring, new employees enter a structured formal training 
program under the leadership of a training coordinator in the specialty 
area in which they will work. The training program consists of modules 
with specific goals and objectives. Each module requires the student to 
pass criteria tests that can be written and/or practical in nature, 
demonstrating theory, practical knowledge and analytical skills. 
Students must successfully pass a module before beginning another 
module. Modules include: theoretical information, demonstration of 
analytical techniques on practice cases and/or non probative cases, 100 
percent passage of a final set of unknowns before beginning supervised 
casework, final mock trails and/or oral boards, and a specified period 
of supervised casework. Each training program has a specific length of 
time for completion. Written academic criteria, which establishes 
grading guidelines as well as student continuation in a program, are 
strictly followed. Appropriate modifications to the training program 
are made for individuals we hire with experience at another forensic 
science laboratory and for individuals within the Forensic Sciences 
Command who wish to change specialties and if the command has an 
operational need to permit cross-training. Academic criteria for that 
program is also attached.

    Question 5: How do you guard against prosecutorial bias?
    Answer: Prosecutorial bias is something that all forensic 
scientists need to be aware of and ever vigilant to avoid. All forensic 
scientists must strive to report all the scientific facts in an 
understandable manner so that the information can then be used by the 
judicial system to determine an individual's guilt or innocence. The 
Illinois State Police starts stressing the importance of impartiality 
with novice forensic scientists. All of our forensic scientists attend 
a week long Courtroom Demeanor Training that teaches them their role in 
the judicial process. The scientists also attend an ethics seminar 
which stresses the need to accurately report all scientific findings. 
These basic principles are stressed throughout the forensic scientist's 
career. To ensure all scientific findings are reported accurately and 
completely, the Illinois State Police has a thorough quality assurance 
program that includes case file reviews, random reanalysis of already 
reported cases and court room testimony monitoring by supervisors. Part 
of the quality assurance program also includes the use of court cards 
which are given to the prosecutor, defense attorney and the judge by 
each forensic scientist who testifies so that those individuals can 
evaluate and comment on the testimony given by our scientists.

    Question 6: Brain Fingerprinting is the use of computer-based 
technology to identify the perpetrator of a crime by measuring brain 
wave responses to crime-relevant words or pictures presented on a 
computer screen. These brain wave responses are called MERMERs (Memory 
and Encoding Related Multifaceted Electroencephalograph icResponses), 
which are elicited when the brain processes noteworthy information that 
it recognizes. According to tile technology's proponents, when details 
of the crime that only the perpetrator would know are presented, a 
MERMER is emitted by the brain of the perpetrator. The brain of an 
innocent suspect would not emit a MERMER because there would not be a 
recognition of the information presented.
    A. Are you familiar with the Brain Fingerprinting technology? If 
you are, do you have an opinion on the validity of this technology?
    Answer: I am not familiar with Brain Fingerprinting technology.
    B. Is this technology being used in your laboratories, and if so, 
how successful has it been?
    Answer: We are not using Brain Fingerprinting technology in the 
Illinois State Police laboratory system.

    Question 7: How do your crime labs maintain the integrity of the 
chain of custody, so that evidence is not compromised?
    Answer: The Illinois State Police laboratory system has in place a 
number of evidence handling policies which guide personnel in the 
proper receipt, handling, analysis, storage and ultimate disposition of 
evidence submitted. Policies include: receiving evidence in a sealed 
condition, maintaining evidence seals while in vault storage, limited 
vault access, limited access to analytical work areas, chain of custody 
records are maintained, clean techniques are observed, buildings and 
work areas have security plans and devices, employees undergo extensive 
background checks including drug screening, protocols are in place to 
detect extraneous DNA and for the running of blanks between samples to 
ensure no carry over from a previous analysis occurs. A representative 
sampling of these policies are included as attachments.
    The Illinois State Police laboratory system regularly monitors 
evidence handling through a number of mechanisms such as internal 
inspections, both announced and unannounced, external inspections, 
employee observation and performance reviews, quality assurance reviews 
such as case file reviews and random reanalysis.

    Question 8: How do you preserve evidence containing DNA for use in 
later testing and for how long do you keep such evidence?
    Answer: Evidence received in criminal cases is kept in the 
laboratory evidence vault under proper storage conditions (room 
temperature, refrigerator, or freezer, depending upon the type of 
evidence) until the case is analyzed and the case questions are 
answered. The evidence is then returned, along with any pertinent 
directions concerning evidence storage conditions, to the original 
submitting law enforcement agencies for appropriate evidence 
disposition.

                                <F-dash>

   Responses of Michael G. Sheppo to questions submitted by Senator 
                                Feingold

    Question 1: On May 11, 2001, Barry Scheck and Peter Neufeld of the 
Innocence Project wrote in the New York Times that ``Conventional hair 
analysis . . . is subjective junk science . . . Unsound techniques 
survive because forensic science has been woven into the culture of 
prosecution and insulated from routine quality assurance standards we 
impose on medical testing labs. . . To often, forensic laboratories are 
run by law enforcement officers in lab coats.'' Scheck and Neufeld 
conclude, in part, by suggesting that forensic labs should be 
independent agencies, serving as independent fact finders for both the 
prosecution and the defense. Do you agree with this suggestion? Why or 
why not?
    Answer: I do not agree with the suggestion that forensic 
laboratories should be independent agencies. I have had the opportunity 
to work for two law enforcement agencies during my thirty-year career 
as a forensic scientist and forensic science administrator. These 
agencies, the Georgia Bureau of Investigation (GBI) and the Illinois 
State Police (ISP) both provide the vast majority of forensic science 
services to their respective state's criminal justice systems. My 
experience in both agencies allow me to emphatically state that I have 
never known of a situation where scientific evidence was withheld, 
misinterpreted, or compromised to enhance the prosecution of a case. In 
fact, I am pleased to inform the committee that I have had experiences 
in both agencies in which law enforcement officials have relentlessly 
pursued scientific evidence that resulted in not substantiating the 
investigatory leads made by law enforcement personnel. I know that both 
the ISP and GBI advocate and practice unbiased investigations to 
include those scientific analyses performed in their forensic 
laboratories.
    In the ISP, for example, we strive to report all the scientific 
facts in an understandable manner so that the information can then be 
used by the judicial system to determine an individual's guilt or 
innocence. The Illinois State Police starts stressing the importance of 
impartiality with novice forensic scientists. All of our forensic 
scientists attend a week-long Courtroom Demeanor Training that teaches 
them their role in the judicial process. The scientists also attend an 
ethics seminar which stresses the need to accurately report all 
scientific findings. These basic principles are stressed throughout the 
forensic scientist's career. To ensure all scientific findings are 
reported accurately and completely, the ISP has a thorough quality 
assurance program that includes case file reviews, random reanalysis of 
already reported cases and courtroom testimony monitoring by 
supervisors. Part of the quality assurance program also includes the 
use of court cards which are given to the prosecutor, defense attorney 
and the judge by each forensic scientist who testifies so that those 
individuals can evaluate and comment on the testimony given by our 
scientists. Additionally, both the ISP and GBI laboratory systems are 
headed by individuals who are scientists who have worked in a forensic 
science laboratory. Finally, I believe that forensic science 
laboratories need the support of large organizations that are able to 
provide the necessary resources to adequately provide these expensive 
scientific services. As an independent forensic science agency, we 
would not have the political leverage to compete with other large state 
agencies. Even though we have needs in the ISP laboratory system, our 
laboratories have been a priority in our agency and have received 
resources on par with other department divisions.

    Question 2: The Paul Coverdell National Forensic Sciences 
Improvement Act contains a provision that expresses the sense of the 
Congress that states that receive these grants should agree to ensure 
post-conviction DNA testing inappropriate cases. When we are talking 
about the possibility of an innocent person sitting in prison, even 
death row, fairness and justice demand that we allow post-conviction 
access to DNA testing.
    (a) What is the current status of post-conviction DNA testing in 
your state?
    Answer: Since 1998, section 116-3 of the Illinois Code of Criminal 
Procedure of 1963 (725 ILCS 5/116-3) has allowed a defendant to have 
physical evidence subjected to forensic DNA testing that was not 
available at the time of trial, if certain requirements are met (see 
attachment). To obtain DNA testing, a defendant must present a prima 
facie case that identity was the issue at trial, and that the evidence 
to be tested has been under a secure chain of custody. Testing is 
permitted if (1) the method of DNA testing requested is generally 
accepted within the relevant scientific community, and (2) ``the 
results of the testing has the scientific potential to produce new, 
noncumulative evidence materially relevant to the defendant's assertion 
of actual innocence.''
    On May 24, 2001, in People v. Savory (Docket No. 88786), the 
Illinois Supreme Court addressed the meaning of this criminal code 
requirement for what the results of DNA testing must have the potential 
to produce (see attachment). The case defendant, Johnny Lee Savory, had 
been convicted of the stabbing deaths of a Peoria, Illinois brother and 
sister in 1977. The evidence Savory wanted tested was blood stained 
trousers taken from his home by the police. At trial, the State had 
introduced the trousers as evidence; had contended Savory was wearing 
the trousers at the time of the murders; and had established the 
trousers had been stained with blood of the same type as the murdered 
sister. Savory alleged new DNA tests available since his conviction 
would establish the trouser blood was not the murdered sister's.
    The State argued, and had won in lower Illinois courts, taking the 
position Savory was not entitled to the new DNA tests he sought. In the 
Illinois Supreme Court, the State contended the Criminal Code only 
allowed defendants to seek a new DNA test on old evidence when the 
tests results would completely vindicate them. The State pointed out 
that even if the new DNA tests Savory wanted established the blood 
stain on the trousers was not the dead sister's, this did not mean 
Savory had not stabbed her to death.
    Writing for a unanimous seven justice Illinois Supreme Court, 
Justice Mary Ann McMorrow explained evidence which is ``materially 
relevant'' to a defendant's claim of actual innocence is simply 
evidence which tends to advance the claim significantly. Justice 
McMorrow wrote, ``Accordingly, we hold that section 116-3 is not 
limited to situations in which scientific testing of a certain piece of 
evidence would completely exonerate a defendant.'' Justice McMorrow 
then moved on to rule that even given this fact, Savory was not 
entitled to the new DNA tests he requested. The bloodstained trousers, 
Justice McMorrow noted, were essentially a collateral issue at trial 
and were not central to the State's evidence of Savory's guilt.
    The consequence of the People v. Savory decision for justice in 
Illinois will be large. First, while past judges receiving prima facie 
case petitions might have been inclined to accept them at face value, 
in the future they should be more likely to look behind the defendant's 
claims for what the evidence really will show. Second, lawyers 
representing prisoners alleging innocence regularly confront situations 
where information from evidence analysis may produce important facts, 
but will not totally exonerate their clients. These lawyers now have a 
ruling supporting ongoing, stepby-step attempts to collect facts that 
will accumulate and could be beneficial to people alleging wrongful 
convictions.
    (b) What role have you played in urging this important reform in 
your state?
    In 1998, the ISP, Division of Forensic Services, Forensic Sciences 
Command (DFS, FSC), supported the legislation that became section 116-3 
of the Illinois Code of Criminal Procedure of 1963. With ISP backing, 
this legislation passed the Illinois General Assembly and was signed by 
then Governor Jim Edgar. The ISP, DFS, FSC top command's position on 
this legislation was that anyone wrongfully convicted would want the 
opportunities this proposal provided to prove their innocence. At that 
time, the ISP, DFS, FSC top command understood the proposal would put 
additional demands on the ISP laboratory system's personnel and 
equipment. The ISP provided the proposal's sponsors and the governor 
with ``best estimate'' costs for these new analysis services, and 
followed with an explanation that what was really at issue was not 
costs, but was a matter of the fundamental fairness everyone had a 
right to expect from our criminal justice system.

    Question 3: One problem sometimes faced by people seeking to prove 
their innocence is that the biological evidence has not been stored 
properly or, even worse, has been discarded by the state.
    (a) What procedures do you have in place in your lab to store 
biological evidence?
    Answer: Evidence received in criminal cases is kept in a sealed 
condition in the laboratory evidence vault under proper storage 
conditions (room temperature, refrigerator, or freezer, depending upon 
the type of biological evidence) until the case is analyzed and the 
case questions are answered.
    (b) Once a conviction has been obtained, how do you maintain the 
integrity of the biological evidence and store it?
    In most cases, the evidence has been introduced into court and 
therefore is no longer at the laboratory. If the evidence is not turned 
over to the court, the evidence is then returned in a sealed condition, 
along with any pertinent directions concerning evidence storage 
conditions, to the original submitting law enforcement agencies for 
appropriate evidence disposition.
    (c) In your state, how long is the state crime lab required to 
store biological evidence of a convicted offender?
    On June 23, 2000, Governor Ryan signed a bill (House Bill 4593) 
creating a uniform statewide evidence retention policy after the trial 
and conviction of a defendant. Responsibility to retain the evidence 
rests with the submitting law enforcement agency, not the crime 
laboratory. Retention times for the evidence vary depending upon the 
crime, from seven years following a conviction for a felony which 
requires the defendant's genetic profile to be taken for comparison 
with a forensic DNA database of unsolved offenses, up to permanent 
retention for other specific convictions.
    (e) What are the procedures that your state crime lab follows in 
the event that the defense seeks access to the biological evidence and 
needs it transferred to a forensic lab retained by the
    When the defense seeks access to biological evidence, the ISP 
forensic science laboratories will, working through the state's 
attorney's office, either send the evidence directly to the defense 
forensic laboratory if all parties agree, or return the evidence to the 
submitting law enforcement agency where the defense can obtain the 
evidence to send it to a laboratory of their choice.

                                <F-dash>

    Responses of Richard J. Townsend to questions submitted by the 
                       Committee on the Judiciary

              answers to questions for panel ii witnesses
    Answer 1: In the state of Utah, Bureau of Forensic Services, in an 
accredited laboratory with the American Society of Crime Lab 
Directors--Laboratory Advisory Board. We became accredited in 1996 and 
are being inspected in July of 2001 (for reaccreditation during the 
next five years). Our laboratory system undergoes yearly internal and 
external reviews by AS CLDLAB approved auditors and we must present 
evidence of internal and external reviews on a yearly basis to ASCLD-
LAB.

    Answer 2: One hundred percent of our case analyses are technically 
and administratively reviewed. The peer review is generally conducted 
by a trained analyst in the discipline of the case. An administrative 
review is typically conducted by a peer or supervisor. Disagreements 
are resolved at the peer review level and, if necessary, a supervisor 
can interject his/her opinion on the results of the analysis.

    Answer 3: All cases are assigned to principle criminaiists in each 
discipline, i.e., DNA cases to DNA criminalists, drug cases to 
chemistry criminalists, fingerprint cases to latent fingerprint 
examiners, etc. Each criminalist is responsible for his/her case 
reports which are logged into the Utah Evidence Tracking System.

    Answer 4: Each new employee who will be doing case work undergoes 
an extensive training process in the discipline he/she is hired for. In 
drug chemistry, the typical training period is approximately one year, 
while it takes two years for a DNA analyst to become qualified and 
certified. There is a set training protocol for each discipline and 
every must undergo a certification process and pass proficiency 
examinations on a yearly basis.

    Answer 5: Although the Bureau of Forensic Services is a section of 
the Utah Department of Public Safety, there is a pledge of mutual 
science in this laboratory system. We testify to scientific fact as 
determined by training, experience, instrumentation and education. 
Under no circumstances, are employees allowed to be persuaded or biased 
by the prosecution. By state statute, we are also obligated to perform 
analyses for the defense.

    Answer 6a: I have never heard of Brain Fingerprinting technology.
    Answer 6b: No.

    Answer 7: In Utah, we have developed a software program called the 
Utah Evidence Tracking System (VETS). Any piece of evidence brought to 
the Laboratory for analysis is bar coded prior to being accepted into 
the Laboratory system. All evidence must be properly sealed and labeled 
prior to being accepted by the evidence technicians.. Each time the 
evidence changes hands, a signature must be made on an evidence 
tracking sheet and the evidence is bar coded to the next examiner, who 
is assigned a personal bar code.

    Answer 8: Biological fluids containing DNA evidence are preserved 
by freezing. If the sample being analyzed contains enough fluid for 
future analysis (either for reanalysis or defense analysis), the 
residual evidence is frozen. We store DNA profiles and DNA evidence 
indefinitely.

                                <F-dash>

  Responses of Richard J. Townsend to questions submitted by Senator 
                                Feingold

              answers to questions for panel ii witnesses
    Answer 1: . To make a statement that ``too often, forensic 
laboratories are run by law enforcement officers in lab coats'' is both 
erroneous and offensive. As a law enforcement officer myself, one of 
the aspects I have admired most about the scientists who work in our 
forensic laboratory system is standing up for ``the neutrality of the 
analysis'' and going to the wall in defense of their analysis. It is a 
fact that at certain times police officers make an attempt to interject 
their opinions or persuade the analysis to go a certain direction. In 
my four years of being the Lab Administrator, I cannot cite one single 
case where that has been a factor in determining the results of the 
analysis.
    Answer 1a: This Laboratory System strongly supports post-conviction 
DNA analysis and is supported by Utah Senate Bill 172 which passed the 
2001 general session of the Utah Legislature and is entitled ``Post-
Conviction DNA Testing''.
    Answer 1b: I personally testified in favor in the passage of SB172 
and the Bureau of Forensic Services currently has a board member 
serving on. the ``Innocence Project'' to screen any and all potential 
post-conviction DNA cases.
    Answer 2a: This Laboratory System does everything in its power to 
preserve DNA evidence in freezers. Many times, however, there is not 
enough of an evidentiary sample to preserve evidence after the analysis 
is completed. In certain cases, there is not even enough evidence 
preserved in order for it to be tested by a defense expert.
    Answer 2b: We continue to maintain the evidence by keeping it in a 
freezer.
    Answer 2c: There is no statutory mandate for the retention of 
biological evidence of a convicted offender in the state of Utah. 
However, we keep the evidence anyhow.
    Answer 2d : If enough of the evidence is present for defense expert 
examination, we will release the evidence to the defense in the very 
same way we release the analysis back to law enforcement and 
prosecutors.

                                <F-dash>

Responses of Michael T. Yura to questions submitted by the Committee on 
                             the Judiciary

    Question 1: What is the laboratory accreditation for your states 
and what other types of external reviews do your laboratories undergo?
    Answer: The West Virginia State Police Forensic Laboratory is an 
accredited Laboratory through the American Society of Crime Laboratory 
Directors (ASCLD). ASCLD accreditation is a voluntary process in which 
the lab demonstrates that its management, operations. personnel, 
procedures, equipment, physical plant, security, and health and safety 
procedures comply with established standards.
    According to ASCLD, the accreditation is part of the laboratory's 
quality assurance program, which includes proficiency testing, 
continuing education, and other programs to help the laboratory provide 
better overall service to the criminal justice system. Accreditation is 
granted for a period of five years provided that a laboratory continues 
to meet ASCLD standards, including completion of the annual 
Accreditation Review Report and participation in proficiency testing 
programs as prescribed In order to maintain accreditation, a laboratory 
must submit a new Application for Accreditation every fifth year, and 
undergo another on-site inspection. Also, each section of the 
laboratory is required each year to undergo . proficiency testing 
conducted by ate outside source.

    Question 2: What is your method for resolving disagreements among 
examiners over forensic methods or the interpretation of results?
    Answer: Currently, the West Virginia State Police Forensic 
Laboratory has no policy on resolving conflicts or disagreements of 
interpretations of results. However, efforts are in progress to address 
this with the intention of implementing a policy that will set a 
procedure for the handling of the types of matters.

    Question 3: How is your work assigned, in terms of principle and 
auxiliary analysts, and who is responsible for the preparation of 
reports?
    Answer: Cases are assigned to qualified analysts as they are 
submitted to the laboratory. The Section Head of each laboratory 
department is responsible in overseeing that the work of each qualified 
analyst is completed as well as verified. As for the writing of the 
reports, analysts are responsible for writing up reports for the 
evidence that they analyzed Afterwards, each written report is 
subjected to both as administrative and technical review.

    Question 4: What are the training requirements for you personnel?
    Answer: The West Virginia State Police Forensic Laboratory is 
composed of seven sections. Due to the differences in each section, the 
type of training required is also different; however, each person is 
required to meet a certain criteria through training in order fin meet 
the standards of a qualified analyst. Each person is subject rigorous 
on-the-job training, must regularly participate in specialized schools 
related to their field, undergo proficiency testing on a regular basis, 
and participate in continuing education in laboratory standards and 
procedures. Also the length of the training varies from section to 
section as the entry-level educational requirements.

    Question 5: How do you guard against prosecutorial bias?
    Answer: Analysts within the West Virginia State Police Forensic 
Laboratory act as an interpreter of the evidence, not as an advocate of 
the prosecution or the defense. In court, the job of the analyst is to 
help the jury and other members of the court understand only what can 
be determined from the evidence- This philosophy is instilled into 
analysts during their training process and is continually strengthened 
during their career.

    Question 6: Brain fingerprinting is the use of a computer-based 
tecnology to identify the perpetrator of a crime by measuring brain-
wave responses to crime-relevant words or pictures presented on a 
computer screen. These brain wave responses are called MERMERs (memory 
and encoding related multifaceted electronencephalographic responses), 
which are elicited when the brain processes noteworthy information that 
it recognizes. According to the technology's proponents, when details 
of the crime that only the perpetrator would know are presented, a 
MERMER is emitted by the brain of the prepetrator. The brain of an 
innocent suspect would not emit a MERMER because there would not be 
recognition of the information presented.
    A. Are you familiar with the Brain Fingerprinting technology? If 
you are, do you have an opinion on the validity of this technology?
    B. Is this technology being used in your laboratories, and if so, 
how sucessful has it been?
    Answer A: Yes, members of the West Virginia State Police Forensic 
Laboratory are familiar with the new technology of Brain 
Fingerprinting. As mentioned in the statement above, it is a type of 
program developed by Dr. Lawrence Farwell of the Harvard Medical School 
that fingerprints brain waves of a suspect as they relate to crime-
related information. According to the results of studies conducted, 
Brain Fingerprinting appears to be a new valid technology in the 
criminal justice system. According to results, Farwell Brain 
Fingerprinting has proven 100% accurate in 100 tests conducted, 
including tests done on FBI agents, US intelligence agents, and for the 
US Navy. Also Brain Fingerprinting was presented in an Iowa court and 
was found admissible by the judge. Three science utilized by the 
Farwell technique was evaluated under the Daubed standard and passed 
all four aspects of tie standard.
    Answer B: This technology is currently not being conducted in our 
laboratories. The Farwell Brain Fingerprinting technique is a new 
technology, and unfortunately, is only being used in a handful of 
laboratories across the nation.

    Question 7: How do your crime labs maintain the integrity of the 
chain of custody, so that evidence is not compromised?
    Answer: The West Virginia State Police Forensic Laboratory operates 
under a strict guideline for chain-of-custody. As evidence is received, 
it is checked for proper packaging, which includes appropriate seals. 
An inventory is made of the evidence and it is resealed by the analyst 
and placed in a secure storage locker until processed. After 
processing, it is resealed until such time that it is returned in 
person or sent by certified mail. If the evidence is transferred to 
another section for examination, the appropriate documentation is made 
and follows the evidence. The packaging, the actual evidence, and any 
labels will be marked with the analyst's case number and initials.

    Question 8: How do you preserve evidence containing DNA for use in 
later testing and for how long do you keep such evidence?
    Answer: As is standard procedure, DNA evidence is kept in secure 
freezes at a constant temperature of -76 deg. C. The West Virginia 
State Police Forensic Laboratory Biochemistry Section houses all DNA 
evidence indefinitely.

                                <F-dash>

                       SUBMISSIONS FOR THE RECORD

    Federal Bureau of Investigation, FBI Laboratory, Washington, DC

    Mitochondrial DNA (mtDNA) is very abundant in most human cells. 
Each cell literally has thousands of copies of MtDNA. This is 
contrasted to the two copies (maternal and paternal) of nuclear DNA 
present in most human cells such as semen, blood, and skin. The 
multitude of mtDNA copies present in tissue samples, however, increases 
the likelihood that some will persist intact in samples where nuclear 
DNA has been degraded by bacteria, sunlight, or other insults. 
Consequently, certain tissues (e.g., hair, bones, teeth) having little 
nuclear DNA often can be successfully analyzed for mtDNA when 
conventional DNA analysis would not be effective.
    MtDNA is passed to each generation through the maternal line and is 
most useful in abduction and assault cases (in which hairs may be 
recovered) and identification of human remains. Biological evidence 
recovered in missing persons cases is often in advanced stages of 
decomposition (with little or no nuclear DNA remaining intact). In such 
cases, mtDNA may be the only form of DNA testing possible. Because 
mtDNA is inherited through the maternal line, reference samples for 
comparison purposes can be collected from the mother or other living 
maternal relatives of the putative victim. Although it provides less 
statistically significant results than conventional DNA when matches 
are found, mtDNA is often the only means of analyzing degraded tissue 
and has proven to be a very powerful investigative tool in recent 
years.
    The FBI Laboratory began forensic mtDNA analysis in June 1996 after 
four years of research and validation. To date, nearly 700 cases have 
been completed and testimony has been provided in 26 states, Canada and 
Australia. As its success has grown, demand for mtDNA testing far 
outstrips the FBI Laboratory's current or likely future capacity. 
Anticipating the need for other crime laboratories to develop their own 
mtDNA capabilities, in 1998, the FBI Laboratory began training forensic 
scientists in mtDNA analysis in a two-week course at the FBI Academy in 
Quantico, Virginia. So far, personnel have been trained from sixteen 
state and local crime laboratories, and three foreign countries.
    The FBI's Combined DNA Index System (CODIS) includes a Missing 
Persons Index which matches DNA profiles resulting from analysis of 
tissue samples containing nuclear DNA or mtDNA. Unfortunately, none of 
the 123 state and local laboratories currently participating in CODIS 
can take full advantage of the Missing Persons Index because they do 
not conduct mtDNA analysis required to enter mtDNA profiles in the 
Index. For CODIS to reach its full potential as an investigative tool, 
and if all the nation's criminal justice system is to benefit from 
mtDNA testing, capacity must be expanded to provide nationwide 
coverage.
    The FBI Laboratory remains the only public crime laboratory 
conducting mtDNA testing--mostly for reasons related to funding. 
Although laboratory equipment required for mtDNA analysis is similar to 
other current methods for DNA analysis, three major factors 
significantly increase the cost and difficulty of establishing mtDNA 
analysis, even in crime laboratories with well-established DNA 
programs. First, and most significant, stringent quality assurance 
standards require dedication of separate rooms and laboratory 
equipment--which is expensive, consumes precious laboratory space, and 
cannot be used for other purposes. Second, supplies and laboratory 
reagents required for mtDNA are more expensive than for any other 
routine forensic analysis technique, including conventional DNA 
analysis. And, Third, mdDNA requires special software for data analysis 
which is relatively expensive.
    The FBI Laboratory proposes to establish a nationwide mtDNA 
laboratory network. As envisioned, the FBI Laboratory would administer 
a network of six to eight state and local crime laboratories that are 
Federally funded to provide mtDNA testing services to state and local 
criminal justice agencies. With new appropriations for program 
expenditures, the FBI will be responsible for selecting laboratories in 
the network, training personnel, providing annual funding, and 
assessing adherence to standards for quality assurance.
    To carry out program management responsibilities, including 
training and quality assurance for regional laboratories conducting 
forensic mtDNA analysis, the FBI Laboratory will require one GS-14 
Program Manager, two GS-13/14 Examiners, two GS-11/12 Biologists and 
two GS-13/14 Quality Assurance Specialists. Funding for additional 
training equipment and related supply and reagent costs associated with 
mtDNA testing would also be required that would be similar to start up 
costs for a regional laboratory (i.e., approximately $1 million). 
Current equipment in the FBI Laboratory used for casework would be 
inappropriate for quality assurance testing necessary for monitoring 
the network laboratories.
    With appropriate support, several public crime laboratories in the 
U.S. could successfully conduct mtDNA in forensic casework. Such 
laboratories have already established testing programs for nuclear DNA 
and, with additional equipment and supply budgets, could provide mtDNA 
analysis within specified regions of the U.S. That way, all crime 
laboratories would have access to service that is close to home while 
avoiding duplication of mtDNA capabilities because mtDNA laboratories 
would be of sufficient size to operate efficiently. Thus, access to 
mtDNA would expand while minimizing overall costs to the nation.The FBI 
Laboratory estimates that the average start-up cost for each laboratory 
to prepare for mtDNA testing is approximately $1 million. This estimate 
is based on laboratory building enhancements, equipment needs, supply 
purchases, and training requirements. In addition to start-up costs, 
each laboratory will need an additional $100,000 - $200,000 annually 
for supplies and reagent related to mtDNA analysis.

 
 
 
2 genetic analyzers (sequencing, i.e., ABI 3100, ABI 377)..     270,000
4 luminometers (mtDNA quantitation)........................     100,000
2 to 4 Taqman or Beckman CEs (post-PCR quantitation).......     300,000
thermal cyclers, dedicated sampling equipment..............     130,000
dedicated extraction, PCR and sequencing reagents..........     200,000
    Estimated TOTAL........................................   1,000,000
 

                prospective sites for mtdna laboratories
    The following state and local crime laboratories are recognized 
leaders in nuclear DNA testing and have the potential and desire to 
develop a mtDNA testing capability. Some have begun making laboratory 
renovations required for mtDNA testing. Many have sent analysts to the 
FBI Laboratory mtDNA school. This list is not inclusive of potentially 
qualified sites, but highlights possible participants in the program.
        Albuquerque Police Department Crime Laboratory
         400 Rorna Northwest, Albuquerque, NM 87102
        Phoenix Police Department Crime Laboratory
         620 Washington Street, Phoenix, AZ 85003
        Arkansas State Crime Lab
         #3 Natural Resources Drive, Little Rock, AR 72215
        Illinois State Police Research and Development Laboratory
         2060 Hill Meadows Drive, Springfield, IL 62702
        Harris County Texas Medical Examiner's Office
         1885 Old Spanish Trail, Houston, TX 77035
        New York City Medical Examiner's Office
         520 First Avenue, New York, NY 10016
        Georgia Bureau of Investigation(GBI) Crime Laboratory
         Post Office Box 370808, Decatur, GA 30037
        New York State Police Crime Laboratory
         1220 Washington Avenue, Albany, NY 12226
        California Department of Justice
         626 Bancroft Way, Berkeley, CA 94710
        Florida Department of Law Enforcement
         4211-A North Lois Avenue, Tampa, FL 33614
        Virginia Division of Forensic Science
         1501 East Franklin Street, Richmond, VA 23219
        Arizona Department of Public Safety Crime Laboratory
         2102 West Encanto Boulevard, Phoenix, AZ 85009
        Ohio BCI and Crime Laboratories
         P.O. Box 365, London, OH 43140

                                <F-dash>

  Statement of Terry W. Fenger, Marshall University, Forensic Science 
                                Program

    As director of the Forensic Science Program and the West Virginia, 
CODIS laboratory at Marshall University in Huntington, WV., I would 
like to congratulate Senators Hatch, Sessions, Leahy and Feingold on 
your efforts to fund the Paul Coverdell National Forensic Sciences 
Improvement Act. The hearing on May 15, 2001 emphasized urgent needs of 
the forensic science community and how delayed testing of crime 
evidence is directly related to understaffed and minimally funded 
forensic laboratories. As many forensic scientists near retirement, it 
is even more imperative that a new generation of forensic specialists 
be trained in this technologically oriented field.
    With this objective in mind the Master's degree granting program in 
Forensic Science at Marshall University has been working in close 
association with the West Virginia State Police. Under a Memorandum of 
Understanding Marshall's Program has provided continuing education 
courses, in addition to courses that allowed 5 State Police forensic 
scientists to graduate with Master's degrees. Our relationship is 
unique and dates back to 1992. In addition, over the last 5 years 70 
forensic scientists have graduated from the program and have been 
eagerly recruited by the forensic community.
    Marshall University's Forensic Science Center is also responsible 
for performing the State's DNA profiling for the state's offender 
database under the authority of the WV State Police. Through the use of 
bar coding of offender samples and other secure methods, we are able to 
maintain confidentiality and meet standards issued by the DNA Advisory 
Board.
    As many new and exiting technologies become available for use in 
forensic science, the courts and the communities that we serve, expect 
that sophisticated instruments will be used to solve cases. The price 
tags on many instruments can be daunting and at the present time most 
local and even some state labs lack these capabilities. Furthermore, 
once the instruments are acquired extensive training and validations 
studies are necessary. Higher education can provide instrument 
training, which will allow crime laboratories to concentrate on 
casework and testifying in court.
    It is my opinion that Marshall University and the WV State Police 
have developed a beneficial association, which serves as a model for 
similar collaborations, nationally. We are maximizing the use of our 
limited resources, but we look to your leadership to for enhanced 
funding for forensic laboratories as we move into the next millennium.
    This statement is given on behalf of the May 15', 2001 US Senate 
Judiciary Committee hearings on the Paul Coverdell National Forensic 
Science Improvement Act. We thank the Members of the Committee for this 
chance to explain the need for an increase in support for forensic 
science research and education.
    Forensic science is relatively young, with its roots stretching 
back only 150 years. Modern forensics and criminalistics is even 
younger, having emerged as a valid and accepted format of investigation 
during the early Twentieth Century, very much in parallel with Quantum 
Theory. Just as Newtonian Theory changed to Quantum Theory, so has 
forensics undergone an evolution, from looking at the large to the 
microscopically tiny. However, the importance of forensic science is in 
no way microscopic. Simply put, forensic science solves cases and 
catches criminals. It exonerates the innocent and convicts the guilty, 
even years after the crime has been committed and without the need for 
witnesses.
    ``The most tangible way in which science, especially chemistry, can 
be concerned with the well-being of society is its use in the 
maintenance of the fabric of society as expressed in constant vigil 
against crime.''
                    British Forensic Society Journal
    Forensic science is the tool that allows the justice system to 
increase security through order, thus establishing peace in society. 
Order means fewer redundant arrests via the removal of recidivist 
criminals, and speedy and efficient trials without excess appeals due 
to the improper collection, handling, storage and analysis of evidence.
    It will be imperative, using the Coverdell Bill, to increase 
funding for the field of forensic science in general, and the National 
Institute of Justice in particular. There are several vital reasons for 
the advent of increased funding. First, there is a titanic backlog of 
unsolved and uninvestigated cases in the United States. Because of this 
backlog, there are a great number of repeat offenders that haven't been 
caught and jailed. Second, there is also a need to develop new forensic 
science technologies. Criminals continue to gain access to better 
technology for use in their crimes, and so the justice system must 
endeavor to advance its own technology in order to capture them. More 
advanced technology will help deal with the escalating amount of 
scientific analysis casework. It will also help to deal with the 
increase of technology-related crimes including cyber-crimes. However, 
creating new forensic science technology will take time. Many labs lack 
equipment or have equipment that is outdated. These labs need access to 
current forensic technology simply to make them viable and accredited. 
Finally, investigators and scientists in the justice system need 
continuing education and the justice system, itself, needs more 
investigators and scientists.
    Large sums of money are currently being allocated for the creation 
of new police officers (including community policing), and new courts 
and community-based non-police justice efforts. By diverting a small 
percentage of these funds, combined with a modest increase in the 
general fund allocation for the Coverdell Bill, an estimated $50-100 
million in new money could be raised for forensic science. These funds 
would allow forensic science to help the justice system solve and 
investigate more criminal cases, train personnel, and replace outdated 
equipment. Such benefits would make a large increase in new police 
officers unnecessary, allowing currently allocated funding to be 
distributed among existing police officers, thereby increasing 
salaries, and health and retirement benefits.
    Four specific groups will immediately benefit from increased 
forensic science funding: law enforcement personnel, courts, taxpayers, 
and government officials. Law enforcement personnel will see a decrease 
in the backlog of criminal cases as they gain the tools they need to 
investigate and solve crime. This also means an enhanced ability to 
catch and convict repeat offenders. Funding for forensic sciences means 
greater physical safety and less job-related stress to law enforcement 
personnel. These things combined will result in lower healthcare and 
worker's compensation costs and increased job satisfaction. Courts will 
be able handle trials with speed and efficiency, leading to a larger 
throughput with lowered court costs, and ultimately fewer hearings and 
appeals. These substantially lowered court costs will mean that 
taxpayers will have less tax to pay for a more efficient and just legal 
system. In addition, this more efficient and just legal system will 
reduce crime dramatically. Reduced crime means reduced associated costs 
on society. These costs include healthcare, insurance, item replacement 
(due to theft and fire), and more. These benefits mean more satisfied 
taxpayers. More satisfied taxpayers mean an increase in political 
support and participation by satisfied constituents. With satisfied 
constituents government officials will be able to continue to enact 
programs and policies that advance health, education, and welfare in 
society.
    Once again, we thank the Members of the Committee for having had 
this chance to explain the need for an increase in support for forensic 
science research and education, including the National Institute of 
Justice, through the Paul Coverdell National Forensic Science 
Improvement Act.
    James Kirchoff, Jonathan Lucke, Frank McManus, Francis Nottke
    Pima Community College, the University of Arizona, Opto-Forensic 
Technologies

                                <F-dash>

   Statement of the Police Executive Research Forum, Washington, D.C.

                                overview
    In August and September 1999, the Police Executive Research Forum 
(PERF) and The Justice and Safety Center, Eastern Kentucky University 
(EKL1), conducted a survey of law enforcement agencies on behalf of the 
National Commission on the Future of DNA Evidence. The purpose of the 
survey was to estimate the number of rape or sexual assault cases with 
possible DNA evidence that have not been submitted for DNA examination 
and the reasons why that evidence was not submitted for testing. 
Eastern Kentucky University conducted a survey of smaller law 
enforcement agencies, while PERF examined the larger police and law 
enforcement organizations. The scope of inquiry was restricted to the 
examination of rape and sexual assault cases, based on the notion that 
DNA evidence was regularly considered in the course of those 
investigations.
                              methodology
    For the purpose of analysis, a distinction was made between larger 
and smaller law enforcement agencies, since an agency's size, resource 
base, and investigative experiences influenced how cases with DNA 
evidence were addressed. As a result, EKU examined a total of 153 
organizations where the population in the jurisdiction did not exceed 
50,000 and the department employed ten officers or less. PERF conducted 
a survey of 1221aw enforcement agencies in which each department served 
a population of 50,000 or more or employed more than one hundred full 
time sworn and civilian personnel. While a final report related to 
smaller organizations has been prepared by EKU, results from their 
survey have been incorporated into this document for comparative 
purposes.
    A survey target list of larger polis agencies was drawn from the 
PERF membership directores, specifically from the category of ``General 
Member.'' General Members must meet the following criteria:

        a. The executive head of a municipal, county or state-funded 
        agency that provides general and basic police services;
        b. The agency must have at least 100 full-time employees, or 
        serve a population of 50,000 or more people; and
        c. The executive head must have at least a baccalaureate degree 
        from an accredited college or university.

    Although the PERF membership list includes a number of 
international and national organizations, the agencies asked to 
participate in the survey were based in the United States, and having 
the authority to engage in criminal investigations where there existed 
a potential to examine evidence containing DNA. Organizations selected 
under the above criteria were divided into two groups. A minimum of 50 
agencies would supply answers to an in-depth telephone survey and the 
remaining qualifying agencies would be asked to respond through a 
shorter fax survey.
    The telephone survey consisted of a series of questions in a three-
page format. The agencies were contacted by telphone and arrangements 
were made to send copies of the three page questionnaire for 
completion. Respondents would transmit their results by telephone to a 
PERF reqpresentative. This process was adopted because some of the 
survey questions required an examination of records that would involve 
research by the respondent. To ensure a minimum response quota of 50, a 
total of 73 agencies received copies of the telephone survey. Within 
the allotted time period of August 23 to September 17, 1999, 50 out of 
a possible 73 responses were received.
    The fax survey was sent to 125 agencies and 72 were received within 
the allotted time period of September 2 to 22, 1999. The fax format 
incorporated a truncated version of the telephone survey, comprising 
two pages of questions that looked at the number of rape kits in 
storage, the percentage of rape kits with potential DNA evidence that 
are tested, and factors which the agencies perceived to be barriers to 
submissions for DNA testing.
                                Results
                              demographics
    Combining the EKU and PERF surveys resulted in a total of 275 
responses. Table 1 illustrates the originating states of the individual 
survey respondents, organized into the regional categories used in this 
study. Table 1 also shows the proportionate groupings by region along 
with the total number of responses. Representation across regions is 
roughly equal apart from the Southwestern states since this region is 
composed of fewer states than other regions.

                                      Table 1: State and Regional Groupings
 
      Southeast              Northeast                 West                Southwest               Midwest
 
          Alabama                       Connecticut      Alaska                Arizona               Illinois
         Arkansas               Delaware                       California   New Mexico                Indiana
          Florida                  Maine                       Colorado       Oklahoma                   Iowa
          Georgia               Maryland                 Hawaii                  Texas                 Kansas
         Kentucky          Massachusetts                  Idaho                                      Michigan
        Louisiana          New Hampshire                Montana                                     Minnesota
      Mississippi             New Jersey                 Nevada                                      Missouri
           North Carolina       New York                 Oregon                                      Nebraska
           South Carolina   Pennsylvania                   Utah                                  North Dakota
        Tennessee           Rhode Island             Washington                                          Ohio
         Virginia                Vermont                Wyoming                                  South Dakota
    West Virginia                                                                                   Wisconsin
               79                     56                     52                     24                     64
            28.7%                  20.4%                  18.9%                   8.7%                  23.3%
 

    Municipal police agencies represented the largest number of survey 
respondents, with 76.4% reporting results. The second largest group, 
county sheriffs, represented 18.9% of the total, or 52 agencies. County 
police, other agencies, state police, and university police agencies 
comprised the remaining agencies. Urban, rural and suburban 
organizations were included in the study. In terms of agency size, 
agencies with two to fifteen sworn personnel made up 35.6% of the total 
number, with the next highest proportion in the one hundred to four 
hundred sworn member agencies at 25.8% . Organizations of one thousand 
or more sworn members represented 6.2% of the survey population. Tables 
2 and 3 present the distribution between agency types and the 
compositions of the agencies by sworn and civilian personnel.

                      Table 2: Agency Distribution
 
             Agency Type                   Number            Percent
 
                                County Police    8               2.9
                                County Sheriff  52              18.9
                Municipal Police               210              76.4
                           Other                 3               1.1
                           State                 1                .4
                      University                 1                .4
                           Total               275               100
 


           Table 3: Sworn and Civilian Personnel Distribution
 
                                       Number of
        Sworn Personnel               Departments          Percentage
 
                          2-8                    49               17.8
                         9-15                    49               17.8
                        16-22                    27                9.8
                        23-29                    10                3.6
                        30-50                    18                6.5
                       51-100                    15                5.5
                      101-200                    39               14.2
                      201-400                    32               11.6
                     401-1000                    19                6.9
                        1000+                    17                6.2
                        Total                   275                100
 


 
 
                                       Number of
       Civilian Personnel             Departments          Percentage
 
                          0-6                   106               38.5
                         7-13                    33               12.0
                        14-20                    12                4.4
                        21-27                    10                3.6
                        28-75                    48               17.5
                       76-200                    41               14.9
                      201-500                    13                4.7
                         500+                    12                4.4
                        Total                   275                100
 

    Population distribution values revealed that 62.2% of the agencies 
surveyed provided policing services to areas of 1,000 to 100,000 
people, 12% of the survey group worked in areas with populations of 
100,000 to 500,000, and 5.4% of the agencies were responsible for areas 
of 500,000 or more people. One agency failed to provide service 
population data. Table 4 presents the population variations and agency 
distributions between population groups.

                    Table 4: Population Distribution
 
           Population                   Number              Percent
 
                  1,000-13,000                 104                37.8
                 14,000-26,000                  30                10.9
                 27,000-39,000                  14                 5.1
                 40,000-50,000                  15                 5.5
                50,001-100,000                  63                22.9
               100,001-250,000                  22                 8.0
               250,001-500,000                  11                 4.0
             500,001-1,000,000                   8                 2.9
                    1,000,000+                   7                 2.5
                  Missing Data                   1                  .4
                         Total                 275                 100
 

    The 275 agencies responding to the survey accounted for 
approximately 118,000 employees, sworn and civilian, and a service 
population of nearly 46,000,000 people.
                          DNA PROCESSING DATA
    The agencies were asked to respond to a series of questions related 
to their experiences with evidence and DNA testing and evaluation. In 
the first series, respondents were asked if their department assessed 
evidence to determine whether potential DNA samples could be present. 
In the overall analysis, 70.2% of all agencies surveyed revealed that 
they did assess evidence for potential DNA samples, 29.8%, indicated 
they did not make such assessments. Marked differences were seen when 
the practices of larger departments were measured against the practices 
of smaller organizations. The data revealed that within the group of 
larger organizations, 86.9% would examine evidence with an eye to the 
potential of DNA analysis, while in the smaller agencies, only 56.9% 
would assess evidence for potential DNA. These differences can be 
attributed to the likelihood that more serious criminal offenses, those 
that could generate requests for DNA analysis, would be prevalent in 
the jurisdictions of the larger agencies. Additionally, training 
opportunities and a corresponding increased general awareness on the 
part of individuals in larger organizations may prove to explain the 
marked differences in practices. Table 5 illustrates the proportional 
variances.

                                Table 5: Assessment of Evidence for Potential DNA
 
                      Total Number    Total Percent   Large Depts.      Percent      Small Depts.     Percent
 
              No              82            29.8              16            13.1             66           43.1
             Yes             193            70.2             106            86.9             87           56.9
           Total             275             100             122             100            153            100
 


    Many of the agencies (64%) indicated that they submitted evidence 
to the state laboratory for analysis. A large number (27.3%) either 
failed to respond to the question, or did not know where samples were 
sent. Six respondents, or 2.2%, used county laboratories, and private 
laboratories were used by an equivalent number of agencies at 2.5%. In 
2.9% of the responses, samples went to combinations of state and 
private laboratories, or state and county laboratories. Where funds 
existed, some jurisdictions developed in-house laboratories. Three of 
the jurisdictions surveyed reported having or developing in-house 
laboratories: the Albuquerque Police Department, the Los Angeles County 
Sheriff, and the Phoenix Police Department. The data illustrated, 
however, the predominance of the state laboratories as DNA testing 
centers.

                     Table 6: Laboratory Frequencies
 
           Laboratory Type                 Number            Percent
 
                                   County Lab       6               2.2
                        Private Lab                 7               2.5
                          State Lab               176              64.0
               Private & State Labs                 6               2.2
                       In-house Lab                 3               1.1
                           State & County Labs      2                .7
                            Unknown                 3               1.1
                        No Response                72              26.2
                              Total               275               100
 


    When asked if their respective departments had policies regarding 
submissions of samples to laboratories, the data showed that nearly 
three quarters of the survey group have no specific policies (74.5%). 
Variations between larger and smaller departments showed that the 
larger departments were more likely to have a policy than the smaller 
departments. Table 7 illustrates the variations between larger and 
smaller departments.

                                   Table 7: Policies Governing DNA Submissions
 
                      Total Number    Total Percent   Large Depts.      Percent      Small Depts.     Percent
 
              No             205            74.5              85            69.7            120           78.4
             Yes              70            25.5              37            30.3             33           21.6
           Total             275             100             122             100            153            100
 


    Potentials for DNA evidence arising from reported rape or sexual 
assault incidents, and the number of cases that actually end up being 
analyzed for DNA, were explored through two specific questions. The 
first question sought to estimate the percentage of reported rape and 
sexual assault cases that have the potential for DNA evidence. An 
analysis of the total number of responses showed that most departments 
felt that DNA was potentially available in 25% or more of their cases. 
The real differences were seen in the breakdowns between larger and 
smaller departments. Within the group of larger departments, 78.7% felt 
that more than 25% of their rape and sexual assault cases had potential 
DNA evidence. Only 9% of the larger departments did not know how many 
cases could have DNA evidence. An analysis of the responses from 
smaller departments showed that only 47.6% of the departments felt that 
more than 25% of their rape and sexual assault cases had potential DNA 
evidence. A total of 30.1 % of the smaller departments, however, did 
not know how many cases could have DNA evidence. Table 8 presents the 
data obtained in relation to the first question.

    Table 8: Percentage of Reported Rape and Sexual Assault Offenses That Have the Potential For DNA Evidence
 
                      Total Number    Total Percent   Large Depts.      Percent      Small Depts.     Percent
 
        No Resp.               1              .4                                              1             .7
           0-10%              22             8.0               3             2.5             19           12.4
          11-25%              26             9.5              12             9.8             14            9.2
          26-50%              56            20.4              31            25.4             25           16.3
          51-75%              55            20.0              30            24.6             25           16.3
         76-100%              58            21.1              35            28.7             23           15.0
         Unknown              57            20.7              11             9.0             46           30.1
           Total             275             100             122             100            153            100
 


    The second question considered the number of reported rape and 
sexual assault cases with potential DNA evidence against the number 
that are actually analyzed for DNA. With the larger departments, 45.1% 
saw 76-100% of their cases analyzed for DNA, while 34.6% of the smaller 
departments had 76-100% of their cases tested. Real differences 
surfaced under the "Unknown" category. Of the larger departments, 14.8% 
did not know how many of their cases were actually analyzed. The 
smaller departments showed a higher percentage, with 34.6% not knowing 
how many of their cases were analyzed. Table 9 illustrates these 
values.

       Table 9: Percentage of Reported Rape and Sexual Assault Offenses That Are Analyzed For DNA Evidence
 
                      Total Number    Total Percent   Large Depts.      Percent      Small Depts.     Percent
 
            0-10              34            12.4              10             8.2             24           15.7
           11-25              29            10.5              23            18.9              6            3.9
           26-50              23             8.4              12             9.8             11            7.2
           51-75               9             3.3               3             2.5              6            3.9
          76-100             108             393              55            45.1             53           34.6
         Unknown              71            25.8              18            14.8             53           34.6
         Missing               1              .4               1              .8
           Total             275             100             122             100            153            100
 


    Differences were also noted when the survey respondents were asked 
if they submitted DNA samples to the state offender database. The 
larger departments were more likely to submit DNA samples to a state 
offender database, with 85 or 69.7% responding in the affirmative. Of 
the smaller departments, 58 or 37.9% indicated that they make 
submissions to their state database. It should be noted that the survey 
of the smaller departments also included a question on submissions to a 
national database. Of those smaller departments that responded, 67% 
stated they did not make submissions, 7% indicated that they did make 
submissions, and 26% failed to answer the question. Table 10 presents 
the breakdown of submissions to the state database.

                               Table 10: Submissions to State's Offender Database
 
                      Total Number    Total Percent   Large Depts.      Percent      Small Depts.     Percent
 
              No            1121            44.0              34            27.9             87           56.9
             Yes             143            52.0              85            69.7             58           37.9
         Missing              11             4.0               3             2.5              8            5.2
           Total             275             100             122             100            153            100
 


    The fifty larger agencies responding to the telephone survey were 
asked an additional question about laboratory acceptance guidelines. A 
larger number (62%) indicated that the laboratories have acceptance 
guidelines which may include stipulations such as requiring an offender 
or suspect profile, limitations onthe types of tests that could be 
performed, specific packaging procedures, or testing only for a 
specific group of offenses. In general, the more serious offenses would 
receive first consideration by the laboratories, supplanted only by 
cases with impending court dates. Cases with tight court-related time 
limits would be pushed forward in the queue of cases waiting for 
testing, creating the conditions for a backlog. Table t I illustrates 
the proportional responses.

     Table 11: Laboratories With Acceptance Guidelines: Large Agency
                            Telephone Survey
 
                                     Total Number        Total Percent
 
                           No                    13                 26
                          Yes                    31                 62
                      Unknown                     6                 12
                        Total                    50                100
 


    The survey process addressed the issue of case backlogs and the 
relationship to police perceptions of why DNA evidence may not be 
processed. One indicator of case backlogs is the number of rape kits 
remaining in storage, or left unprocessed for DNA testing. Two 
qualifiers must be attached to any examination of the number of 
unprocessed rape kits and relationships to backlogs in conducting DNA 
tests. First, in many jurisdictions, some rape kits are not processed 
for DNA testing because of cases categorized as unfounded, or where the 
victim failed or refused to attend court. Further, in some 
jurisdictions, approval to forward a sample for analysis rests with the 
prosecutor because of these court-related issues. Secondly, the total 
number of rape kits must be regarded as preliminary because of the 
various protocols around the storage and the accounting of the rape 
kits. Some jurisdictions store rape kits in laboratories and police 
property facilities, and others in area hospitals where the respective 
examinations occurred. In some instances, police agencies were only 
able to provide estimations because they had no accurate account of the 
number of kits in storage. Notwithstanding these issues, the number of 
stored rape kits still serves as a reasonable estimation of the 
magnitude of backlogged cases (restricted to rape and sexual assault 
offenses) relating to DNA analysis. Of the 232 agencies that responded 
to the question, 14 or 5.4% of the total sample retained the largest 
number''' of rape kits, a total of 24,943 kits.

                                Table 12: Rape Kits Not Submitted For Processing
 
     Number of Rape Kits Not                                                    Total Number of Unprocessed Rape
            Processed                Number of Depts.      Percent of Sample                  Kits
 
                             0                    113                   41.1                                 0
                          1-10                     47                   17.1                               177
                         11-50                     32                     12                               943
                        51-100                     15                    5.7                              1183
                       201-500                     11                    4.2                              4262
                          501+                     14                    5.4                            24,943
                        Totals                    232                                                   31,508
 


    The survey subsequently examined the reasons why cases would not be 
submitted for DNA testing. The respondents were asked to consider a 
list of reasons, or commonly held beliefs, around the difficulties of 
having samples sent for DNA analysis. These reasons included: Cost/
Financial Restrictions, Lack of Technology at the Designated Crime 
Laboratory, Backlog at the Laboratory, Laboratory Guidelines Restrict 
DNA Processing, Departmental Limitations to Cases with a High 
Likelihood of Prosecution, Department Awaiting New Technology that 
Would Enable Searches of CODIS, and Other Factors. Those completing the 
surveys were then asked to rate each of the reasons along a scale from 
1 to 6, with 1 signifying the most important consideration and 6 being 
the least important consideration. The ``Other Factors'' category was 
included for commentary in the event none of the primary reasons 
applied in a department's considerations. The exercise proved useful in 
terms of identifying the important issues, either experienced or 
perceived, facing law enforcement agencies when they consider 
submission of evidence for DNA analysis. The results were averaged, 
thus, the data portrayed in Tables 13 and 14, illustrate the most 
important considerations as lower values, the less important 
considerations as higher values. Table 13 compares the responses 
between the large (those with 50,000 or more population or more than 
100 full time employees) departments and the smaller agencies (with 
less than 50,000 populations). Table 14 illustrates the distinctions 
between departments with large backlogs (50 or more rape kits 
unprocessed) and departments with smaller backlogs (under 50 
unprocessed kits).

                        Table 13: Reasons For Non-Submission--Large vs. Small Departments
 
                       Reasons                           Large Depts.        Small Depts.             All
 
                          Financial restrictions                3.73                3.88                3.80
                   Lack of laboratory technology                4.39                4.46                4.42
                           Backlog at laboratory                3.39                4.52                3.89
                      Lab guideline restrictions                3.43                4.89                4.09
                         Department limits cases                3.54                4.53                4.00
           Department waiting for new technology                5.05                5.08                5.05
 



                     Table 14: Reasons For Non-Submission--Large Backlogs vs. Small Backlogs
 
                            Reasons                                     50 & Over                Under 50
 
                                   Financial Restrictions                     3.22                    4.26
                            Lack of laboratory technology                     4.42                    4.61
                                    Backlog at laboratory                     2.87                    4.28
                               Lab guideline restrictions                     3.44                    4.46
                                  Department limits cases                     3.63                    4.26
                    Department waiting for new technology                     4.88                    5.07
 


    The responses showed that backlogs at the laboratory and 
restrictions imposed at the laboratory or at departmental levels were 
cited as the predominant reasons for non-submissions. Backlogs and 
restrictions, moreover, were noted as important factors more frequently 
with the larger departments than the smaller agencies. Those with 50 or 
more rape kits in storage saw the laboratory backlogs as a problem more 
frequently than those with less than 50 rape kits in storage. For the 
agencies with 50 or more rape kits in storage, moreover, backlogs at 
laboratories stand significantly apart from the other reasons with an 
average of 2.87. Financial restrictions are seen to occupy the second 
most important category, with laboratory and departmental guidelines as 
being the third and fourth most perceived or experienced impediments to 
DNA submissions.
               results from the expanded telephone survey
    From the telephone surveys of the larger agencies, it was revealed 
that in most cases, detectives in charge of the individual cases and 
secondly, their supervisors, would decide if evidence was suitable for 
DNA analysis. Many agencies relied on standard evidence collection 
techniques in reference to DNA samples. The survey revealed little 
formal training for investigators charged with the responsibility of 
collecting DNA samples, and national training standards for 
investigators were not evident. Crime Scene Technicians are more likely 
to have formal training in collection techniques and often made 
decisions on the viability of samples for DNA analysis, notwithstanding 
the detectives were officially recognized as the ones making the 
decision. In the absence of Crime Scene Technicians, investigating 
detectives would often consult with a supervisor when making decisions 
on evidence to be forwarded for DNA analysis.

                     Table 16: Who Decides What Evidence Will Be Submitted For DNA Analysis
 
                            Position                                      Number                  Percent
 
                                                         Crime Laboratory Technic4an                     8
                                                         Crime Scene Technician  2                       4
                                  Investigating Detective                       35                      70
                                        District Attorney                        2                       4
                                     Detective Supervisor                        7                      14
                                                   Totals                       50                     100
 


    The group of larger agencies responding to the telephone survey was 
asked to identify the offenses for which DNA analysis would be 
considered if evidence were found. Of the 50 respondents, 6 agencies 
considered the possibility of DNA evidence when investigating all 
felonies, and 34 agencies considered DNA evidence only when 
investigating rapes and homicides. Indeed, agency representatives often 
advised that policies of their respective departments did not preclude 
DNA analysis for all qualified offenses, they merely acknowledged that 
submission of samples from an unrestricted list of crimes would 
unnecessarily burden the laboratory and delay the analysis of all 
samples, including those from serious crimes. Further complicating the 
issue of submissions for DNA analysis, 22 of the agencies stated that 
they do not submit DNA samples unless they have a suspect profile 
against which a comparison can be made from existing records, 25 stated 
that they submit samples in all cases, and 3 respondents did not know 
if their submissions were limited to those with suspect profiles.
    Costs are generally not assessed against the submitting police 
agency if a state or county laboratory conducts DNA testing. In some 
jurisdictions, county or district prosecutors would be responsible for 
the costs ofDNA testing after arraignment or if they wanted the sample 
to be tested at a private laboratory. If backlogs prevented samples 
from being tested with expediency, police agencies would often send the 
samples to private laboratories and assume the costs of the tests. 
Costs billed to police agencies from the private laboratories ranged 
from $1000.00 to $5000.00 per sample. Table 17 illustrates a breakdown 
of estimated costs as provided by survey respondents.

                   Table 17: Summary of Cost Estimates
 
 
 
                              Illinois State Crime Lab    $450 to $1000
                        North Carolina State Crime Lab     $50 to $2500
                              Oklahoma State Crime Lab      $50 to $100
                                 Texas State Crime Lab      $50 to $150
                       Johnson County Kansas Crime Lab             $550
                               Georgia State Crime Lab             $600
                         Massachusetts State Crime Lab     $600 to $800
                            New Jersey State Crime Lab            $1500
                              Colorado State Crime Lab             $130
                          Westchester County Crime Lab (NY$250 (paid by
                                                                  D.A.)
                              Michigan State Crime Lab              $50
                            MiamiDade County Crime Lab              $50
                        South Carolina State Crime Lab             $100
                            Washington State Crime Lab             $900
                               Arizona State Crime Lab              $50
                             New York State Police Lab   $1400 to $1500
                         Hamilton County Coroner's Lab $480 (by police)
                        Erie County Central Police Lab (NY)       $3000
     (Data provided by survey respondents)..........
 


    A comparison was made between the number of reported forcible rapes 
against the total number of untested: rape kits in storage from data 
supplied by the 50 agencies that submitted responses to the telephone 
survey and Uniform Crime Reports (UCR) of the latest year, 1997. During 
1997, forty-two of the fifty agencies reported 3133 incidents of 
forcible rape. The fifty agencies collectively had 8487 untested rape 
kits in storage over varying periods of time. Reported rapes for 1997, 
therefore, represent 36.9% of the total number ofrape kits in storage--
The percentages remain relatively consistent when we considered the 
entire group (n = 122) of PERF respondents. In 1997, a total of 12,472 
forcible rapes were reported in the UCR, and the 122 agencies indicated 
that they were collectively storing 31,292 untested rape kits. Reported 
rapes for the entire group represented 39.8% of the total number of 
stored and untested rape kits. The data show that reported rapes for a 
given year represent slightly over one third of the total number of 
rape kits in storage.
                              conclusions
    Results of the surveys show that the predominant issue facing the 
national DNA analysis infrastructure is the perception or experience 
ofundercapacity. As the benefits of DNA analysl?, become known on a bi 
oader scale, further pressures will be directed to laboratories to 
increase their capacities. At the present time, case backlogs and 
policy guidelines are generally limiting DNA analysis to only the major 
crimes like homicide and sexual assault. The potential for DNA analysis 
to regularly assist in the clearance of other offenses is acknowledged, 
but the data and interviews suggest the need for more laboratories and 
qualified personnel to conduct the tests.
    The state crime laboratory system handles the bulk of DNA testing 
requests. In nearly 50% of cases for some of the larger agencies, DNA 
testing will be conducted only when a suspect profile is available. 
Submissions and comparisons of unknown suspect samples are not being 
done or are falling behind in priority. Generally, private laboratories 
are seldom used to assist with backlogs. The higher cost of sending 
samples to privately run laboratories limits the number of cases to 
those which are serious, only if a process is not available at a state 
laboratory or if expediency in testing is required. Given the higher 
costs for tests, the private laboratory system does not appear to be a 
viable adjunct to the state system in reducing the backlog.
    Remarkable differences exist between the larger and smaller 
agencies in their understanding of the potential for DNA analysis. 
Nearly 78% of the larger departments felt that more than 25% of their 
cases have DNA evidence, while only 48% of the smaller departments held 
a similar view. Additionally, only 9% of the larger departments had no 
knowledge of the potential for DNA evidence to their respective cases, 
while 30% of the smaller departments could not indicate the extent to 
which they felt DNA had an impact on cases. In reference to submissions 
to an offender database, 69.7% of the larger departments made 
submissions, compared to 37.9% of the smaller departments. As such, the 
data suggests a higher level of awareness and practice with DNA 
evidence with the larger law enforcement agencies. The value of DNA 
analysis to a broader spectrum of offenses is becoming widely accepted. 
As knowledge about the benefits of DNA analysis increases, especially 
to the smaller law enforcement agencies, so too will the requests for 
testing in other than the more serious cases.
    This survey suggests two key barriers must be overcome before the 
potential for the widespread use of DNA evidence in crime solution is 
realized. The first barrier is the perception on the part of law 
enforcement agencies that analysis capacity is limited. This study was 
not intended to determine the validity of this perception. If capacity 
is in fact limited, then capacity should be increased. If capacity is 
adequate, then an educational campaign needs to be conducted for law 
enforcement agencies.
    The second barrier is a result of perceptions of limited analysis 
capacity. The survey discovered that many agencies limit their 
submissions of DNA evidence only to cases with known suspects or 
offender profiles. Such policies and practices will change as 
perceptions of capacity limitations change.

                                   - 

</pre></body></html>
